<html>
<title> - STRATEGIC OPTIONS FOR THE WAY AHEAD IN AFGHANISTAN AND PAKISTAN</title>
<body><pre>[Senate Hearing 111-169]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-169

    STRATEGIC OPTIONS FOR THE WAY AHEAD IN AFGHANISTAN AND PAKISTAN

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 26, 2009

                               __________

         Printed for the use of the Committee on Armed Services






                  U.S. GOVERNMENT PRINTING OFFICE
53-725 PDF                WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

EDWARD M. KENNEDY, Massachusetts     JOHN McCAIN, Arizona
ROBERT C. BYRD, West Virginia        JAMES M. INHOFE, Oklahoma
JOSEPH I. LIEBERMAN, Connecticut     JEFF SESSIONS, Alabama
JACK REED, Rhode Island              SAXBY CHAMBLISS, Georgia
DANIEL K. AKAKA, Hawaii              LINDSEY GRAHAM, South Carolina
BILL NELSON, Florida                 JOHN THUNE, South Dakota
E. BENJAMIN NELSON, Nebraska         MEL MARTINEZ, Florida
EVAN BAYH, Indiana                   ROGER F. WICKER, Mississippi
JIM WEBB, Virginia                   RICHARD BURR, North Carolina
CLAIRE McCASKILL, Missouri           DAVID VITTER, Louisiana
MARK UDALL, Colorado                 SUSAN M. COLLINS, Maine
KAY R. HAGAN, North Carolina
MARK BEGICH, Alaska
ROLAND W. BURRIS, Illinois

                   Richard D. DeBobes, Staff Director

               Joseph W. Bowab, Republican Staff Director

                                  (ii)


                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

    Strategic Options for the Way Ahead in Afghanistan and Pakistan

                           february 26, 2009

                                                                   Page

Barno, LTG David W., USA (Ret.), Director, Near East South Asia 
  Center for Strategic Studies, National Defense University......     6
Dobbins, Hon. James, Director, International Security and Defense 
  Policy Center, RAND Corporation................................    19
Strmecki, Marin J., Ph.D., Senior Vice President and Director of 
  Programs, Smith Richardson Foundation..........................    27

                                 (iii)

 
    STRATEGIC OPTIONS FOR THE WAY AHEAD IN AFGHANISTAN AND PAKISTAN

                              ----------                              


                      THURSDAY, FEBRUARY 26, 2009

                                        U.S. Senate
                                Committee on Armed Services
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:34 a.m. in room 
SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Reed, Bill 
Nelson, E. Benjamin Nelson, Bayh, Webb, McCaskill, Udall, 
Hagan, Begich, Burris, McCain, Inhofe, Sessions, Thune, 
Martinez, and Collins.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Thomas K. McConnell, 
professional staff member; William G.P. Monahan, counsel; 
Michael J. Noblet, professional staff member; Russell L. 
Shaffer, counsel; and William K. Sutey, professional staff 
member.
    Minority staff members present: Joseph W. Bowab, Republican 
staff director; Adam J. Barker, research assistant; William M. 
Caniano, professional staff member; Richard H. Fontaine, Jr., 
deputy Republican staff director; Paul C. Hutton IV, 
professional staff member; David M. Morriss, minority counsel; 
and Lucian L. Niemeyer, professional staff member.
    Staff assistants present: Kevin A. Cronin, Christine G. 
Lang, and Ali Z. Pasha.
    Committee members' assistants present: Jay Maroney and 
Sharon L. Waxman, assistants to Senator Kennedy; James Tuite, 
assistant to Senator Byrd; Vance Serchuk, assistant to Senator 
Lieberman; Elizabeth King, assistant to Senator Reed; Ann 
Premer, assistant to Senator Ben Nelson; Jon Davey and Mike 
Pevzner, assistants to Senator Bayh; Gordon I. Peterson, 
assistant to Senator Webb; Stephen C. Hedger, assistant to 
Senator McCaskill; Jennifer Barrett, assistant to Senator 
Udall; Michael Harney, assistant to Senator Hagan; David 
Ramseur, assistant to Senator Begich; Brady King, assistant to 
Senator Burris; Anthony J. Lazarski, assistant to Senator 
Inhofe; Lenwood Landrum and Sandra Luff, assistants to Senator 
Sessions; Matt Waldroup, assistant to Senator Chambliss; Adam 
G. Brake, assistant to Senator Graham; Jason Van Beek, 
assistant to Senator Thune; Brian W. Walsh, assistant to 
Senator Martinez; and Chip Kennett, assistant to Senator 
Collins.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. Today the 
committee receives testimony from outside experts on options 
for the way ahead in Afghanistan and Pakistan. Our witnesses 
are: Lieutenant General David Barno, U.S. Army (Retired), who 
is the Director of the Near East South Asia Center for 
Strategic Studies at the National Defense University; 
Ambassador James Dobbins, Director of the International 
Security and Defense Policy Center of the RAND Corporation; and 
Dr. Marin Strmecki, Senior Vice President and Director of 
Programs with the Smith Richardson Foundation.
    We welcome each of you. We thank you and we are grateful 
for your attendance and for your testimony.
    The current policies of the United States and its allies 
are not succeeding in stabilizing Afghanistan. The Department 
of Defense (DOD) reports that insurgent-initiated attacks are 
up 40 percent in 2008 over the previous year. The Director of 
National Intelligence (DNI), Dennis Blair, testified earlier 
this month that the Taliban-dominated insurgency has increased 
the geographic scope and frequency of attacks and that security 
in eastern areas and the south and northwest has 
``deteriorated.''
    The United Nations (U.N.) announced this month that Afghan 
civilian deaths reached a new high last year of 2,118 and that 
U.S., North Atlantic Treaty Organization (NATO), and Afghan 
operations, particularly air strikes, were responsible for 
nearly 40 percent of the civilians killed. A recent public 
opinion poll showed declining support among the Afghan people 
for coalition efforts and a loss of legitimacy for the Afghan 
Government of President Karzai. Of those surveyed, a majority 
viewed the United States unfavorably, with fewer than half, 42 
percent, having confidence in coalition forces to provide 
security where they lived.
    A main source of Afghanistan's insecurity and instability 
comes from Pakistan. The Afghan Taliban, extremist militant 
groups, and al Qaeda fighters use Pakistan's Federally Assisted 
Tribal Areas (FATAs) and the Baluchistan region around Quetta 
as a safe haven from which to launch attacks into Afghanistan. 
President Obama has recognized the declining security situation 
and that it cannot wait for the completion of a comprehensive 
policy review and has approved Secretary Gates's request to 
deploy an additional 17,000 U.S. troops, including key 
enablers, to Afghanistan by this spring and summer. This 
increase on top of the more than 35,000 American troops already 
in Afghanistan and 32,000 other foreign forces participating in 
the NATO International Security Assistance Force (ISAF) will 
provide needed capabilities, particularly in the Regional 
Command (RC)-South, where, according to Deputy Commanding 
General for Stabilization Brigadier General John Nicholson, the 
border is wide open for extremist militants to attack from 
sanctuaries on Pakistan's territory.
    Recently, DNI Dennis Blair stated to the Senate Select 
Committee on Intelligence: ``No improvement in the security in 
Afghanistan is possible without progress in Pakistan.'' He 
added: ``No improvement in Afghanistan is possible without 
Pakistan taking control of its border areas and improving 
governance, creating economic and educational opportunities 
throughout the country.''
    I disagree with his unqualified assessment. While actions 
by the Government of Pakistan that would root out the Afghan 
Taliban in Pakistan's Baluchistan region surely would be 
helpful, Afghanistan's security cannot be totally dependent on 
Pakistan's uncertain efforts to eliminate militant sanctuaries 
along the Afghan-Pakistan border, for many reasons. I question 
whether Pakistan has the political will or the capability to 
take on the Taliban and other militants. Evidence of their 
unwillingness or inability to do so has been clear and 
longstanding. There have been reports for some time that the 
Afghan Taliban council, or shura, meets in the Pakistan city of 
Quetta and commands attacks in southern Afghanistan from that 
safe haven.
    The militant Baitullah Mehsud, who is suspected by the 
Pakistan Government itself of orchestrating the assassination 
of Benazir Bhutto, holds an open press conference in South 
Waziristan. To make matters worse, the Pakistan Government 
inflames opposition to the United States with their strong 
public criticism of our air strikes. Afghan Taliban cross 
unhampered from Pakistan's Baluchistan area into southern 
Afghanistan. There is evidence indicating that some elements of 
Pakistan's intelligence service may provide support to 
militants conducting cross-border incursions into Afghanistan 
and at a minimum Pakistani forces look the other way while the 
extremist militants cross over the border to attack coalition 
forces in southern and eastern Afghanistan and then pull back 
to sanctuaries on Pakistan's side of the border.
    The bottom line for me is that we need to accelerate the 
planned expansion of the highly motivated and capable Afghan 
army and to more quickly erase the shortfall in U.S. and allied 
training and mentoring teams embedded with Afghan security 
forces. In addition, the Afghan army needs to take the lead in 
countering the greatest threat to their security, the threat 
from cross-border attacks from militants in those sanctuaries 
in the Pakistan border.
    The Afghan border police, with its history of corruption, 
should either be transferred from the Ministry of Interior to 
the Ministry of Defense, as promised, by the way, long ago, or 
dramatically retrained and reformed.
    At this committee's hearing on January 27, Secretary Gates 
warned against trying to create a ``central Asian Valhalla'' in 
Afghanistan. He has called for more concrete goals, security 
for the Afghan people, and better delivery of services, that 
are achievable within a 3- to 5-year timeframe.
    The United States cannot and should not bear the burden 
alone of meeting the additional requirements for the Afghan 
mission. Over 40 NATO and other allies are contributing to that 
mission. However, NATO members have yet to fulfill the mission 
requirements that NATO agreed to for personnel and critical 
support like airlift and intelligence, surveillance, and 
reconnaissance assets. A new strategy should call upon NATO and 
other allies either to provide additional forces and 
capabilities or, if they will not do so, they should help 
defray the costs of training and sustaining the Afghan national 
security forces or assisting Afghanistan in building its 
capacity to govern itself.
    The administration's strategic review needs to also look at 
how we can bring all instruments of national power to bear in 
Afghanistan, particularly our civilian tools of diplomacy, 
development, and the rule of law. I am encouraged to hear that 
the State Department and U.S. Agency for International 
Development are looking to increase their civilian presence in 
Afghanistan at the national, provincial, and district levels.
    I saw firsthand how development assistance at the local 
level can serve as a key enabler of the security mission when I 
visited a primary school near Bagram which was built with 
funding through the Afghan National Solidarity Program (NSP). 
Three villages had come together to pool very modest amounts of 
money to construct that school to give their boys and girls a 
better life and they were prepared to defend it with their 
lives against the Taliban.
    We look forward to hearing from our witnesses. We very much 
appreciate their contributions to the debate as we look to the 
ways forward.
    Now I'll call on Senator McCain for his opening comments.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you very much, Mr. Chairman. Thank 
you for holding this hearing today. I join you in welcoming our 
witnesses. Each is a well-regarded specialist with extensive 
experience in the region.
    More than 3 years ago, some of us called for a major change 
in our strategy in Iraq. The change in strategy in Iraq that we 
called for was one based on the fundamental principles of 
counterinsurgency, the imperative to secure the civilian 
population, and a significant increase in the number of 
American troops. As we know now, through the courageous efforts 
of our troops on the ground and the wisdom of leaders such as 
General David Petraeus, Ambassador Ryan Crocker, and General 
Ray Odierno, the situation has been reversed in Iraq.
    We face a similar moment now with respect to the war in 
Afghanistan. Nearly every indicator in Afghanistan now is 
headed in the wrong direction. Many Americans have begun to 
wonder whether it's truly possible to turn this war around. 
Commentators increasingly focus on past failures in Afghanistan 
by the Soviets and British. Others have suggested that it's 
time to scale back our objectives in Afghanistan, to give up on 
nation-building and instead focus narrowly on counterterrorism.
    I for one remain confident that victory is indeed possible 
in Afghanistan, but only with a significant change in strategy. 
We all know that the American people are weary of sending our 
young men and women off to such a distant land. But it's 
absolutely critical they understand the stakes in this fight. 
We must win the war in Afghanistan because the alternative is 
to risk that country's reversion to its previous role as a 
terrorist sanctuary, one from which al Qaeda could train and 
plan attacks against America. Such an outcome would constitute 
an historic blow to America's standing and in favor of the 
jihadist movement and severely damage America's standing and 
credibility in a region that already has doubts about our 
staying power, and deal a crushing blow to the North Atlantic 
Treaty Organization.
    A terrorist sanctuary in Afghanistan would enable al Qaeda 
and other groups to attempt to destabilize neighboring 
countries, such as a nuclear-armed Pakistan. Broader insecurity 
in Afghanistan, with the violent refugee flows, and lawlessness 
it would prompt, could spill beyond its borders to Pakistan or 
other states in south and central Asia, with grave implications 
for our national security.
    The problem in Afghanistan today is that we have tried to 
win this war without enough troops, without sufficient economic 
aid, without effective coordination, and without a regional 
strategy. The ruinous consequences should come as no surprise. 
If we change our policies, the situation on the ground too will 
change.
    I say this with some confidence because we've been through 
this before, and I refer not to Iraq, but to Afghanistan 
itself. For a brief but critical window between late 2003 and 
early 2005, we were moving onto the right path in Afghanistan. 
Under then-Ambassador Khalilzad and Commander Lieutenant 
General Barno, who is with us today, the United States 
completely overhauled its strategy. We increased the number of 
American forces in the country, expanded non-military 
assistance to the Afghan Government, and, most importantly, 
abandoned a counterterrorism-based strategy that emphasized 
seeking out and attacking the enemy in favor of one that 
emphasized counterinsurgency.
    All of this was overseen by an integrated civil-military 
command structure in which the ambassador and the coalition 
commander worked in the same building from adjoining offices. 
The result was that by late 2004 governance and reconstruction 
were improving. Projects like the Ring Road were at last 
getting off the ground. Warlords were being nudged out of 
power. Militias like the Northern Alliance were being 
peacefully disarmed of their heavy weapons and national 
elections were carried off safely. The Taliban, meanwhile, 
showed some signs of internal dissension and splintering.
    Rather than building on these gains, we squandered them. I 
believe that we need in Afghanistan a counterinsurgency 
strategy focused on providing security for the population, 
tailored for the unique situation in Afghanistan, and backed 
with robust intelligence resources and a sufficient number of 
troops to carry it out. This strategy must be outlined in a 
theater-wide civil-military campaign plan.
    We should also more than double the current size of the 
Afghan army to 160,000 troops and consider enlarging it to 
200,000. The cost of this increase, however, should not be 
borne by American taxpayers alone. The insecurity in 
Afghanistan is the world's problem and the world should share 
its costs. In addition, I believe the United States should 
continue to invite European troop contributions and press for 
the reduction of caveats on their use.
    I also believe we should move away from stressing what 
Washington wants Europe to give and more toward encouraging 
what Europe is prepared to contribute. Many of our NATO allies 
and other allies and partners outside NATO, including the Gulf 
countries, are fully capable of contributing many badly needed 
resources.
    We also must increase our non-military assistance to the 
Afghan Government, with a multi-front plan, something akin to a 
Plan Afghanistan, for strengthening its institutions, the rule 
of law, and the economy in order to provide a sustainable 
alternative to the drug trade.
    Afghanistan's problems exist of course in a regional 
context and we must increasingly view them as such. A special 
focus of our regional strategy must be Pakistan. For too long 
we have viewed Pakistan as important because of our goals in 
Afghanistan. Yet Pakistan is not simply important because of 
Afghanistan. Pakistan is important because of Pakistan. We 
cannot simply subordinate our Pakistan strategy to our 
Afghanistan policy.
    I especially look forward to our witnesses' testimony 
regarding the role of Pakistan, its present state, and its role 
in the region.
    Mr. Chairman, I thank you. I welcome our witnesses here 
today and look forward to their observations on this crucial 
issue. This issue, the situation in Afghanistan, will be with 
us for a long time. It's going to be long, it's going to be 
hard, it's going to be tough. It will require additional, I'm 
sorry to say, expenditure of American blood and treasure. We 
need the input of our witnesses today, among others, to help us 
shape the strategy that will succeed. We cannot afford to lose.
    I thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator McCain.
    A quorum is now present and we need to consider the 
committee rules for the 111th Congress. The proposed rules 
which are put forth by myself and by the ranking member are 
identical to the committee rules from the 110th Congress. The 
changes that were proposed, that we discussed in the executive 
session of February 12, are not included.
    The proposed rules have been reviewed, as I indicated, by 
Senator McCain and me and our staffs. I understand that they're 
acceptable to both sides.
    Is there a motion to approve the proposed rules?
    Senator McCain. So moved.
    Chairman Levin. All in favor say aye.
    [A chorus of ayes.]
    Opposed, nay.
    [No response.]
    The rules are approved.
    Thank you very much.
    General Barno.

  STATEMENT OF LTG DAVID W. BARNO, USA (RET.), DIRECTOR, NEAR 
EAST SOUTH ASIA CENTER FOR STRATEGIC STUDIES, NATIONAL DEFENSE 
                           UNIVERSITY

    General Barno. Chairman Levin, Ranking Member McCain, and 
members of the Committee on Armed Services: Thank you very much 
for the invitation to offer my views today on strategic options 
for the way ahead in Afghanistan and Pakistan.
    Although I continue to serve in the DOD at the National 
Defense University, the views I offer today are my own. In 
addition to my 19 months as the overall U.S. and coalition 
commander in Afghanistan from late 2003 until mid-2005, I've 
remained engaged on these issues in my current job, which has 
included trips to Afghanistan and Pakistan, in fact included a 
visit to RC-South just last month for 3 days in Kandahar, 
Zabul, and Helmand Province.
    On a more personal note, my youngest son just returned from 
a 12-month tour of combat in Afghanistan as an air cavalry 
scout platoon leader in the 101st Airborne Division. We're very 
proud of him. We're very grateful to have him home safe and we 
pray every day for his fellow young Americans that are still in 
harm's way.
    My brief remarks this morning will attempt to summarize a 
more lengthy written testimony that I've provided. The focus 
that I'd like to bring today is to understanding U.S. goals, 
defining our core objectives, identifying what I call first 
principles for success, and depicting a phased approach to a 
military strategy. I'll also briefly speak to issues that link 
Afghanistan and Pakistan because that linkage is very 
important.
    My thinking I would note also reflects a good deal of 
collaboration and discussion with Dr. David Kilkullen, a 
counterinsurgency expert and former Australian Army officer, 
although I'm only speaking for myself here today.
    In my judgment the international effort in Afghanistan at 
the beginning of 2009 is drifting towards failure. There's 
still time to turn it around, but it will take strong U.S. 
leadership, a change of strategic direction, and a focused and 
substantial effort. Results will not come from continuing 
business as usual or simply adding more resources. Major change 
is essential.
    Fundamental questions remain for both the international and 
the U.S. effort: Who is in charge? What's the plan? What does 
success look like? Today U.S. and international goals at times 
seem unclear at best.
    I would say any discussion of reversing the downward 
trajectory today must start with a discussion of objectives: 
What is winning? Can we win? Maybe even the most fundamental 
question: Who is ``we''?
    Core objectives I think include several for the United 
States Winning for the United States in this context equates to 
achieving American policy objectives in Afghanistan and in the 
region. I would outline them as follows.
    First, that the Taliban and al Qaeda are defeated in the 
region and denied useable sanctuary and that further attacks on 
the United States and our allies are avoided.
    Second, that Pakistan is stabilized as a long-term partner 
that is economically viable, friendly to the United States, no 
longer an active base for international terrorism, and in 
control of its nuclear weapons.
    Third, success for NATO: the trans-Atlantic alliance 
preserved, with NATO's role in Afghanistan recast into a 
politically sustainable set of objectives.
    Fourth, a stable and sustainable Afghan Government that's 
legitimate in the eyes of the Afghan people, capable of 
exercising effective governance, and in control of its 
territory.
    Then, finally, the regional states are confident of U.S. 
staying power and commitment as their partner in the long-term 
regional struggle against violent extremism.
    I would offer that in order to achieve these objectives a 
mathematical equation might be in order, an equation which 
sounded like this: that success achieving those objectives 
equals leadership plus strategy plus resources; leadership plus 
strategy plus resources.
    Our system will tend to distort our focus towards the 
resource component, towards generating more troops, dollars, 
euros, and more aid workers and police mentors, and that will 
absorb tremendous amounts of our energy. But resources cannot 
be a substitute for the lack of a plan, nor can they take the 
place of the most essential ingredient, which is the dynamic 
leadership needed to deliver success.
    None of this is new. What is new, however, I think is the 
growing recognition among even our allies that today's 
fractious mix of all the different players in Afghanistan 
cannot effectively reverse the trend lines without strong 
American leadership. Resources poured into a disjointed 
strategy with fragmented leadership produce a stalemate, and 
that's a description we often hear used with regard to 
Afghanistan today. Stalemate in a counterinsurgency represents 
a win for the insurgent.
    So I think in order to address this we ought to think about 
focusing first on what I call first principles, or the things 
we need to do to set conditions for a new approach. The first 
of those I would characterize as making the Afghan people the 
center of gravity of all of our efforts. We say this today, but 
the practical application of this is very uneven across the 
country. The Afghan people down to the local level are the 
ultimate judgers, arbiters, of success in Afghanistan. 
International civil and military activities that alienate the 
Afghan people, that offend their cultural sensibilities, or 
further separate them from their government are doomed to fail. 
Protecting the Afghan people and nurturing their hope and 
cautious optimism for a better future is an essential 
requirement of our collective success in Afghanistan.
    The second item is creating true unity of effort, a 
critical principle that we again speak about today often, but 
we rarely find in the field. It's unity of effort within the 
military arena and between the civil and the military spheres. 
Ultimate success is really integrating those two effectively on 
the ground. We've spent countless dollars and tens of thousands 
of troops' efforts in Afghanistan over the past 8 years, but a 
very sober assessment would conclude that the whole has totaled 
far less than the sum of the parts.
    The enemy seeks to disrupt our unity of effort. We have 
given him many of the tools to do so. Only by dramatically 
improving the coherence of our military effort and by fully 
connecting it to the civil reconstruction, governance, and 
development efforts can effective progress be made.
    Third and final principle: There has to be a simultaneous 
bottoms-up and top-down approach in Afghanistan. The current 
ongoing debate between strengthening the central government 
versus strengthening capacity at the local level must be ended. 
Afghanistan requires both a capable national government in 
Kabul and an effective local set of institutions at the 
province, district, and village level. They have seen this in 
their history 30, 40 years ago.
    Action in this arena has to be two-pronged. In Kabul, the 
international community must focus on the central government in 
building key capacity there. In local areas, at the province 
and the district level and down to the village level, bottoms-
up action will be required, and in many cases it will have to 
be enabled and led by military efforts, especially in the 
south, which is the least secure part of the country.
    In the south and east of Afghanistan, because of poor 
security, military forces will have to lead civil actors in 
this enterprise. In the north a much different scenario exists. 
In fact, I typically call the north of Afghanistan the 
stability zone and the south of Afghanistan the 
counterinsurgency zone. In the north, civil efforts and 
peacekeeping operations by NATO military forces are 
appropriate. In the south, because of the lack of security, 
because of the violence, military-led efforts, often by the 
United States, leading the civilian enterprise are essential.
    With the foundation provided by these principles, an 
overarching counterinsurgency approach must be developed. It 
has to be tailored to the nuances and differences in each 
region, but it has to be one strategy, and a unified strategy 
must include counternarcotics, rule of law, governance, 
development, building security forces, and counterterrorism, 
all within a single strategy, all very doable, and all 
something we've seen before in Afghanistan, but what does not 
exist today.
    Without this unified strategy, I think we will continue on 
the current path. A change in approach can only be led by the 
United States.
    At the operational level, which is where strategy connects 
to events on the ground, the sequence of action in my view 
would look like: stabilize, protect, build, and transition. 
Over the next few years it might look like the following: 2009 
would be the stabilize phase, which essentially is a holding 
operation focused on setting conditions for a successful Afghan 
election this year. The Afghan election of 2009, the 
presidential election, is the strategic report card of the 
entire enterprise of Afghanistan and it's occurring this year. 
That has to be the focus of our security efforts for 2009.
    For 2010, the protect phase, which will begin this year as 
well, to allow us to regain the initiative from the enemy in a 
counteroffensive against his very aggressive, violent attacks, 
particularly across the southern half of the country. This 
protect phase would focus on building additional security for 
the population, growing state institutions, while persuading 
and enabling the Afghan Government to be more effective at the 
local level. Again, this will often be led by our military 
units partnered with civilian limited capacity, especially in 
the violent areas.
    The build phase and consolidation would be 2010 to 2015, 
again focused on protecting the population, building the state 
and non-state institutions. Improved security would have to be 
built from the bottom up in Afghanistan in this phase and allow 
the concurrent growth of economic and governance institutions.
    Then finally, the transition phase, which is 2015 to 2025, 
would see the movement to Afghan control. Some of that would 
occur in the previous phase, especially in the north, where we 
have a much more secure environment. This transition phase 
would allow us to return full Afghan control across the country 
as security has improved, the civil-led effort now is in front 
of the military effort, and that the growth of Afghan 
institutions and economic capability has taken root.
    Across this entire period of time, we have what I would 
call a prevent phase, which is counter-sanctuary operations to 
disrupt the enemy and ensure that we keep him off balance. But 
we have to do that in a very careful, balanced way to ensure it 
doesn't unhinge the rest of our operations. That can be a 
problem that we see in the newspaper headlines today.
    Finally, a few brief words on Pakistan. Pakistan arguably 
presents the United States with its greatest strategic 
challenge in the region. It's well known that Pakistan's the 
second largest Islamic country in the world, armed with several 
dozen nuclear weapons. That said, the conflict in Afghanistan 
is not simply a subset of a broader challenge in Pakistan. 
Solving Pakistan will not in and of itself solve Afghanistan. 
Pakistan requires its own strategy and its own solutions in a 
regional context as the United States looks at our 
requirements.
    We must assist Pakistan in managing change inside of 
Pakistan, led by the Pakistanis, economically, militarily, 
perhaps even societally. But these immense combination of 
factors are going to be very difficult to overcome.
    Essential to our long-term prospects with Pakistan is 
building a strategic partnership with Pakistan that takes us 
beyond today's what I call use and abuse relationship, the 
continual give and take of how we can get more from the 
Pakistanis and how they can get more from us. We have to have a 
vision of a long-term relationship there that allows them to 
believe in the sustained presence and the sustained involvement 
of the United States in the region. Their lack of that belief 
today undercuts all of our efforts.
    So in conclusion, I would argue that the war in Afghanistan 
can be won, but only by the concentrated application of strong 
U.S. leadership beginning here in Washington, a new unified 
civil-military strategy which must be implemented from the 
bottom up on the ground, and the right resources to enable a 
new set of dynamic leaders to fully implement this new plan.
    We must clearly acknowledge that only the United States can 
be the engine that powers this train and it's the only nation 
that can lead this renewed international effort.
    Thank you.
    [The prepared statement of General Barno follows:]
          Prepared Statement by LTG David W. Barno, USA (Ret.)
    Serious problems in Afghanistan demand a ``reset'' of the 
international effort to reverse the decline and set a new trajectory. 
The central component of success required in this fragmented endeavor 
is the reassertion of American leadership of our friends and allies. 
This discussion focuses upon understanding U.S. goals, defining our 
core objectives, identifying first principles for success, and 
depicting a phased approach to a military strategy. It also briefly 
speaks to issues with Pakistan and Afghanistan. This paper reflects 
significant collaboration and discussion with David Kilcullen, 
counterinsurgency (COIN) expert and former Australian Army officer. 
However, the opinions expressed here are the author's own and do not 
necessarily reflect either those of Dr. Kilcullen or those of the 
Department of Defense.
                              introduction
    The international endeavor in Afghanistan at the beginning of 2009 
is drifting toward failure. There is still time to turn it around, but 
this will take strong U.S. leadership, a change of strategic direction 
and a focused and substantial effort. Results will not come from 
continuing ``business as usual'' or simply adding more resources. Major 
change is essential.
    Eight years into a broad and substantial multi-national investment 
and 2 years since the North Atlantic Treaty Organization (NATO) assumed 
military leadership, the Taliban have returned in growing strength, 
poor governance and corruption are widespread, the Afghan people's 
confidence is ebbing, and the political sustainability of NATO's effort 
over the long term is in question. An increasingly fractured 
international civil effort is mirrored by a fragmented NATO 
International Security Assistance Force (ISAF) military organization 
with 41 members--all of whom operate under differing rules and a myriad 
of national strategies and caveats. Fundamental questions remain for 
both the international and U.S. effort: Who is in charge? What is the 
plan? What does success look like? Today, U.S. and international goals 
and objectives are unclear at best. Success is possible, but only if 
dramatic changes are applied--and applied rapidly. 2009 will be a 
decisive year in Afghanistan--for the international community, for the 
Afghan people, and for the Taliban.
                           defining our goals
    Any discussion of reversing a downward trajectory in Afghanistan 
must start with a discussion of objectives. What is ``winning?'' Can we 
``win?'' Even the most fundamental question: who is ``we?'' Different 
actors in the Afghan campaign have disparate interests and objectives, 
a reality often poorly appreciated. The goals of the Afghan Government 
may not be synonymous with those of the international community. The 
goals of NATO members and the alliance writ large may not be identical 
to those of the United States. The goals of the diverse civil players 
in Afghanistan--Afghan and international--may not align well with those 
of the military forces fighting what most would describe as a deadly 
COIN fight--a full-fledged war.
    While each of these groups has its own set of discrete objectives, 
this paper will focus on the challenges from an American perspective. 
Bottom line up front: Success in Afghanistan will require a re-
assertion of American leadership. While such leadership must be 
exercised through close and genuine partnership with our friends and 
allies wherever possible, the past 3 years of decline have amply 
demonstrated that lack of full American attention and an over-reliance 
on other actors and international institutions as substitute for strong 
U.S. leadership will ultimately fall short.
                            core objectives
    ``Winning'' for the U.S. in this context equates to achieving 
American policy objectives in Afghanistan and in the region. Those 
objectives can be outlined as follows:

        <bullet> The Taliban and al Qaeda defeated in the region and 
        denied usable sanctuary; further attacks on the United States 
        or allies avoided.
        <bullet> Pakistan stabilized as a long-term partner that is 
        economically viable, friendly to the United States, no longer 
        an active base for international terrorism and in control of 
        its nuclear weapons.
        <bullet> NATO success: the transatlantic alliance preserved 
        with NATO's role in Afghanistan recast into a politically 
        sustainable set of objectives.
        <bullet> A stable, sustainable Afghan Government that is 
        legitimate in the eyes of the Afghan people, capable of 
        exercising effective governance and in control of its 
        territory.
        <bullet> Regional states confident of U.S. staying power and 
        commitment as their partner in the multi-faceted regional 
        struggle against violent extremism.
        <bullet> The United States' regional circle of friends 
        expanded, and the influence of enemies (e.g., violent 
        extremists) diminished.

    In order to accomplish these objectives, the U.S. must work closely 
with a myriad of partners--first and foremost, the Afghan Government, 
but also the governments of allies, friends, and neighbors who comprise 
both the international military and civil efforts. Additional 
stakeholders include a diverse set of actors from nongovernmental 
organizations, private entities and international institutions such as 
United Nations and its many agencies.
    None of this is new--what is new, however is the growing 
recognition that this diverse mix of sometimes fractious players cannot 
effectively counter an increasingly powerful enemy without strong U.S. 
leadership. Of the myriad of actors involved, only the United States 
can provide the leadership ``engine'' required for the multi-faceted 
international to succeed in Afghanistan: it alone possesses the 
resources, regional influence and combat capabilities to act as lead 
nation--from facing the growing military threat to the provision of 
``in-conflict'' (versus ``post-conflict'') reconstruction and 
development efforts. The United States recognizes that it has vital 
interests at stake in Afghanistan and the region; many other nations 
view their vital interests in Afghanistan as simply preserving their 
relationship with the United States.
            success: leadership plus strategy plus resources
    Put as a mathematical equation, success--meeting the above U.S. 
policy objectives--derives from the balanced combination of leadership, 
strategy and resources. Our system distorts our focus toward the 
resource component: generating more troops, more dollars and euros, 
more aid workers and police mentors absorbs vast amounts of our energy. 
But resources cannot be a substitute for the lack of a plan--nor can 
they take the place of the most central ingredient: the dynamic 
leadership necessary to deliver success.
    Missing during the past 3 years of de facto NATO primacy was an 
effective American leadership ``engine'' to unify and drive the 
international effort in Afghanistan toward a singular set of objectives 
and strategy. Beginning in 2005, the U.S. largely approached the 
military handoff of the Afghan conflict to NATO as a ``divestiture'' 
opportunity--NATO would take charge of Afghanistan, demonstrate the 
alliance's relevance in the 21st century, and free the U.S. to focus on 
the immense challenges in Iraq. At the U.S. Embassy, an integrated U.S. 
civil-military enterprise in 2005 shifted toward a separate civil 
approach with the dissolution of the overall U.S. military headquarters 
in Kabul and the arrival of NATO as the over-arching military command.
    Unfortunately, despite a new American commander leading NATO's ISAF 
for the first time, the conflict rapidly became decentralized in 
application--much different from previous U.S.-led NATO missions (such 
as the 1995 Balkans ``Implementation Force'' effort or 1999 Kosovo Air 
War). This individualistic approach with contributing nations 
effectively designing their own campaigns has proven problematic. The 
past 2 years of NATO command in Afghanistan have exposed numerous flaws 
in alliance inter-operability and seen a spike to unprecedented levels 
of insecurity and both military and civilian casualties--violence today 
is up 543 percent on 2005, according to United Nations figures, a rise 
of several orders of magnitude over the previous 5 years. 2007's high 
point of violent incidents became 2008's year's lowest point.
    In the military dimension, 2005 levels of U.S. and coalition unity 
of command has largely been replaced by loosely coordinated NATO 
national efforts focused on the small slices of Afghanistan, semi-
autonomous from any unified military strategy on the ground--and in 
some regions simply providing a purely peacekeeping (and often 
symbolic) military presence. NATO has spoken of a ``comprehensive 
approach'' in its operations, but confusion regarding NATO's historic 
role as a conventional military alliance have preempted it from taking 
greater ownership of integration of military and civil effects in this 
irregular war where success requires the effective integration of both. 
Many NATO nations remain profoundly uncomfortable characterizing the 
effort in Afghanistan as a ``war'' at all--despite rocket attacks, 
roadside bombs, ambushes and thousands of casualties on all sides. In 
the civil sphere, the U.N. mission has broadly lacked the will and 
until recently, the mandate to unify the civil sector, and still avoids 
the notion of somehow ``joining up'' with a military organization and 
strategy. In sum, the current approach has proven a recipe for 
deterioration and potential failure.
    Resources poured into a disjointed strategy with fragmented 
leadership produce stalemate--the description often applied to the 
current situation in Afghanistan. Stalemate, in a COIN, represents a 
win for the insurgent.
    Lack of continuity and coherence in our leadership and our strategy 
removes any possibility of delivering effective results without a major 
change of approach. Over the last 8 years, our standard response to 
challenges in Afghanistan has always focused on more resources; at the 
same time we have cycled through at least six different U.S. military 
commanders, seven NATO ISAF commanders, six different U.S. embassy 
leaders, and four chiefs of the U.N. Mission.
    The number of diverse ``strategies'' has closely paralleled this 
revolving door of senior leadership. In this extraordinarily complex 
conflict, strategy is important (and will be explored below), but 
leadership is vital--leadership that includes both organizational 
structures (e.g., military commands) and people: the human beings who 
will fill critical roles in the effort, from senior NATO military 
commander to U.S. ambassador.
                            first principles
    Achieving success in Afghanistan requires the international 
community--led by the United States--to focus on three ``first 
principles'' in order to create the conditions for a new approach. 
These principles must be the touchstones of any new strategy and 
provide a lens through which any set of decisions should be viewed. 
Absent these principles, no new strategies, no infusion of troops and 
money, and no increased in international support will prove effective.
    First, the Afghan people are the center of gravity of all efforts. 
This fundamental understanding must underpin and influence every aspect 
of a new approach in Afghanistan. Securing the population entails more 
than simply protection from the Taliban: success requires the Afghan 
people to have confidence in their personal security, health and 
education, access to resources, governance and economic future--a broad 
``human security'' portfolio. The Afghan people, down to the local 
level, are the ultimate arbiters of success in Afghanistan. Progress 
rather than perfection is a standard they understand and will accept. 
On the other hand, international civil and military activities that 
alienate the Afghan people, offend their cultural sensibilities, or 
further separate them from their government are doomed to fail. 
Nurturing the reasonable hope and cautious optimism of the Afghan 
people in a better future is the sine qua non of our collective success 
in Afghanistan.
    Second, creating actual unity of effort within the civil and 
military spheres is essential--and ultimately integrating the two. 
Countless dollars and tens of thousands of troops have been committed 
to Afghanistan over the past 8 years, but a sober assessment would 
conclude that the whole has totaled far less than the sum of the parts. 
The enemy seeks to disrupt our unity of effort; we have given him many 
of the tools to do so. Only by dramatically improving the coherence of 
the military effort and by connecting it to the civil reconstruction, 
governance and development effort will effective progress be made. A 
``comprehensive approach'' wherein each nation designs its own national 
approach ensures disunity of effects.
    The civil dimension of the enterprise has been even more fragmented 
than the disjointed military effort. Successful Afghan Government 
programs such as the Afghan National Development Strategy (ANDS), the 
Independent Directorate of Local Government, and the National 
Solidarity Program should form the drivers of this integrated effort--
and serve as the nexus of an integrated civil-military plan. Only the 
United States has the capacity to lead this integrated effort--and it 
should exercise its leadership by fully supporting and enabling the 
Afghan Government, allowing allies and the international community to 
solidify behind an Afghan plan, with an Afghan face, built on Afghan 
institutions with improved capacity and effectiveness.
    Third, simultaneous bottom-up and top-down action is required. The 
recurrent debate between strengthening the central government versus 
strengthening capacity at the local level must be ended. Afghanistan 
requires both a capable national government in Kabul and effective, 
legitimate local institutions at province, district and village level. 
Models for this relationship exist in Afghan history over the 
centuries, most recently in the 1960s and early 1970s. Action in this 
realm must be two-pronged: Kabul and the central government as the 
``top-down'' focus of the Kabul-based international community; and 
province and district level ``bottoms-up'' action, enabled (and 
sometimes led) by military efforts.
    Improvements in central government from the capital must become the 
main task for the Kabul-based international community, with 
institution-building efforts jointly led by the United States, key 
allies, and United Nations Assistance Mission in Afghanistan: effective 
local government will be difficult if the national institutions of 
power remain broken. These efforts should be focused toward key 
ministries of the Afghan Government, which directly impact the local 
population, as well as on support for a more effective executive system 
around the president. At the same time, a renewed effort must be made 
to concentrate resources and direct assistance at the growth of local 
governance capabilities and sustainable State and societal institutions 
at the province and district level.
    In the south and east, because of the poor security environment, 
much of this effort must be led by military forces with civil actors in 
support--a different scenario from the north, where much better 
security permits civil-led efforts. As security improves (akin to the 
north and west), the primacy of military versus civil roles can be 
reversed. As in Iraq, improvements in security are an essential first 
step that will prompt faster progress in governance and development 
programs, which will in turn enable greater security, leading 
ultimately to a virtuous cycle of improving conditions. Moreover, 
focused international attention in Kabul can do much to provide 
increased resources for provinces and districts, as well as to enforce 
accountability--while adhering to the ``first, do no harm'' commandment 
in influencing local matters.
    With the foundation provided by these first principles, an approach 
for the next several years can be outlined.
                         operational sequencing
    The broad outline of a new strategy in Afghanistan translates into 
an operational sequence of reducing the threat while securing the 
population, simultaneously building up the capacity and legitimacy of 
the Afghan Government at the central and local level, then 
transitioning each category of effect to sole Afghan control once a 
sustainable Afghan capability is achieved.
    This is a classic COIN strategy for Afghanistan--but a unified 
strategy as opposed to the multiple disjointed approaches that exist 
today. Due to the protracted nature of COIN, the severe lack of 
development and infrastructure in the region, and the intractable 
nature of regional dynamics affecting the conflict (such as the India-
Pakistan confrontation) this strategy is a long-term enterprise that 
may take 10 to 15 years of effort to deliver decisive and enduring 
results.
    However, assuming the international community allocates adequate 
resources and chooses sound security objectives, enough progress might 
be made to allow significant reductions in coalition combat troops well 
before this time, based on conditions on the ground rather than a rigid 
timeline.
    But executing a strategy focused on the long-term in Afghanistan is 
currently not feasible, due to the current dangers that are the result 
of the decay of government legitimacy and a deteriorating security 
situation on the ground. So before we can begin executing a long-term 
strategy the United States and the international community must first 
halt the deterioration, stabilize the situation, and regain the 
initiative. Only the United States can lead this effort, and only 
through a military-led action in its first phases.
    Therefore, at the operational level, the level at which strategy is 
implemented through campaigns and civilian programs on the ground, the 
sequence of action is ``Stabilize, Protect, Build, Transition.'' This 
can be summarized as follows:

          2009--Stabilize Phase (Holding Operation): Focus a surge of 
        U.S. and Afghan forces, and additional combat forces from other 
        partners willing to contribute, on the central essential task 
        of protecting the population during the August 2009 elections 
        and on stabilizing the security situation. The election outcome 
        will be a key test of legitimacy of the Afghan Government, and 
        indirectly, the international effort. A successful election 
        outcome--one that meets international standards of fairness and 
        transparency and strengthens Afghan institutions--offers the 
        chance to hit the political reset button, restoring the 
        legitimacy of the Afghan Government and with it the credibility 
        of the international effort.
          2010--Protect/Regain the Initiative Phase (Counter-
        offensive): continue to protect the population and state 
        institutions while persuading, enabling and mentoring the 
        Afghan Government to govern more effectively--top-down and 
        bottom-up. This will entail substantial growth in security 
        forces: U.S., allied, Afghan Army and Police.
          2010-2015--Building Success Phase (Consolidation): protect 
        the population, build Afghan state and non-state institutions. 
        Improved security built from the bottom up around the country 
        provides space for concurrent growth of key economic and 
        governance functions. Success in the security sphere 
        incentivizes reconciliation efforts. Begin selective transition 
        (Afghanization) in the north and west.
          2015-2025--Transition/Movement to Afghan Control: continue 
        selective transition--as further geographical areas (provinces/
        regions) or functional aspects (e.g. agriculture, local 
        government, customs and border protection, policing) of the 
        state achieve sustainable stability, hand-off control over them 
        to responsible Afghan institutions. International military 
        presence draws down.
          Continuous--Prevent (Counter-Sanctuary Operations) Throughout 
        the operational sequence above, the ``prevent'' task is 
        concurrent, continuous, and (because it disrupts other tasks) 
        is conducted only to the limited level needed to prevent 
        another international terrorist attack on the scale of the 
        September 11 attacks. Tactical opportunities which undermine 
        broader strategic goals are avoided.
                           political strategy
    Although providing a detailed political strategy is outside of the 
scope of this piece, a short synopsis of the complementary political 
approach is provided here. The underpinning political strategy is to 
regain the initiative through a sustained surge of international 
military efforts partnered with improved local civil functions while 
generating increased leverage over the Afghan Government, aimed at 
reversing its loss of legitimacy through the circuit-breaker of 
successful 2009 elections. This increased leverage is then used, via 
persuasive, enabling and coercive measures (``carrot and stick''), to 
create a reformed Afghan Government that governs in a more effective 
and credible manner (building on its own improved legitimacy through 
the 2009-2010 elections process, ideally including district elections 
promised in 2002 but not scheduled so far).
    As part of this overall political approach, the negotiation and 
reconciliation strategy is aimed at identifying and co-opting 
reconcilable elements of the loose insurgent confederation, while 
simultaneously targeting and eliminating the tiny minority of 
irreconcilables. Strength matters in this effort: regaining the 
psychological initiative by creating military success accelerates the 
potential for breakdown of Taliban fighters and promotes 
reconciliation--insurgents with no hope for a future are much more 
likely to lay down their weapons than those who believe they are 
winning. Conversely, pursuing negotiations while your adversary 
perceives he is winning negates any prospects for success.
                         the military strategy
    An effective military strategy is paramount in an environment where 
all agree that lack of security prevents progress across all other 
elements of power. Despite the role of the enemy--Taliban and 
affiliated networks--in creating this dangerous security environment, 
coalition military forces must avoid the temptation to focus upon the 
enemy as the centerpiece of their actions to restore security: the 
population must remain the center of gravity. Focusing on the enemy 
risks endlessly chasing an elusive actor who has no fixed locations he 
must defend, and can thus melt away at will. It also creates civilian 
casualties, undermining popular support for the effort, as the enemy 
hides behind the population and deliberately provokes casualties.
       north vs south: stability and counterinsurgency approaches
    Geographically, Afghanistan can be broadly divided into two 
security zones: the relatively more secure northern part of the country 
(the ``Stability Zone'') and the dangerous and unstable south (the 
``Counterinsurgency Zone''). A military strategy for Afghanistan must 
recognize this disparity and of necessity focus its finite resources 
and planning upon the south. The Stability Zone (comprising Regional 
Command (RC)-North based in Mazar e Sharif and RC-West based in Herat) 
presently demands few military forces: Afghan National Army units 
stationed there are largely underemployed (while currently unavailable 
to rotate to the south). NATO forces in the north perform a traditional 
peace-keeping and reconstruction role--offering a useful security 
presence but making little direct contribution to stabilizing the much 
more dangerous south. That said, pockets of Taliban influence are 
growing in Pashtun areas across the north, and NATO military forces 
assigned to these areas must be prepared to counter this increasing 
threat.
    The Counterinsurgency (COIN) Zone--the primary area of insecurity 
and combat action--comprises RC-East based in Bagram and RC-South in 
Kandahar. Forces in the COIN Zone are engaged in near-continuous combat 
action and account for the bulk of casualties in both NATO ISAF and in 
Operation Enduring Freedom--U.S. counterterrorism forces not under NATO 
command. Enemy suicide attacks, ambushes, roadside bombs and popular 
intimidation occur predominantly in the COIN Zone.
                   population security: military lead
    A population-centric strategy focused upon the COIN Zone should be 
based upon classic COIN theory, modified and tailored so that it 
applies to the specific circumstances of the Afghan context. Owing to 
the very dangerous security environment in the COIN Zone, military 
commanders must take the lead in the civil-military effort. Military 
civil affairs units joined by a select number of appropriately trained 
and equipped civilian volunteers, with adequate legal authorities, will 
focus on improving the accountability and performance of Afghan 
provincial and district governance, catalyzing economic development and 
improving the rule of law. Civilian volunteers will often be at the 
same levels of risk as the military units with whom they are 
partnered--which reinforces the need for military-led efforts with 
``combat'' reconstruction and development capabilities.
    As increased (mostly American) units flow into the COIN Zone--
perhaps as many as 30,000 more in 2009 alone--both combat actions and 
casualties will increase as more contacts between Taliban and coalition 
forces ensue. For this reason, the level of violence involving the 
coalition will be a poor metric for success in 2009--regardless of 
whether we are winning or losing, the level of incidents will rise 
sharply. Rather, the key success metrics will be control over 
population centers and Afghan-on-Afghan violence.
    Military commanders in the south and east must position their 
forces to control and protect major population centers (cities, towns 
and larger villages) while ensuring freedom of access along key routes 
of communication. Areas that cannot be protected using coalition troops 
must be secured by the presence of special forces and advisory teams, 
working with local government and Afghan forces at the district level 
to raise and employ local security volunteers (in the nature of a 
neighborhood watch) and supported by quick-reaction forces in nearby 
major centers. This role should become the primary focus of special 
forces--much different from their principal ``door-kicking'' mission of 
today.
    Inherent in providing security to population centers is a robust 
parallel effort to improve governance and extend development and 
reconstruction across key sectors. The Provincial Reconstruction Team 
(PRT) concept has proven useful in this contested environment and 
should be expanded to district level through the fielding of District 
Reconstruction Detachments and Governance Transition Teams. Deploying 
PRTs down to district level will provide an implementing reality to the 
``bottom-up'' approach and complement ``top-down' reform in Kabul. In 
broad terms, civil-military integration and unity of effort in Kabul 
argues for a diplomatic-led, centralized approach; civil-military 
integration in the contested space across the COIN Zone argues for a 
military-led, decentralized effort until security can be returned to a 
more normal level (e.g., northern Afghanistan: the Stability Zone).
                   area ownership: delivering results
    Military combat units in the COIN Zone must operate within a 
principle of ``area ownership'' where unit commanders ``own'' the 
primary responsibility for entire segments of territory--districts and 
even provinces--and lead a unified civil, military, and Afghan 
Government effort to ensure coherent, mutually supportive results 
within these areas. ``Area Ownership'' is a derivative of the New York 
City Police precinct approach of the 1990s, where precinct captains 
were held fully accountable for crime in their precinct--but were given 
all the tools and support to change the picture; this one person owning 
all resources and all outcomes is absent in today's approach and 
contributes to both fragmentation of effort and lack of accountability 
for results.
    The new approach should be visibly Afghan-led and connected to the 
ANDS goals, but coalition military forces have an essential behind-the-
scenes role to play: ``leadership from the rear.'' Only by integrating 
all of these civil-military efforts under one commander will synergy 
and effectiveness be achieved. The coalition military commander must be 
partnered with his Afghan National Army counterpart and the local 
Afghan Governmental leader--be it provincial governor or district 
administrator. The disjointed approaches employed to date--dividing 
military and civil (and even Afghan) enterprises in the face of a 
resurgent enemy--have taken us to the point of failure. It is past time 
to make the bold shift required in order to assure success.
                     from mentoring to partnership
    An essential shift in operational technique is also needed, away 
from today's mentoring-only approach (where small teams military 
personnel organized as Operational Mentoring and Liaison Teams (OMLTs) 
or Embedded Training Teams (ETTs) are responsible to advise entire 
Afghan units) towards an approach that complements these teams by 
partnering entire Afghan military and police units with coalition 
counterparts.
    At present, because of the security situation, our often under-
manned coalition advisor teams can only be in a limited number of 
places and find it extremely difficult to observe and monitor the 
activity of their dispersed Afghan unit. Police and military units tend 
to operate on their own, with only limited coordination with each other 
and with coalition forces.
    By contrast, experience in Iraq and in parts of Afghanistan (such 
as RC-East) where a partnering model has been used, suggests that 
partnering whole units in such a way that any patrol or operation, 
regardless of size, always includes a coalition military, Afghan 
military and Afghan police component (and ideally also an Afghan civil 
governance component), improves the performance of all three elements.
    Coalition forces' performance improves because, since they always 
work closely with an Afghan partner unit, their level of local 
knowledge, language skill and situational awareness improves 
dramatically. This creates fewer civilian casualties than occur during 
unilateral operations, and allows for a subtler and less disruptive 
approach to the local population.
    Afghan military units' performance improves, because they have a 
constant example and model of correct operational technique and 
appropriate military behavior constantly before their eyes, and because 
of the indirect fire, intelligence support, transportation and other 
enablers available to them through coalition forces.
    Afghan police effectiveness improves because they are supported by 
military partners in the execution of law and order functions (rather 
than, as now, carrying alone the burden of COIN operations for which 
they are ill-trained and poorly equipped) and because the level of 
police corruption and abuse drops dramatically when coalition and 
Afghan military forces are present to independently monitor police 
behavior. Meanwhile the presence of police officers creates another 
whole category of ways to respond to security incidents, allowing 
arrest or questioning, instead of leaving military forces to respond 
with potentially lethal force.
    This approach complements, but does not replace, the existing 
coalition advisory teams that perform an essential and irreplaceable 
function as ``up close and personal'' daily mentors to Afghan police 
and military leaders. It provides them with much greater scope to 
monitor, advise and assist their supported unit, since they are able to 
be in many places at once and can draw on greater coalition resources. 
These mentoring teams must be fully resourced immediately in order to 
deliver their full potential in an environment where their role becomes 
more vital every day.
        enhancing command and control: military unity of effort
    Military forces too must be organized in ways to optimize rather 
than degrade their effectiveness in a fight for which there will never 
be adequate resources. Unity of effort between civil and military 
leadership cited above is one dimension. Equally important is the need 
to streamline and align the NATO and U.S. military commands to achieve 
maximum results. The NATO headquarters in Kabul today performs too many 
functions to be effective: de facto, it operates at the political-
military, strategic, operational and tactical levels--a span of control 
and responsibility which violates military doctrine and which has 
proved largely ineffective. Serving all tasks allows it to perform none 
well. Division of responsibilities is overdue: a three-star U.S. 
headquarters whose commander is dual-hatted as a NATO deputy commander 
should be positioned at Kandahar and given the day-to-day COIN fight 
across the COIN Zone.
    The COIN Zone 3-star headquarters should have selected multi-
national composition, but only with long-serving staff members of at 
least 12 months tour duration. Its ``battlespace'' or assigned 
territory should include all of RC-South and RC-East, and both of those 
two-star RC divisional-level commanders should report to the three-star 
Commander of the COIN Zone.
    In a much-needed change from today, the COIN Zone commander should 
have full command and control of all military forces operating in his 
domain; his U.S. command authority makes that possible. This should 
explicitly include Special Forces of all types and all Afghan National 
Army ETTs and OMLTs. Moreover, the COIN Zone commander should create a 
unified headquarters that fully includes ANA command and control 
capabilities into this single fight across southern Afghanistan--a 
missing component today.
    The COIN Zone commander should be assigned a multi-national senior 
civil staff to facilitate the integration of the civil and military 
efforts across his zone. This civilian staff (and their counterparts at 
lower level) would not fall under the military command but would serve 
in what the military calls a ``supporting-supported'' role to the 
commander: he is ``supported'' by their efforts and they are 
``supporting'' his. This arrangement parallels the de facto approach in 
U.S. PRTs today. At day's end however, the military commander is held 
to account for the integrated outcome of this fused effort across his 
battlespace; the same holds true for each of his subordinate 
commanders, each of whom should be assigned a similar small civil staff 
to oversee and integrate civilian efforts across their discrete areas 
of operation. The Embedded PRTs employed with excellent effect in Iraq 
during the surge could serve as a useful model here.
    Of key importance, these commanders and their civil-military staffs 
must connect as equal partners with parallel Afghan Governmental and 
military leaders unified by oversight--``ownership''--of the same 
areas. This much different approach to unity of effort is a leap ahead 
from today's independent ``stovepipes'' of national and agency 
approaches; these often extend down to provinces from Kabul or even 
national capitols abroad with little regard for unified effect. Again, 
this military-led, civilian supported approach is only designed for 
high threat areas (i.e., the COIN Zone) and will revert to a more 
traditional civilian-led model once security is significantly improved.
               continuity: building equity in the outcome
    Finally, the new strategy for the COIN Zone (RCs South and East) 
must be co-developed by the military commander and his civil-military 
staff who will implement and be held accountable for the strategy's 
results. Area ownership also implies buy-in by those carrying out the 
mission, and vests great authority in subordinate commanders to modify 
the strategy as facts on the ground change. Arguably, these commanders 
and their headquarters in a sustained counterinsurgency campaign should 
anchor themselves in their areas for prolonged periods--the senior-most 
leaders for upwards of 2 years between rotations--to improve continuity 
and develop a ``long view'' beyond today's short term focus.
    The time is also ripe for the U.S. to re-examine its combat 
headquarters assignments to Afghanistan to either ``plant the flag'' of 
two divisional and one corps-level headquarter to finish the fight 
(possibly on an individual rotation model); or to specialize perhaps 
three or four designated divisions with Afghanistan expertise and align 
them for all future rotations. To date, the U.S. Army has rotated five 
different two-star divisional level headquarters through Afghanistan in 
7 years, with yet a sixth new headquarter arrival pending. Successful 
counterinsurgencies require relationship-building, deep cultural 
knowledge, and sustained focus--as commanders in RC-East have 
demonstrated, continuity is, in itself, an extremely important 
operational effect. Now is the time to reset this equation for the long 
haul.
                                pakistan
    Although describing a strategic approach to Pakistan is beyond the 
scope of this piece, ignoring the linkage between Afghanistan and 
Pakistan would be irresponsible.
    Pakistan arguably presents the United States with its greatest 
strategic challenge in the region. The second largest Islamic country 
in the world armed with several dozen nuclear weapons demands our 
attention. That said, the conflict in Afghanistan is not simply a 
subset of a broader set of challenges in Pakistan. ``Solving'' Pakistan 
would not in and of itself ``solve'' Afghanistan. Afghan problems are 
as much internally driven (crime, corruption, narcotics; lack of 
governance, infrastructure, economics) as they are any result of the 
insurgents who operate from sanctuary in Pakistani border areas. 
Solving these internal problems requires creating the right conditions 
of security, but equally important requires adopting an effective 
development, economic and governance approach within Afghanistan 
itself.
    Pakistan requires its own strategy and its own solutions as the 
U.S. assesses its requirements in the region. The U.S. must assist 
Pakistan in managing change--economically, militarily, perhaps even 
societally--as it deals with immense problems brought about by a deadly 
combination of both internal and external factors. The U.S. must 
partner with the Pakistani Government to develop a vision of a long-
term strategic partnership between Pakistan and the United States--not 
one simply based upon today's transactional relationship anchored in 
fighting terrorists in the tribal areas. Much like the U.S. has evolved 
the idea of a long-term strategic partnership with India, commensurate 
effort must be invested into a parallel track with Pakistan--but not as 
a zero sum game.
    As to Pakistan's relationship to the conflict in Afghanistan, U.S. 
success in reversing the decline in Afghanistan and achieving success 
would increase our leverage with Pakistan. Arguably, much of the 
schizophrenic Pakistani approach to the Afghan conflict today is based 
upon their expectation that the U.S. and our allies lack staying 
power--and will move rapidly for the exits if failure is imminent. 
Success in Afghanistan might reverse that perception and lend much 
greater credibility to U.S. statements of long-term commitment.
                               conclusion
    The international effort in Afghanistan is at a difficult and 
dangerous crossroads. A serious decline in security is mirrored by lack 
of good governance and a burgeoning illegal economy, fueling corruption 
at all levels. The population--buffeted by a series of downturns after 
the high hopes of mid-decade, are beginning to question both their own 
government and the presence of foreign forces--especially in light of 
civilian casualties and some offending tactics. Hope for a better 
future is diminishing--a clear danger signal. Without substantial and 
dramatic changes to our approach--leadership, strategy and resources--
the risk of failure is great.
    Losing in Afghanistan after more than 8 years of major 
international effort creates potentially horrific results: an insecure 
Pakistan; a return to deep sanctuary for Al Qaeda; increased regional 
instability across south and central Asia; a lack of confidence in 
American staying power and military prowess; and a fragmentation of 
NATO and the transatlantic alliance. Failure truly is not an option.
    The arrival of the new U.S. administration is exactly the right 
moment to revisit our collective objectives in Afghanistan; to re-
animate NATO's involvement; to regenerate resource commitments; and to 
re-assert U.S. leadership--which more than any other single external 
factor is vital to success.
    The war in Afghanistan can be won, but only through the 
concentrated application of strong leadership, beginning in Washington; 
a new, unified civil-military strategy, which must be implemented from 
the bottom-up on the ground; and the right mix of resources to enable a 
new set of dynamic leaders to fully implement the new plan. But we must 
clearly acknowledge that only the United States can be the engine that 
powers this train, and the only nation that can lead this renewed 
international effort.
    The next several years will demand an increased military effort--
indeed, the dangerous security situation across much of the country 
will require a military lead to enable the delivery of many civil 
effects. But ultimately, the war must be won by the Afghan people and 
their government. The role of the international community, while vital, 
simply creates the conditions--space, time, human capacity--to allow 
the Afghan people to prevail. But only a renewed approach which 
delivers focused U.S. leadership to an endeavor which is today is so 
clearly off-track can reverse the trend lines and set the stage for 
enduring success. This is eminently within our reach to achieve.

    Chairman Levin. Thank you, General.
    Ambassador Dobbins.

   STATEMENT OF HON. JAMES DOBBINS, DIRECTOR, INTERNATIONAL 
      SECURITY AND DEFENSE POLICY CENTER, RAND CORPORATION

    Ambassador Dobbins. Thank you, Mr. Chairman.
    The question before us is whether it's possible for the 
United States to turn around the situation in Afghanistan as we 
successfully did in Iraq in 2007 and 2008. I think there are 
reasons to be cautious in answering that question. Afghanistan 
is, after all, larger and more populous than Iraq, while 
American, allied, and Afghan forces are much smaller than those 
that we had in Iraq. Afghanistan is more isolated and 
inaccessible. It's far poorer and less developed, and it's been 
at civil war for 30 years.
    Yet we still have several advantages in Afghanistan that we 
lacked in Iraq, given the nature of our entry. First of all, 
the American presence in Afghanistan remains more popular than 
it has ever been in Iraq. Second, President Karzai retains more 
popularity than any leader in Iraq has yet been able to secure. 
Third, we have far more international support for our efforts 
in Afghanistan than we ever did in Iraq. Fourth, all of 
Afghanistan's neighbors and near neighbors, with the partial 
exception of Pakistan, helped to form the Karzai Government and 
fully accept its legitimacy and wish to see it succeed. 
Finally, sectarian animosities in Afghanistan are less intense 
than Iraq.
    These conditions are changing, however, and they're 
changing for the most part for the worst. Afghans are becoming 
increasingly critical of our presence. President Karzai is 
losing domestic and international support. Violence is 
increasing. Civilian casualties are climbing, threatening to 
generate new refugee flows and exacerbate tensions among these 
ethnic groups. Thus the shift in American attention and 
international attention, from Iraq to Afghanistan has come none 
too soon.
    I'd like to use my remaining time to suggest a number of 
additional steps that could be taken to improve our prospects 
for succeeding in Afghanistan. By succeeding, I mean succeeding 
in turning around the negative security trends.
    First, I think we need to unify the NATO and American 
military command chain. At the moment we have a division of 
forces in Afghanistan. Most of the forces in Afghanistan do not 
come under General Petraeus and U.S. Central Command. Most of 
them come under the Supreme Allied Commander, whose 
headquarters is in Belgium, another American general, General 
Craddock. The division in command goes down into the country as 
well, with Operation Enduring Freedom (OEF) and ISAF running 
two completely separate command chains.
    Clearly we can continue to muddle through with this divided 
command structure, as we have for years. But I think if there's 
any chance of Ambassador Holbrooke and General Petraeus pulling 
off in Afghanistan what General Petraeus and Ambassador Crocker 
were able to pull off in Iraq, that's only going to happen if 
General Petraeus is given full control over the military half 
of that relationship. At the moment he controls less than 50 
percent of the forces in Afghanistan.
    I think there's a fairly simple way of doing that, although 
it would require a political decision, and that is to make 
General Petraeus a major NATO commander. At present there are 
two major NATO commands, one in Mons, Belgium, Supreme Allied 
Command-Europe, and a second one in Norfolk, which is doing 
transformation. Now, transformation is yesterday's priority. It 
may be tomorrow's priority as well. But it's not today's. 
Today's is winning the war in Afghanistan, and therefore I 
would take all those NATO staffers from Norfolk and move them 
down to Tampa and create a major NATO command so that General 
Petraeus would have responsibility to the American President 
for the American part of this operation and responsibility to 
the NATO Council for the NATO part of this operation, and run 
that part of the operation through an integrated military 
command structure. I think this is the only way that we can 
unite the effort successfully.
    I'd point out that since we invaded, along with the U.K., 
North Africa in 1942, that's the system we have used in all of 
our joint endeavors with the Europeans--the Cold War, Bosnia, 
Kosovo. Afghanistan is the first time where we've had divided 
command structures in NATO and allied operations.
    Second, in my written testimony I offered a couple of 
suggestions about how we can improve and unify the command of 
the civilian assets, that is to say improve the relationship 
between the United States and its allies and provide more 
coherent leadership, for instance, to the provincial 
reconstruction team effort, which at the moment is completely--
is completely unstructured. Twenty-two Provincial 
Reconstruction Teams (PRTs), the majority of them are in fact 
run not by the United States, but by allies. Each ally runs its 
own on their own standards and there is no practical oversight 
or commonality among the approaches of the civilian part of 
this counterinsurgency effort.
    Third, I think that we need to bolster the quality and 
size, not only of the troop presence and for that matter the 
civilian presence in Afghanistan, but the quality of the staff 
that both our ambassador and our military commander there have. 
One of the reasons that Ambassador Crocker and General Petraeus 
were successful in Iraq was that they had large, sophisticated 
staffs that were attuned to the local situation and could 
conduct a very difficult and complex counterinsurgency 
operation successfully. I don't think we've put that richness 
of resources into Afghanistan yet. Ambassador Crocker, for 
instance, had half a dozen ambassadors working for him in 
subordinate positions, and General Petraeus had a very large 
staff, including a number of civilians who brought expertise 
that the military don't normally bring to a situation. So we 
need to bolster that aspect of the effort as well.
    Fourth, as General Barno suggested, we need to combine our 
top-down approach in Afghanistan of building up the Afghan army 
and the Afghan Government with a bottom-up approach, something 
similar, under admittedly quite different circumstances, to the 
Sons of Iraq effort that we instituted in Iraq. I have some 
suggestions for that. I do think that in Iraq we essentially 
took 100,000 insurgents and put them on our payroll, and 
thereby turned around the security situation dramatically in 
the Sunni parts of the country. Exactly how we replicate that 
in Iraq and Afghanistan is going to depend on very different 
circumstances, but it does imply a willingness to talk to at 
least some of the Taliban and to accommodate at least some of 
their aspirations.
    Fifth, I think we need to pay more attention to insurgent 
activities in the Pakistani province of Baluchistan. So far, 
all of our economic assistance and all of our Predator strikes 
have come into the Northwest Frontier Province, which is not 
odd since that's where al Qaeda tends to operate and it's also 
where the insurgent groups that were operating against American 
forces in the northern part of the country and eastern part of 
the country were located. However, that's not where the Taliban 
is headquartered. That's not where the Taliban is operating 
from. It's operating from Baluchistan. Its main council meets 
in Quetta. So I think we need to complement the attention that 
we've been paying to Northwest Frontier Province with a 
comparable level attention to the situation in Baluchistan.
    Sixth, I think we need to support the upcoming Afghan 
elections while remaining scrupulously neutral among the 
possible candidates. Now, that sounds like a no-brainer and not 
too hard to do, but it'll in fact be very difficult. It will in 
practice limit the ability we have to criticize Karzai. The 
criticisms of Karzai and his government are largely legitimate. 
It has been penetrated by corruption, and Karzai is sometimes 
indecisive. But we need to avoid the appearance that we're 
trying to undermine that government or favor alternative 
candidates. So that's going to be a very difficult balance to 
maintain over the next year.
    Seventh and lastly, we need to intensify our engagement 
with Afghanistan's neighbors. Now, I think we all agree that 
includes most particularly Pakistan, which is the least helpful 
of the neighbors at the present. But it also means engaging 
Iran, which has by and large been benign on Afghanistan, but 
could be considerably more helpful, and continuing to work with 
Russia and India. All of these countries were our partners back 
in 2001 after the September 11 strike in overthrowing the 
Taliban and replacing it with a broadly-based government, and 
we need to reconstitute that consensus.
    Let me conclude by saying a word about what our objectives 
should be in Afghanistan. I'm often asked, do we seek a secular 
democracy, a more developed economy, a strong centralized 
government, a fully self-sufficient state capable of securing 
its territory and populace? If so, how realistic are these aims 
and how long would they take? This it seems to me are not 
questions that we can or should try to answer definitively at 
this point. Democratization, development, capacity-building and 
diplomacy, fighting the insurgents, and negotiating with those 
that can be won over should all be viewed not as independent 
goals, but as components of an overall counterinsurgency 
strategy, the objective of which is to secure the population.
    Our job is neither to defeat the Taliban nor to determine 
the future shape of Afghan society. The American and allied 
objective should be to reverse the current negative security 
trends and ensure that fewer innocent Afghans are killed next 
year than this year. In a counterinsurgency campaign, this is 
the difference between winning and losing: Are you successfully 
protecting the population or not? If, as a result of our 
efforts, the current rise of violence is reversed and the 
population made more secure, the Afghan people will be able to 
determine their own future through peaceful rather than violent 
competition of ideas, people, and political factions. This has 
begun to happen in Iraq and our objective should be to give the 
Afghans the same opportunity.
    [The prepared statement of Ambassador Dobbins follows:]
           Prepared Statement by Ambassador James Dobbins \1\
---------------------------------------------------------------------------
    \1\ The opinions and conclusions expressed in this testimony are 
the author's alone and should not be interpreted as representing those 
of RAND or any of the sponsors of its research. This product is part of 
the RAND Corporation testimony series. RAND testimonies record 
testimony presented by RAND associates to Federal, State, or local 
legislative committees; government-appointed commissions and panels; 
and private review and oversight bodies. The RAND Corporation is a 
nonprofit research organization providing objective analysis and 
effective solutions that address the challenges facing the public and 
private sectors around the world. RAND's publications do not 
necessarily reflect the opinions of its research clients and sponsors.
---------------------------------------------------------------------------
                  counterinsurgency in afghanistan \2\
---------------------------------------------------------------------------
    \2\ This testimony is available for free download at http://
www.rand.org/pubs/testimonies/CT318/.
---------------------------------------------------------------------------
    In September 2001, the United States was attacked from Afghanistan 
by a global terrorist network that is now headquartered in Pakistan. 
American attention is now being redirected toward this region. It is 
not a day too soon.
    For the first several years after the collapse of the Taliban 
regime the Bush administration ignored Afghanistan almost entirely. In 
Pakistan, its focus was almost entirely on al Qaeda, while it largely 
ignored the Pakistani regime's continuing ties to the extremist groups 
that were organizing to reclaim control of Afghanistan. In President 
Bush's second term this attitude began to change. For the past several 
years the United States has begun to put more resources into 
Afghanistan, and to pressure the Government in Islamabad to confront 
the enemy within. But these efforts have remained what the military 
call an economy of force exercise. As Joint Chiefs of Staff Chairman 
Mullen acknowledged a little more than a year ago, ``In Afghanistan we 
do what we can. In Iraq we do what we must.''
    Afghanistan is larger and more populous than Iraq. It is more 
isolated and inaccessible. It is far poorer and less developed. It has 
been in civil war for the past 30 years. Yet we still have several 
advantages in Afghanistan that we lacked in Iraq, given the nature of 
our entry. First of all, the American presence in Afghanistan remains 
more popular than it ever was in Iraq. Second, Karzai retains more 
popularity than any leader in Iraq has yet been able to secure. Third, 
we have far more international support for our efforts in Afghanistan 
than we ever did in Iraq. Fourth, all Afghanistan's neighbors and near 
neighbors, with the partial exception of Pakistan, helped form the 
Karzai Government, fully accept its legitimacy, and wish to see it 
succeed. Finally, sectarian animosities in Afghanistan are less intense 
than Iraq. Pashtuns, Tajiks, Uzbeks and the Shia all compete for wealth 
and power but none challenge the identity of Afghanistan as a multi-
ethnic bilingual state, none seek to secede, or to drive others out.
    It is also worth noting that our opponents in Afghanistan are as 
disunited as they were, and are in Iraq. We speak of the Taliban as if 
it were a united enemy, but it represents only one of a number of 
insurgent groups headquartered in Pakistan. They are united in seeking 
to drive us out of Afghanistan and topple the Government in Kabul, but 
otherwise have little in common.
    These conditions are changing, and for the most part they are 
changing for the worse. Afghans are becoming increasingly critical of 
our presence. President Karzai is losing domestic and international 
support. Violence is increasing and civilian casualties climbing, 
threatening to generate new refugee flows and exacerbate tensions among 
ethnic groups. Thus the shift in attention from Iraq to Afghanistan has 
come none too soon.
    Although the administration is still reviewing its Afghan policy, 
the broad outlines are apparent--an increase in American troop 
strength, pressure on Karzai to crack down on corruption, the 
appointment of Richard Holbrooke as special envoy for both Afghanistan 
and Pakistan and a recognition that stability in Afghanistan requires 
changes in Pakistan as well. There are several further steps the United 
States and its allies should consider.
    First, unify the North Atlantic Treaty Organization (NATO) and 
American military command chain.
    Second, do the same for the civilian effort.
    Third, bolster the military and civilian staffs in Afghanistan.
    Fourth, institute a bottom up component to our counterinsurgency 
strategy to complement the top down approach we have followed to date.
    Fifth, pay more attention to Afghan insurgent activities in the 
Pakistani province of Baluchistan.
    Sixth, support the upcoming Afghan elections, while remaining 
scrupulously neutral among the possible candidates.
    Seventh, intensify our engagement with Afghanistan's neighbors.
                       unifying military command
    Since 1942, when the U.S. and UK established a combined command for 
the invasion of North Africa, American and its European allies have 
operated together through a common military command structure, with a 
supreme commander responding both to the American President, and the 
leadership of the other allied governments. This is how we waged the 
Cold War, and conducted the post-Cold War interventions in Bosnia and 
Kosovo. Afghanistan is the first place where the American and NATO 
command chains have diverged.
    At present the American and allied military effort in Afghanistan 
are divided between Operation Enduring Freedom (OEF) and the 
International Security Assistance Force (ISAF). There are American and 
allied troops in both command chains. Both chains report ultimately to 
American generals, one in Tampa, FL, and the other in Mons, Belgium. 
ISAF is presently the larger of the two forces, operating under General 
Bantz Craddock, NATO's Supreme Allied Commander. OEF, the smaller 
force, comes under General David Petraeus, head of the U.S. Central 
Command.
    Within Afghanistan the command chain of these two forces converge 
under yet another American General, David McKiernan, before diverging 
toward Tampa and Mons. The two forces operate in generally distinct 
geographic areas, but some assets are necessarily employed in support 
of both, and some intermingling cannot be avoided. Divided command of 
this sort inevitably produces unnecessary friction, and is a standing 
invitation to misunderstanding, failure to render prompt assistance, 
and at the worst, fratricide. Of course we can continue to muddle 
through with this complex and confusing arrangement, as we have for the 
past several years, but there can be no hope that Petraeus and 
Holbrooke can pull off in Afghanistan the sort of reversal that 
Petraeus and Crocker managed to produce in Iraq in 2007 as long as 
Petraeus has control over less than half the American and allied forces 
in Iraq.
    There is a simple solution to this problem. There are currently two 
major NATO commands, one in Mons, Belgium, and the other in Norfolk, 
VA. The Norfolk command is charged with ``transformation'', that is to 
say the modernization of allied militaries along common lines. This is 
yesterday's top priority, and perhaps tomorrow's, but it is certainly 
not today's. Why not transfer these responsibilities back to Supreme 
Allied Commander, Europe, in Mons, relieving that commander of 
responsibility for Afghanistan, while moving this second major NATO 
headquarters to Tampa, putting it under General Petraeus, and giving it 
and him undivided authority for Afghanistan. Alternatively, NATO could 
create a third major command for Afghanistan in Tampa, while keeping 
the two it already has.
    This move would allow OEF and ISAF to be combined into a single 
force under a unified command chain all the way up to the American 
president and the NATO Council. Some allies want to do only 
peacekeeping but not counterinsurgency, others only counterinsurgency 
but not counterterrorism. They might oppose combining OEF and ISAF 
fearing that their own missions might change. It should be possible to 
accommodate these limitations within the structure of a single force 
with several separable missions. Yet even if the OEF and ISAF command 
chains cannot be fully merged, the efficacy of both will be immensely 
enhanced if they run in parallel from top to bottom, rather than 
diverge as they do at present.
                     unifying civil reconstruction
    Successful counterinsurgency (COIN) requires the intense 
integration of civilian and military expertise and activity. This is 
very difficult, particularly when done on a multilateral basis. The 
civil COIN effort in Afghanistan is particularly fragmented due to the 
failure, going back to late 2001, to create a structure and appoint a 
single leader to pull these activities together.
    Holbrooke's appointment puts a single official in charge of 
American non-military activities in Afghanistan, as well as Pakistan. 
Several European Governments have recently moved to create similar 
positions. It would be helpful if the Europeans could be encouraged to 
appoint a single individual, representing the European Union, to 
coordinate their national efforts and work with Holbrooke on a unified 
western approach to stabilization and reconstruction in both 
Afghanistan and Pakistan.
    We also need to give some greater coherence to provincial 
reconstruction efforts. There are currently 26 Provincial 
Reconstruction Teams (PRTs) in Afghanistan, of which the majority are 
run not by the United States, but by 13 other allied governments. There 
is no central structure overseeing these disparate efforts, setting 
common standards, establishing development priorities and otherwise 
supporting these teams. The U.S and the other governments fielding PRTs 
should establish a common administrative office in Kabul which would be 
responsible for developing a common doctrine, working with NATO, the 
U.N., the World Bank, the Afghan Government and other donors to set 
development goals and channel additional resources to these provincial 
teams.
                            bolstering staff
    Throughout the 16 month American occupation of Iraq, the Coalition 
Provision Authority was never more than 50 percent staffed. What is 
even more surprising, neither was CJTF-7, the top American military 
headquarters in Iraq. These staffing shortfalls go far in explaining 
deficiencies in American performance during that crucial period.
    By 2007, these deficiencies had been largely corrected. The surge 
in troop strength was accompanied by a significant build up in both the 
quantity and quality of the civilian and military staffs in Baghdad. 
Crocker had half a dozen former Ambassadors working for him. Petraeus 
had the support not only of a very talented military staff, but of a 
number of civilians who came with expertise not normally found within 
the armed services. The State Department and AID were also able to 
fully staff and run 22 PRTs located throughout the country.
    It was this pool of talent which allowed Petraeus and Crocker to 
manage the immensely complex and sophisticated strategies that divided 
our enemies in Iraq, brought former insurgents over to our side, 
deterred outside meddling and turned the security situation around.
    Afghanistan now requires the same sort of surge in the quantity and 
above all the quality of civilian and military talent, both at the 
headquarters level and in the field. At present the American PRTs in 
Afghanistan are still run by the military, in contrast to Iraq. The 
U.S. will find additional troops for Afghanistan by moving them from 
Iraq. It may not be possible for State and AID to do likewise. Indeed 
the burden on our diplomats and aid officials in Iraq may grow as the 
military presence recedes. Congress should therefore help State and AID 
generate the resources to surge in Afghanistan even as they hold steady 
in Iraq.
                      building from the bottom up
    Among the elements which reversed Iraq's decent into civil war were 
a counterinsurgency strategy which gave priority to public security, 
not force protection, and the decision to organize, arm, and pay large 
elements of the population that had previously supported the 
insurgency.
    Replicating the first of these effects in Afghanistan will be 
impossible with the American, allied and Afghan forces at our disposal. 
The Afghan population is larger than the Iraqi and much more dispersed. 
Afghan police and military forces are much smaller, as are American and 
allied troop numbers even after the planned U.S. reinforcement. 
American, allied and Afghan soldiers will be able to protect the 
populations in the contested areas only if elements of this population 
are also enlisted in the effort.
    The initial American approach in Afghanistan was bottom up. The 
U.S. worked with a number of warlords, militia and tribal leaders, 
including the Northern Alliance and Hamid Karzai, to overthrow the 
Taliban. More recently the United States and its allies have adopted a 
largely top down strategy in Afghanistan, seeking to build up the 
capacity of the Government in Kabul to provide security, justice, 
education, health, electricity and other public services to its rural 
population. Progress has been too slow, in part because we wasted the 
first several years after the fall of the Taliban, but also because, 
unlike Iraq, Afghanistan has never had much of a central government.
    Current circumstances require that we combine the top down and 
bottom up approaches. A counterinsurgency strategy emphasizing the 
delivery of security and other public services to the rural populations 
can only succeed if those populations are enlisted in the effort. The 
Afghan Government has pioneered some efforts in this regard, but more 
will be needed. This will prove quite controversial. The Afghan tribal 
structures are very distinct from those in Iraq, and any effort to 
replicate the ``Sons of Iraq'' will need to be adjusted considerably to 
suit local conditions. Many in the central government will fear that 
local empowerment will come at their expense. The Tajik, Uzbek and Shia 
leadership will fear that we are arming their enemies, the Pashtuns, 
just as the Shia and Kurdish leaders in Iraq looked at the Sunni 
Awakening skeptically. Wending our way through these minefields is 
precisely why our military and civilian staffs in Kabul, and the field 
need to be reinforced with real experts in the region, in 
counterinsurgency, and economic development.
                        focusing on baluchistan
    Insofar as the United States has focused on the sanctuaries from 
which the Afghan rebels are operating, it has directed its aid, and its 
Predator strikes on the Northwest Frontier Province (NWFP), and the 
Federally Administered Tribal Areas (FATA) it. This is where the 
insurgent groups targeting American troops in eastern Afghanistan are 
headquartered, and also where al Qaeda leaders are located. But the 
Taliban operates predominantly in the south, not the east of 
Afghanistan, and does so from the Pakistani province of Baluchistan, 
not the NWFP. The Taliban Shura, or governing council is known to meet 
in the city of Quetta, the capital of Baluchistan. Many American 
reinforcements are slated to be heading to the south of Afghanistan, 
where they will thus be facing an enemy controlled from Baluchistan.
    The utility of targeted killings employing Predator drones over 
Pakistan is debatable, but to the extent it is useful, there seems no 
good reason to limit the activity to the NWFP. The extension of 
American economic assistance and of effective Pakistani Government 
authority over the border region might actually be somewhat easier in 
Baluchistan, since unlike the FATA, this border area is at least 
juridically covered by Pakistani law, and fully within the country's 
political system.
                        supporting the elections
    The presidential elections scheduled for later this year could be a 
major turning point, either enhancing public support for the country's 
leadership, or moving it further toward civil war. The United States 
will have a major stake in the outcome, but will need to remain 
scrupulously neutral if that outcome is to be regarded as legitimate.
    This imperative will effectively limit the amount of pressure 
American officials can usefully put on President Karzai. In recent 
weeks the Afghan President has come under increasing criticism from 
Washington for tolerating corruption and failing to meet the 
aspirations of his people for peace and economic development. No doubt 
these criticisms are valid, but the administration and Congress should 
resist the temptation to blame Afghanistan's leadership for our 
failures. It is only necessary to recall back in 2007, when Congress 
was busy benchmarking the Iraqi Government, implicitly threatening to 
abandon them if they did not achieve certain legislative goals. Well, 
the Iraqi leadership have begun to meet many of those goals, but only 
after American and Iraqi forces created the security conditions in 
which mutual accommodation among rival factions became feasible.
    A certain level of criticism of Karzai can actually enhance our 
bona fides as a genuinely neutral party in the contest, given that he 
is widely, if inaccurately, seen as something of an American creation. 
Taken too far, however, such pressure could begin to look like 
Washington was trying to jettison him in favor of another candidate. 
This could have disastrous consequences.
    Whatever we do, Karzai stands a good chance of winning this 
election, if not on the first ballot, as he did last time, on the 
second. A far worse occurrence would be an inconclusive or contested 
result. At present everyone outside Afghanistan and very nearly 
everyone inside agrees that Hamid Karzai is the legitimate, freely 
elected President of Afghanistan. Our overriding objective, in how we 
approach this year's elections, must be to ensure that whoever wins 
enjoys at least the same degree of acceptance and support inside and 
outside that country.
                         engaging the neighbors
    Afghanistan is a poor, desolate, isolated and inaccessible state 
surrounded by more powerful neighbors. It has never been fully self 
sufficient. Its internal peace has always depended upon the attitude of 
external parties. When its neighbors perceived a common interest in a 
peaceful Afghanistan, it was at peace. When they did not, it was at 
war.
    In the aftermath of September 11, the United States worked closely 
with Afghanistan's neighbors and near neighbors to overthrow the 
Taliban and replace it with a broadly representative, democratically 
based regime. This unlikely set of partners consisted of Iran, India, 
and Russia, long-term backers of the Northern Alliance, and Pakistan, 
until then the patrons of the Taliban. Reconstituting this coalition 
should be the current objective of American diplomacy. Holbrooke and 
Petraeus should be encouraged to work closely not just with our 
European allies, but with all these regional governments, including 
Iran, with which the United States collaborated very effectively in 
late 2001.
    At some point a new international conference, with participation 
similar to that which met in Bonn in November 2001 to establish the 
Karzai regime, might help advance this process. The product of such a 
conference might be an agreement:

        <bullet> Among all parties to declare Afghanistan a permanently 
        neutral country;
        <bullet> By Afghanistan not to permit its territory to be used 
        against the interests of any of its neighbors;
        <bullet> By its neighbors and near neighbors not to allow their 
        territory to be used against Afghanistan;
        <bullet> By Afghanistan and Pakistan to recognize their common 
        border;
        <bullet> By all other parties to guarantee that border; and
        <bullet> By the United States and its NATO allies to withdraw 
        all forces from Afghanistan as soon as these other provisions 
        have been implemented.

    Such a package would give all the participants something of value. 
Pakistan would secure Afghan recognition of its border and assurances 
that India would not be allowed to use Afghan territory to pressure or 
destabilize Pakistan's own volatile border regions. Afghanistan would 
gain an end to cross border infiltration and attacks. Iran would get 
assurances that the American military presence on its eastern border 
would not be permanent.
    The Afghan people desperately want peace. They continue to hope 
that their freely-elected government, the United States and NATO can 
bring it to them. American forces continue to be welcome in Afghanistan 
in a way they have never been in Iraq. But public support for Karzai, 
his government, and the American presence is diminishing. Additional 
American troops and more aid dollars may be able to reverse, or at 
least slow these negative trends, but in the long term Afghanistan will 
be at peace only if its neighbors want it to be. Building such a 
consensus must be the main objective of American diplomacy in the 
region.
                            long-term goals
    I am often asked to suggest what our longer-term goals in 
Afghanistan should be. Do we seek a secular democracy, a more developed 
economy, a strong centralized government, a fully self sufficient state 
capable of securing its territory and populace? If so, how realistic 
are these aims? These, it seems to me, are not questions that we can or 
should try to answer definitively at this point. Democratization, 
development, capacity building and diplomacy, fighting the insurgents 
and negotiating with those that can be won over should all be viewed 
not as independent goals, but as components of an overall 
counterinsurgency strategy designed to secure the population.
    Thus, our job is neither to ``defeat the Taliban'' nor to determine 
the future shape of Afghan society. The American and allied objective 
should be to reverse the currently negative security trends and ensure 
that fewer innocent Afghans are killed next year than this year. In a 
counterinsurgency campaign, this is the difference between winning and 
losing--are you successfully protecting the population or not. If, as a 
result of our efforts, the current rise in violence is reversed and the 
populace made more secure, the Afghan people will be able to determine 
their own future through the peaceful, rather than violent competition 
of ideas, people, and political factions. This has begun to happen in 
Iraq. Our objective should be to give the Afghans the same opportunity.

    Chairman Levin. Thank you, Ambassador, very much.
    Dr. Strmecki.

 STATEMENT OF MARIN J. STRMECKI, PH.D., SENIOR VICE PRESIDENT 
     AND DIRECTOR OF PROGRAMS, SMITH RICHARDSON FOUNDATION

    Dr. Strmecki. Thank you, Mr. Chairman. I appreciate the 
opportunity to share my views with the committee about the 
situation in Afghanistan and Pakistan and to address your 
questions.
    The debate about the Obama administration's policy toward 
the region has really focused on the wisdom of sending the 
additional 17,000 troops to Afghanistan. My view is that the 
situation in Afghanistan had deteriorated to the point that 
more troops were necessary. However, just as important as 
sending more forces is the question of what other conditions 
are necessary to ensure when these forces are sent they can 
move us toward our objective. I would like to touch on a 
handful of those conditions.
    The first involves the role of Pakistan. A first order 
priority for the Obama administration must be to undertake a 
clear-eyed assessment about whether the Pakistani military 
establishment is doing all that it can to eliminate the 
sanctuaries on its territory. If it is not doing so--and I do 
not believe it is--then the task for American diplomacy must be 
to find a way to address the motivations that are driving 
Pakistani policies--their geopolitical motivations, their 
fears, their interests--so that one can move them to a position 
where they make a strategic choice to fully exert themselves 
against the problem in the sanctuaries.
    Second, the United States, other NATO countries, and the 
Afghan Government must develop a campaign plan based on classic 
counterinsurgency principles. We should place central priority 
on creating security for the Afghan population. This means 
above all creating persistent presence for security forces, 
primarily Afghan forces, at the local level, to give the people 
the confidence that they can share intelligence with us about 
the enemy without fear of retaliation when our forces are not 
there.
    Third, to support this counterinsurgency campaign, the 
United States should work with the Afghan Government to 
dramatically escalate the size and capabilities of Afghan 
national security forces. This probably means building an 
Afghan National Army (ANA) to 250,000 troops and an Afghan 
National Police Force of more than 100,000 personnel. This will 
be expensive, but it is still the most cost-effective way to 
secure Afghanistan because deploying an international soldier 
costs 50 to 100 times more than deploying an Afghan soldier.
    Fourth, the United States should work with those Afghans 
who are seeking to improve governance in their country, 
reducing corruption and strengthening the civil administration. 
We are right to be critical of the Karzai Government in this 
regard. It has underperformed. But we shouldn't lose hope 
because there have been achievements--the building of the ANA, 
promoting rural development and health through Afghan-led 
national programs, starting the process of appointing better 
officials to provincial and local levels, and appointing a 
reform-oriented minister of interior. We can be critical of the 
Afghans, but we should build on the progress that we are 
starting to see.
    Fifth, the United States and other supporters of 
Afghanistan must work with its government to bring into balance 
the military and nonmilitary elements of the strategy. There's 
a tried and true formula that proper counterinsurgency is 80 
percent nonmilitary and 20 percent military. But our efforts, 
if one looks at budgets and resources and personnel, are the 
converse.
    We need to find ways to build on effective Afghan-led 
development programs, as well as to create enterprise funds and 
other mechanisms to stimulate growth.
    I'd like to make one final point. In the public debate 
there have been calls from many circles to define downward our 
goals in Afghanistan, to abandon the objective of building a 
stable, effective, and democratic state that would be our ally 
in the war on terror, and instead to focus simply on the narrow 
and primarily military objective of preventing Afghan territory 
from becoming a safe haven for terrorists. Defining our goal 
downward in this respect would be a terrible mistake. It might 
be possible or even advisable if the threat in the region had 
disappeared or was diminishing. But it's a proximate threat and 
it's a growing threat and located in western Pakistan. It's a 
threat to us, it's a threat to Afghanistan, it's a threat to 
stability in Pakistan. We need to work against that problem 
from the west in Afghanistan, from the east in Pakistan, and in 
working to the heart of the problem in the border regions.
    Afghanistan looks like a very difficult task and it 
certainly is. But if the Obama administration makes the big 
decisions early I believe it has the ability to turn the 
situation around in its first term.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Strmecki follows:]
                Prepared Statement by Dr. Marin Strmecki
    Mr. Chairman, Senator McCain, and distinguished members of the 
committee: My name is Marin Strmecki. I am the Senior Vice President 
and Director of Programs at the Smith Richardson Foundation, a private 
foundation that supports public policy research and analysis. I 
appreciate the opportunity to give you my views on the situation in 
Afghanistan. I have followed events in that country closely for more 
than 20 years. I served from 2003 to 2005 as a policy coordinator and 
special advisor on Afghanistan in the Office of the Secretary of 
Defense and undertook a factfinding trip to the country for the 
Secretary of Defense in 2006. Though I am currently a member of the 
Defense Policy Board, the views I present today do not reflect any 
discussions or deliberations by the board.
    In light of the opportunity and challenge that Afghanistan presents 
to the Obama administration, the committee's hearings are very timely. 
Today, I want to make five major points.

          1. During the past 3 years, the situation in Afghanistan has 
        deteriorated, particularly in terms of security. The vast 
        majority of Afghans oppose the Taliban, but local communities 
        cannot defend themselves from insurgent intimidation and 
        attacks. Reversing the negative trends requires rededicated 
        U.S. leadership, greater resources, and an improved strategy 
        and campaign plan. The fact that the Obama administration is 
        undertaking a wide-ranging strategic review is an encouraging 
        sign.
          2. In this review, it would be a mistake to revise our goals 
        downward, giving up the current objective of enabling Afghans 
        to establish an effective and representative government aligned 
        with us in the war against terror. The United States needs an 
        Afghan state capable of policing its territory to prevent the 
        reestablishment of a terrorist safe haven. Helping the Afghan 
        people succeed politically and economically will produce a 
        significant positive demonstration effect in the wider region, 
        thereby contributing to the war of ideas against extremism. 
        Success will end the cycle of proxy warfare that has cost more 
        than a million Afghan lives during the 1980s and 1990s. It will 
        also open a route to global markets for the Central Asia states 
        and create an economic zone that can be the basis for greater 
        prosperity in Central and South Asia.
          3. The focus of our policy should be to defeat a real and 
        growing threat arising from a set of violent extremist groups 
        based in western Pakistan and their supporters in Pakistan. The 
        necessary conditions for success include the stabilization of 
        Afghanistan, as well as strengthening elements in Pakistan 
        opposed to extremism and finding ways progressively to narrow 
        the areas in Pakistan in which the extremists can operate until 
        these organizations have in effect been smothered.
          4. A key task is to induce elements of the Government of 
        Pakistan that have historic ties to the Taliban and other 
        groups to make a strategic choice to cooperate fully in 
        eliminating extremist sanctuaries. This requires the United 
        States to undertake sustained diplomacy that is cognizant of 
        the motivations and interests that might underlie Pakistan's 
        policies and that is designed to create a regional context 
        conducive to the stabilization of Afghanistan. The Obama 
        administration's appointment of Ambassador Richard Holbrooke as 
        a special envoy presents this opportunity.
          5. U.S. efforts to ``harden'' Afghanistan against the 
        insurgent threat operating out of the sanctuaries can succeed. 
        To do so will require changes in our current approach, 
        including development of a more robust political and state-
        building effort, shifting to a classic counterinsurgency 
        strategy focused primarily on providing security to the 
        population, and integrating Afghan and international civilian 
        and military efforts in a phased campaign to secure contested 
        areas.

    As we approach this challenge, it is vital to understand what 
conditions produced stability in Afghanistan in recent history and what 
dynamics underlie the instability of recent decades. Too often, 
commentators mistakenly take the view that Afghanistan has been either 
ungovernable throughout history or has lacked a central government 
whose reach extended throughout its territory. In fact, until the late 
1970s, Afghanistan had been a relatively stable developing country for 
much of the twentieth century. It was a poor country, to be sure, but 
one with a state that carried out basic governmental functions and that 
enabled gradual political and economic progress.
    At the simplest level, three factors were essential to stability. 
First, the Afghan people broadly viewed the government as legitimate, 
particularly during the rule of King Zahir Shah. The monarchy was 
rooted in the Pushtun community, but Afghan leaders understood the need 
to provide for participation by other ethnic and social groups. The 
monarchy ruled on the basis of a flexible compact between the central 
government and local tribal and social leaders, providing policing and 
civil administration as a means to strengthen political cohesion and 
allegiance. Second, Afghan security institutions were sufficiently 
strong to prevent subversion, encroachment, or aggression by ambitious 
neighboring powers. For example, when externally sponsored Islamist 
extremists sought to infiltrate the country in the early 1970s, they 
were policed up rapidly, with the cooperation of local leaders and 
communities. Third, a tacit agreement existed among regional rivals 
that Afghanistan should be a buffer state, not dominated by any of its 
neighbors but instead open to political, economic, and social 
influences by every power at a level that would not threaten the 
others. As long as those conditions persisted, Afghanistan enjoyed 
stability and ``worked'' as a country.
    The tragedy of Afghanistan was triggered when this system 
collapsed. It began with the coup that brought the Afghan Communist 
party to power in 1978 and the subsequent invasion by the Soviet Union 
in 1979. Once Moscow imposed its proxy regime in Kabul, the Afghan 
people mounted a national resistance. In this period, Pakistan and Iran 
mobilized and armed proxies among the resistance groups, with the 
United States in effect supporting Pakistan's effort with financing, 
arms, and supplies. After the Soviet withdrawal in 1989 and the 
eventual collapse of Moscow's client state in 1991, a three-way civil 
war broke out between proxies supported by Pakistan, Iran, and Russia. 
By 1996, the Taliban, a proxy group backed by Pakistan, won control of 
Kabul. However, it continued to fight an inconclusive war against 
factions that joined together in the Northern Alliance, a proxy 
supported by Russia, Iran, and India. Throughout this period of 
conflict, all of these client regimes lacked national legitimacy: these 
groups were instruments of foreign states with limited popular support, 
typically rooted in narrow factions or one ethnic group or region. As a 
result, none could establish a state that was capable of extending its 
reach throughout Afghan territory or precluding armed subversion by 
adversarial neighbors. This pattern of competition--fighting among 
internal Afghan factions backed by rival external powers--resulted in a 
quarter century of violence.
    The promise of the Bonn Process, sponsored by the U.N. and 
supported by the United States as military operations were undertaken 
against the Taliban regime in 2001, lied in the fact that it sought to 
establish a post-war order through a renewed version of Afghanistan's 
traditional formula for stability. Internally, it involved all anti-
Taliban factions in a political process that step by step gave greater 
political weight to the preferences of the Afghan people, culminating 
in national elections in the presidential election 2004 and 
parliamentary election in 2005. This vehicle enabled the establishment 
of an inclusive, broad-based state, with the Afghan people ultimately 
serving as the arbiters of who would rule in Kabul. The Bonn Process 
also provided for external support, principally from countries outside 
of the region, to rebuild effective Afghan security institutions. At 
the same time, all of Afghanistan's neighbors were players in the Bonn 
Process, providing them with transparency and a measure of influence 
and allowing for participation in Afghanistan's reconstruction.
    The Bonn Process--and the underlying formula for restoring 
Afghanistan's stability--produced significant results in terms of 
political stability and state-building. Most significantly, in the 
months following the Afghan presidential election in October 2004, the 
level of security incidents in Afghanistan fell to negligible levels. 
This offers proof of principal that a dual process--building political 
legitimacy and using regional diplomatic engagement to prevent 
destabilizing interventions--could produce a path to stability and 
progress in Afghanistan.
    During the past 3 years, the stability won by the Bonn Process has 
been largely lost. The core of the problem has been the regrouping of a 
set of violent extremist forces in sanctuaries in Pakistan, some 
seeking to carry out terrorist attacks on the United States, others 
undertaking cross border attacks on Afghanistan, and still others 
attempting to radicalize and destabilize Pakistan.
    In Afghanistan, rising insecurity has been driven by an escalation 
in cross-border infiltration and attacks by the Taliban, the Haqqani 
group, and the Hezbe-Islami of Hekmatyar Gulbiddin. This activity 
increased incrementally in late 2005. It escalated dramatically in 
2006, including operations by larger-unit formations against the North 
Atlantic Treaty Organization (NATO) units assuming command in the 
south. Enemy operations expanded geographically in 2007 and 2008, 
increasing the scope of contested areas even as enemy tactics returned 
predominantly to small-unit and terrorist actions.
    An enabling condition for successes by the Taliban and other 
extremists has been the underperformance of the Afghan Government and 
its consequent loss of popular support. This is not to deny significant 
Afghan achievements of building the Afghan National Army, instituting 
effective Afghan-led national programs in rural development and health, 
and other areas. However, following the elections of 2004 and 2005, 
President Karzai disappointed the expectations of the Afghan people 
that their government would systematically improve provincial and local 
governance, by deploying honest and effective officials and delivering 
basic services. In too many areas, weak, corrupt, or nonexistent 
government was the reality. As Afghans often say, ``The problem is not 
that the Taliban are so strong--it is that the government is too 
weak.''
    This combination--violent extremists operating out of a neighboring 
country and eroding legitimacy at home--has produced the deteriorating 
situation in Afghanistan today. Reversing this trend requires a two-
pronged effort to eliminate enemy sanctuaries in Pakistan and to 
``harden'' Afghanistan against the insurgency of the Taliban and other 
extremists. I will take up each of these in turn.
    Uprooting the sanctuaries will require a broad-based political 
strategy. A first order question that the Obama administration will 
face is assessing the role of the Government of Pakistan in the 
insurgency in Afghanistan. President Zardari's election provides a 
willing partner to help stabilize Afghanistan, but power is divided in 
Islamabad. Key elements of the military establishment--particularly 
Inter-Services Intelligence--have longstanding ties to extremist groups 
operating against Afghanistan. I believe that these elements, at a 
minimum, have not made a strategic choice to cooperate fully with the 
effort to stabilize Afghanistan.
    Press reports and analysts have long noted that, in the past 7 
years, Pakistan's security services have helped capture hundreds of al 
Qaida leaders and operatives but only a handful of those of the 
Taliban. They have also observed that the Taliban operates openly in 
Quetta, the capital city of Baluchistan province where ample Pakistani 
police and other security forces are available. More troubling is the 
reporting of David Sanger in his recent book The Inheritance: the World 
Obama Confronts and the Challenges to American Power. He states that in 
a conversation with former Director of National Intelligence Mike 
McConnell, a Pakistani general admitted that his military was 
supporting the Taliban. Sanger also writes that McConnell asked for an 
assessment by the Intelligence Community of Pakistan's relations with 
the Taliban. He states that the resulting report indicated that the 
Pakistani Government regularly gave the Taliban and other militant 
groups ``weapons and support to go into Afghanistan to attack Afghan 
and coalition forces.'' I am not aware that any U.S. official has 
disputed this account. If it is accurate, it raises troubling questions 
about the activities of Pakistan's military and intelligence services 
in Afghanistan.
    If elements in Pakistan's military and intelligence establishment 
are adversarial to our efforts in Afghanistan, the starting point in 
trying to change their orientation is to understand the underlying 
reasons for their actions. In my view, there are at least five 
potential motivations:

        <bullet> The first is the fear that Pakistan's regional 
        rivals--particularly India--will secure undue influence in the 
        Government of Afghanistan. On this topic, Pakistani officials 
        offer a litany of complaints, starting with President Karzai's 
        close ties to India, continuing with prominent roles of former 
        Northern Alliance figures in key security institutions, and 
        including accusations that anti-Pakistan intelligence and 
        political activities are orchestrated from Indian consulates 
        and road building companies in eastern and southern 
        Afghanistan.
        <bullet> The second is a belief that the United States, as well 
        as NATO, lacks staying power and will abandon Afghanistan. 
        This, in turn, will lead to the failure of the Afghan 
        Government and a reprise of the proxy competition among 
        regional rivals of the 1990s. If this scenario is likely, it 
        follows that now is the time to field effective proxy forces to 
        gain positional advantage in the fight to come.
        <bullet> The third is the fear that a successful Afghanistan 
        will exert a dangerous political appeal to ethnic Pashtuns who 
        live in Pakistan. The unresolved legal status of the Durand 
        Line and the history of tensions with Afghanistan over the 
        Pushtunistan issue exacerbate this concern.
        <bullet> The fourth is the strategic aspiration of some in 
        Islamabad to project Pakistani influence into Central Asia 
        through Afghanistan.
        <bullet> The fifth is the belief that the United States will 
        only remain engaged with Pakistan--and provide military and 
        economic assistance--if security threats draw us into the 
        region. This leads to the view that Pakistan's interests lie in 
        acting as a ``strategic rentier state,'' perpetuating a degree 
        of insecurity in order to be paid to reduce it.

    As Ambassador Holbrooke engages with Afghan and Pakistani leaders, 
a key objective should be to draw out from Pakistani military and 
intelligence leaders what are their strategic concerns and to advance 
discussion between the two sides about how these might be addressed in 
a manner consistent with a strong and stable Afghanistan. At a minimum 
this should include discussion of a package containing five 
initiatives:

        <bullet> Create a system of redlines governing the activities 
        in Afghanistan of all regional powers, including both Pakistan 
        and India, to allay concerns that one rival is gaining 
        unilateral advantage and to provide a transparent system for 
        monitoring compliance.
        <bullet> Craft credible commitments on the part of the United 
        States to remain the principal external power engaged in state-
        building in Afghanistan, particularly regarding security 
        institutions, and to take Pakistani security concerns into 
        account in formulating its policies.
        <bullet> Mediate discussions between Afghan and Pakistani 
        leaders to arrive at a common understanding of the border 
        regime and use relations between the Pushtun communities in 
        both countries to foster constructive social and economic ties.
        <bullet> Make commitments to plan, jointly with Kabul and 
        Islamabad, and to finance the construction of the 
        infrastructure (e.g., roads, rail, pipelines, communications) 
        to connect Central Asia through Afghanistan to Pakistan, 
        thereby enabling expansion of trade and cultural and political 
        ties.
        <bullet> Develop a major package--on the order of U.S. 
        assistance to Egypt--to support the economic and social 
        development in Pakistan, including support to improve the 
        educational system, to stimulate growth of private enterprise, 
        and to build needed infrastructure, in order to demonstrate the 
        United States values a long-term relationship with Pakistan for 
        its own sake not just as a tactical necessity in the war on 
        terror.

    These initiatives, among others, can address the motivations that 
might lie behind the apparent reluctance of elements in Pakistan to 
make a strategic choice to support efforts to bring stability to 
Afghanistan, as well as isolate those who might sympathize with the 
ideology of the extremists. It is imperative to recognize that the 
inducements needed to ``flip'' their policies must be significant. 
Current assistance, including coalition support funds and bilateral 
aid, creates a foundation for leverage. However, the increments of 
additional assistance will need to be large in order to be commensurate 
with the stakes involved.
    At the same time, for a package containing these initiatives to be 
effective, the benefits should flow only on a ``pay for performance'' 
basis. If U.S.-sponsored mediation leads to a meeting of minds on these 
issues, bestowing the benefits should begin only when the security 
situation in southern and eastern Afghanistan has stabilized--only when 
the sanctuaries have been closed down.
    Together, these actions could create the basis for a transformation 
of the Afghan-Pakistan relationship. As I noted, the Zardari Government 
is already a willing partner. However, I believe that, since the 
attacks of September 11, U.S. policymakers have underestimated the 
sensitivity of Pakistan's military establishment to the evolution of 
post-Taliban Afghanistan. The issue is not whether those fears or 
beliefs are grounded in fact or paranoia. Instead, the issue is to find 
ways that Afghanistan and the United States can allay or address 
whatever concerns might be driving Pakistan conduct without 
compromising our interests or values.
    If all elements in Pakistan fully cooperate to eliminate extremist 
sanctuaries, the task of hardening Afghanistan against the residual 
insurgency would be an order of magnitude less difficult than the 
challenges we face today. Yet, even if the Pakistan-based insurgency 
remains at current levels, it can be done.
    The principal reason for my conviction is that the legitimacy of 
the Afghan Government can be renewed. The overwhelming majority of the 
Afghan people, as measured in polling and shown by anecdotal evidence, 
oppose the Taliban. Large majorities want the new democratic political 
order to succeed. What has been missing on the part of the Afghan 
Government, the United States, and other friends of Afghanistan is a 
fully resourced counterinsurgency strategy and campaign plan to 
mobilize and vindicate this latent support.
    The hard core of the enemy is a cadre composed of Afghan and 
(increasingly) foreign fighters who operate out of cross-border 
sanctuaries. According to polls, the Taliban also appears to have the 
support of about 5 percent of the people. In addition, there are 
``soft'' layers of coerced, tacit, or expedient supporters. In light of 
the inability of Afghan or NATO forces to protect local populations, 
many Afghans believe they have no choice but to submit to Taliban 
threats and demands. Sometimes, ineffective or corrupt officials 
demoralize local communities to an extent that they have no preference 
between the Taliban and the Afghan Government. In other instances, 
tribal rivalry results in disadvantaged groups seeking tactical 
alliances with the Taliban. It is likely that military mistakes or 
civilian casualties in NATO operations have turned communities against 
the Afghan Government. In still other cases, some individuals have 
become ``terrorists for a day'' to make money.
    The logic of classic counterinsurgency doctrine provides the 
template for peeling away the soft outer layers of the insurgency and 
for defeating the hard core. It begins with the recognition that the 
center of gravity is the people. They are the key because the enemy 
moves among them--they know who in their areas is linked to the enemy. 
If the people provide this intelligence, rooting out the enemy can be 
done surgically, even by police actions. To obtain this information, 
the challenge is to win the ``hearts and minds'' of the people. Winning 
the mind of an average Afghan involves persuading him that the Afghan 
and NATO forces are going to win the war and that these forces will 
protect him from retaliation if he takes the risk of providing 
intelligence on the insurgents. Winning the Afghan's heart entails 
persuading him that he will benefit, in terms of improved governance 
and economic development, as the Afghan Government prevails. Winning 
hearts and minds cannot be done without persistent presence of security 
forces at the local level--this visibly gives the assurance of 
protection against retaliation and provides the basic security needed 
to deliver services to the people. There is no short around the hard 
work of providing security for the population. It is the foundation of 
all other measures.
    From late 2003 through mid-2005, coalition forces shifted to a 
population security-based campaign plan. Coalition and Afghan forces 
were deployed permanently into contested areas, instead of launching 
cordon and search operations that left no enduring security presence. 
Though the threat and troops levels in this period were lower than 
those of today, this approach succeeded in winning cooperation from 
local communities and increasing stability in the south and east. 
However, as the Taliban and other extremist forces escalated attacks in 
late 2005 and 2006, U.S. and other NATO forces gradually moved away 
from the population security paradigm and toward an emphasis on 
maneuver operations, firepower, and raids by Special Operations Forces 
(SOFs). In the current paradigm, Afghan, U.S., and NATO forces withdraw 
shortly after clearing an area of the enemy, which allows him to 
reenter and results in no enduring gains. It is not surprising that 
some polls show that, while Afghans support the continuing presence of 
international forces, they are losing confidence that these forces can 
deliver security.
    To implement a counterinsurgency strategy in Afghanistan entails 
making a commitment to success, strengthening the legitimacy of the 
Afghan Government, establishing security at the local level, and the 
fielding of effective governance and development. It requires ten 
principal actions:

          1. Recommit to a definition of success that includes the 
        improvement of the lives of average Afghans: Loose talk about 
        diminishing U.S. goals or expectations demoralizes our Afghan 
        allies. If an Afghan villager doubts our staying power, he will 
        not risk his life and the lives of his family members to 
        provide intelligence on the enemy. If he believes that we are 
        solely pursuing a parochial mission of hunting down terrorists, 
        he will become cynical and indifferent to our success. If we 
        operate in partnership with the Afghans--and if we credibly 
        recommit to success--this action alone will reduce 
        counterproductive hedging and result in popular mobilization to 
        support the common cause.
          2. Align the United States with popular aspirations for 
        reform: In the coming election in Afghanistan, the United 
        States should announce that it hopes that Afghans will seize 
        the opportunity to achieve a political breakthrough for reform, 
        bringing to office leaders for whom reducing corruption and the 
        taking on narcotics industry as primary missions. It is for 
        Afghan political figures to compete for popular support in 
        terms of these and other issues. The key for the United States 
        is position itself to support the better aspirations of the 
        Afghan people.
          3. Resolve issues through collaborative problem solving: 
        Diplomacy based on angry demarches seldom work with Afghan 
        leaders. Assigning all blame to President Karzai for failures 
        in governance is unfair and counterproductive. There have been 
        instances when he sought to move against a corrupt minister or 
        a criminal figure but was persuaded to desist by U.S. officials 
        and military officers. President Karzai has been an effective 
        leader when he is confident in his relationship with the United 
        States, when he has a strong team of reformist officials around 
        him, and when his main U.S. interlocutor works with him to 
        arrive at a common definition of the problem, an agreed action 
        plan with responsibilities allocated among the Afghan 
        Government and the international community, and a system for 
        working through challenges in implementation. As the United 
        States has moved away from this kind of time-consuming but 
        productive engagement, Karzai's leadership suffered, to the 
        detriment of our common efforts. We should return to the 
        successful model based on close collaboration to get the most 
        out of the Afghan Government.
          4. Avoid actions or statements that shift the United States 
        toward the role of an occupying force: In addition, loose 
        comments about bypassing Kabul to work with provincial, local, 
        or tribal leaders can be harmful. U.S. forces and agencies 
        already undertake constructive work at the grassroots level. 
        However, if a shift in rhetoric or policy appears to diminish 
        the elected Afghan Government, the United States will take a 
        step down a path that could result in our being viewed as 
        occupiers. The best approach is to work from the bottom up as 
        well as the top down to achieve immediate effects while 
        improving the functionality of linkages between levels of 
        government. This model was used to great effect in the CORDS 
        program in Vietnam.
          5. Develop an integrated population security-based 
        counterinsurgency campaign plan jointly with the Afghan 
        Government: Since our forces and those of our Afghan and NATO 
        allies are limited, we should first secure major population 
        centers and then progressively expand secured areas district by 
        district and province by province as more Afghan or NATO forces 
        become available. Also, too often, the United States and its 
        NATO allies develop military plans and bring them to the Afghan 
        side for formalistic approval. Sometimes, actions are taken 
        without any consultation. Going forward, this should change. 
        Afghan security forces are the largest component of the 
        coalition, and the Afghans can provide valuable local knowledge 
        needed to build out the plan. Moreover, an integrated campaign 
        should bring to bear Afghan-led governance and development 
        programs immediately in the wake of military operations. These 
        include the Focused District Development program (which 
        upgrades training of police personnel for an entire district), 
        the Independent Directorate for Local Governance (IDLG) (which 
        evaluates and replaces provincial and district officials if 
        necessary), the National Solidarity Program (which provides 
        small grants to carry out projects selected by village-level 
        development councils and already operates nationwide), and 
        others. The Afghan Public Protection Force concept--a program 
        in the pilot stage--is designed to provide village-level 
        security thought vetted and trained recruits, under the 
        authority of the Ministry of Interior (MoI).
          6. Bring all SOFs active in Afghanistan under NATO command: 
        Press reports, as well as speeches by Department of Defense 
        officials, have noted a major expansion in actions by SOF. In 
        Afghanistan, the highest and best use of SOF is partnering and 
        mentoring ANA and Afghan National Police (ANP) forces. There is 
        no better way to move Afghan forces up the learning curve and 
        thereby to increase our capacity to fill contested areas. 
        However, there are indications that direct action is the 
        dominant SOF mission. Senior Afghan officials believe that SOF 
        raids are a principal cause of excessive civilian casualties 
        and are disaffecting the Afghan people. We should take this 
        concern seriously. It is encouraging that NATO is concluding a 
        military technical agreement with the Afghan Government that 
        may cover this issue. Specific SOF operations should be 
        measured against the standard of whether they advance the 
        population security campaign. This approach would result in 
        greater emphasis on the mentoring mission and less on direct 
        action.
          7. Field a major expansion of the training, partnering, and 
        mentoring capacity for Afghan National Security Forces (ANSF): 
        Though the Bush administration's decision to increase in the 
        planned end strength of the ANA from 70,000 to 132,000 deserves 
        praise, the Obama administration should increase the target to 
        250,000, as well as increase ANP end strength above 100,000. In 
        light of the current level of the threat, it is only when the 
        ANSF reaches those numbers that the ratio of security personnel 
        to population will achieve the level necessary for success in 
        counterinsurgency. More precise estimates of needed ANSF force 
        levels will be possible as the campaign plan demonstrates how 
        much area or population can be secured by particular numbers 
        and mixes of the ANSF. This will require a major expansion of 
        training capacity--at least a doubling--but the experience in 
        Iraq shows that this is possible without loss of quality. While 
        it will be expensive, there is no more cost effective approach 
        to secure Afghanistan than to build up the ANSF dramatically.
          8. Accelerate support to the MoI: President Karzai's 
        appointment of a new, reform-oriented minister in October 2008 
        created a major opportunity to improve the performance of the 
        institution in charge of civil administration and police. A 
        major U.S.-supported program to reform the ministry is 
        underway, but the United States should spare nothing in 
        ensuring that the new minister has what he needs to advance 
        these changes. The Afghan-led IDLG has show that the 
        appointment of high-quality local and provincial leaders can 
        have transformative effects. A reformed MoI, supported by the 
        experience garnered through the IDLG, creates the needed 
        mechanism to systematically improve governance beyond Kabul.
          9. Adopt the national program model for service delivery and 
        development: Afghan-led national programs in rural development 
        and health have been significant successes. The National 
        Solidarity Program has created 23,000 Community Development 
        Councils and through them has implemented more than 45,000 
        locally selected reconstruction projects across the country, at 
        a fraction of the cost of those undertaken by western 
        nongovernmental organizations or contractors. Improvements in 
        the national health infrastructure, led by Ministry of Health 
        and supported by a wide variety of donors, have started to move 
        health indicators such as child mortality in a positive 
        direction. The model is based on using an Afghan ministry as 
        the vehicle to receive donor funds and to carry out donor 
        programs. If the ministry lacks capacity--in strategic 
        planning, procurement, auditing, or other functions--it 
        contracts foreign specialists to work within the ministry, side 
        by side with its personnel. The ministry also either delivers 
        the services itself or enters direct contracts with providers, 
        thus avoiding western overhead rates and reducing inefficient 
        subcontracting. This model should be applied to other program 
        areas and should be adapted to accelerate development of Afghan 
        capacity in economic sectors, such as agriculture, food 
        processing, and construction. It should be complemented by an 
        enterprise fund to support small and medium-sized enterprises 
        and joint ventures and by a greater use of instruments such as 
        Overseas Private Investment Corporation.
          10. Reconcile the reconcilable elements of the insurgency as 
        the counterinsurgency campaign unfolds: A population security-
        based campaign will naturally peel off the ``soft'' layers of 
        the insurgency. Providing enduring security to vulnerable 
        communities will reduce the level of coerced support. Improved 
        governance will win over disaffected communities that opted to 
        sit on the fence between the insurgents and the government. 
        Effective governors and district administrators, who 
        historically have mediated tribal or communal conflicts, can 
        prevent the insurgents from exploiting local conflicts to gain 
        support. Effective counterinsurgency should entail far less 
        kinetic strikes, reducing the numbers of enemies produced by 
        mistakes or civilian casualties. As economic growth takes hold 
        in secured areas, the relative attraction of payments to carry 
        out insurgent actions will diminish. Improvements in the lives 
        of average Afghan citizens may also win over some of those who 
        report sympathy for the Taliban in polls. If all these groups 
        are reconciled, the next final step is whether any elements can 
        be split off from the hard core.

    These 10 measures create the needed balance between providing 
security on the one hand and taking advantage of improved security to 
take the political, governance, and economic actions to strengthen the 
legitimacy of the Afghan Government and to enable Afghanistan to stand 
its own feet. It is a tried and true statement that effective 
counterinsurgency entails 80 percent civil actions and 20 percent 
military measures. A properly executed population security-based 
campaign supported by a fully resourced state-building and economic 
development program should meet that standard.
    In closing, I would again urge us not to reduce downward our goals. 
If the United States does so, it will diminish its ability to win the 
hearts and minds of the Afghan people--and thus the intelligence they 
can provide--for they will know that their aspirations are excluded 
from the definition of success. Such a reduction in our goals would 
also wave a red cape in front of regional powers already doubtful of 
our staying power and could prompt them to take actions that will 
further destabilize Afghanistan. Moreover, even if the United States 
were to remain engaged with a narrow military mission of preventing a 
renewed terrorist safe haven, it would become a mission of indefinite 
duration. An Afghan Government with sufficient capacity to police its 
own territory is the path to a drawdown of NATO forces.
    The example of South Korea should be the model. After the end of 
the fighting in the mid-1950s, South Korea was worse off by most 
social, economic, and political indicators than Afghanistan after fall 
of the Taliban. Yet, a robust and well-designed state-building and 
economic development program, led by excellent South Korean leaders and 
supported by the United States, produced an Asia Tiger within 25 years. 
Even though we retain a defense commitment and forward deployed forces, 
the overwhelming burden of defending the peninsula is carried by South 
Korea. In the cold war competition in East Asia, the peninsula was 
vital terrain. The same is true for Afghanistan in the struggle against 
extremism and terrorism. The South Korean case shows what can be 
achieved by resolute American commitment and effective partnership with 
local leaders. The Obama administration should carry those lessons over 
to Afghanistan.

    Chairman Levin. Thank you very much, Dr. Strmecki.
    Let's try a 6-minute first round. I think there's a vote 
that's going to begin at 10:30 a.m. It's my hope we can work 
right through that vote.
    In his recent statement to the Senate Select Committee on 
Intelligence, Dennis Blair said that ``No improvement in 
security in Afghanistan is possible without progress in 
Pakistan'' and no improvement in Afghanistan is possible 
without Pakistan taking control of its border areas and 
improving governance, creating economic and educational 
opportunities throughout the country.''
    As I indicated, it obviously would be very, very helpful if 
Pakistan was able to improve the border situation and take 
control of it and do the other things which Dennis Blair talked 
about.
    But would you agree with me that that statement is simply 
too unqualified, that there can be no improvement in Afghan 
security unless the situation in Pakistan is improved in the 
way that's indicated? Why don't we start off with you, Dr. 
Strmecki. Very quickly, would you agree with that statement 
that it's too unconditional?
    Dr. Strmecki. I would agree with you, Mr. Chairman. I think 
it's an issue of costs. If one got cooperation of the kind that 
he discussed in his point, an order of magnitude reduction in 
cost in terms of stabilizing Afghanistan would I think be 
possible. But one can harden Afghanistan against the insurgency 
if one puts in the resources and approaches the task mobilizing 
Afghan capability at the right levels.
    Chairman Levin. Ambassador Dobbins?
    Ambassador Dobbins. I agree that it's an overstatement in 
the sense that I do think it's possible to reverse the 
currently negative trends. But I don't think it's possible to 
eliminate the threat or create an entirely self-sustaining 
Afghan capability of protecting its population unless Pakistan 
is playing a much more benign role. Afghanistan is simply too 
poor, and too isolated, to ever be able to secure its territory 
and its population unless its neighbors cooperate in that 
effort.
    Chairman Levin. Thank you.
    General Barno?
    General Barno. I would agree as well, Mr. Chairman. I think 
in fact as I look at Afghanistan that probably half of the 
problems that we were dealing with were not related to the 
Taliban; they were related to internal factors trying to pull 
the country apart--corruption, crime, poverty, lack of 
education, lack of health care. Those factors are not directly 
impacted by activities inside of the tribal areas of Pakistan.
    Chairman Levin. I think each of you has commented on the 
additional forces which the President has now indicated are 
going to be going to Afghanistan, but why don't we have it in 
one place in the record. Very briefly, do you support the 
President's decision to send an additional 17,000 troops to 
Afghanistan over the next 6 months or so? General? Briefly, 
why? Do you support it and briefly why?
    General Barno. I absolutely support it, Mr. Chairman. 
Having just been out there a month ago, it was clear in RC-
South, where the bulk of those forces are going, that they are 
tremendously under-resourced with boots-on-the-ground right 
now, and if we're going to secure the population we're going to 
require a much different force structure than what's available 
there today.
    Chairman Levin. Thank you.
    Ambassador Dobbins?
    Ambassador Dobbins. I support the reinforcement and expect 
that probably more are going to be necessary over the next 
year.
    Chairman Levin. Do you want to say briefly why? I know you 
did in your testimony, but still very quickly tell us, 
summarize why you think the additional forces are needed and 
appropriate.
    Ambassador Dobbins. I think the core of any successful 
counterinsurgency strategy is making the populace feel that 
they're safer if you're there than if you're not and providing 
them pervasive--or not so much pervasive as persistent 
security, so that you don't lose control of the villages at 
night and they come in and murder everybody who cooperated with 
you in the daytime.
    Now, given the dispersed nature of the Afghan population 
and the size of the Afghan population, there's probably no 
conceivable American increase that's going to fully meet that. 
So it is going to have to be met by, as you've suggested, 
significantly increasing the size of the Afghan forces and 
contributions from allies. But most particularly, in addition I 
think we have to empower the local communities in the 
threatened areas to contribute to their own security and look 
on the central government's and our own forces as quick 
reaction forces that can come when they're threatened. Creating 
that kind of structure for local security, I think, has to be 
one of our priorities.
    Chairman Levin. Thank you.
    Dr. Strmecki?
    Dr. Strmecki. I also support the reinforcement of our 
forces. One reason, as has been discussed, is that a proper 
counterinsurgency plan focused on protecting the population 
will require more people. But also, if we're going to escalate 
the numbers of Afghan forces, that key mentoring and partnering 
role will require additional forces.
    Chairman Levin. I'd like to ask you about the border issue. 
It's obviously a huge problem and we keep saying to Pakistan: 
We need you to control your border. Down in the Baluchistan 
area, what that's going to mean is basically taking on the 
forces there that so far they've been unwilling to take on, 
including the Taliban leaders that are there, that openly--or 
if not openly, at least have meetings in Quetta and support 
forces going across that border into Afghanistan.
    What I have argued is that the strongest security force in 
Afghanistan is their army and it is a weak force that is now 
along the border, where they rely on the border police to do 
the patrolling and the controlling, and yet there has been a 
history of corruption there and weakness.
    Could you comment on my suggestion that the strongest 
Afghan security force should at least in part be moved to that 
border to provide a deterrent for those cross-border incursions 
and that we should not rely as heavily on Pakistan to stop 
those incursions from occurring?
    Why don't we go right to left. Dr. Strmecki?
    Dr. Strmecki. I think keeping some kind of screens, whether 
it's our forces together with ANA forces or ANA forces alone, 
is important. However, it has to be complemented by the 
population security campaign. It needs to be in balance. But 
the screen would be helpful, and certainly the ANA forces are 
the most effective ones on the Afghan side.
    I think the real pay dirt in terms of Pakistan is conduct 
and getting Pakistan on side in this effort is going to be 
diplomatic. If Ambassador Holbrooke can get to the root of why 
Pakistan is conducting itself the way it is, then we can work 
the issues. Is it fear of India getting too much influence in 
Afghanistan? Is it fear that we're going to leave and there 
will be a proxy competition afterward, and so forth. There are 
other motivations that may be behind the Pakistani conduct. If 
we can get to those and find ways to address them that do not 
compromise our interests in Afghanistan, but allay fears or 
take interests into account on the Pakistani side, I think you 
could see a flip in the Pakistani policy.
    Chairman Levin. Thank you.
    Ambassador Dobbins?
    Ambassador Dobbins. I'll defer to General Barno on the 
feasibility of controlling that long, difficult border. I'm 
skeptical that it would be the optimal use of available and 
limited forces.
    I do agree with Marin that part of the solution is 
diplomatic. We're in this odd situation and the Afghans are in 
this odd situation of insisting that Pakistan control a border 
that Afghanistan doesn't recognize. The border between 
Afghanistan and Pakistan is contested and it's contested 
because the Afghans don't recognize it and, frankly, many of 
them harbor aspirations to taking over large parts of Pakistan, 
the parts that are currently inhabited by Pashtuns.
    I think at some stage we might want to try to reconstitute 
the kind of meeting we had in Bonn in 2001 which set up the 
Karzai Government, this one to try to negotiate a pact among 
Afghanistan, its neighbors, and near neighbors, the components 
of which might include all of the parties declaring Afghanistan 
to be permanently neutral, Afghanistan agreeing not to permit 
its territory to be used against the interests of other 
neighbors, its neighbors agreeing not to allow their territory 
to be used against Afghanistan, Afghanistan and Pakistan 
finally recognizing their common border, all of the parties 
guaranteeing that border, and the United States and its NATO 
allies agreeing that they will eventually withdraw once all of 
these other provisions have been fulfilled.
    So I do think this is not something you can do overnight, 
but I think that kind of objective for Holbrooke's diplomacy 
would be worth considering.
    Chairman Levin. Very quickly, General, because my time is 
up.
    General Barno. I would be very cautious about moving forces 
to the border. It's a 1,500 mile border, the distance from 
Washington, DC, to Denver, CO.
    Chairman Levin. I'm talking Baluchistan mainly here.
    General Barno. Even on the Baluchistan side, Mr. Chairman, 
I think that the ability to actually try and shut down border 
crossings because of the size and the complexity and the 
terrain there and the history of that being a very porous area 
is going to be very tough. I think there's more that can be 
done, but I would be against moving military forces there to do 
that. I don't think that would be productive.
    Chairman Levin. Thank you.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    I thank the witnesses. General McKiernan has said that 
17,000 additional forces are at best two-thirds of what his 
requirement would be. Would you agree, pending, obviously, the 
development and implementation of an overall strategy? General?
    General Barno. I think he best knows what his requirement 
is, Senator. So clearly he understands what he's trying to 
achieve with those forces, which is the ultimate question, what 
are the forces going there to implement on the ground and is 
that the right number to implement the strategy which we all 
now think is the correct strategy. So we have a couple 
questions we have to know the answer to before we can say this 
is the right resources to apply.
    Senator McCain. But very likely it's not sufficient?
    General Barno. I think from my own brief visit out here 
recently, I think that, depending on how the strategy lies out, 
that the total security force requirement could be 
substantially more than that, and that'll include lots of 
Afghan forces as well.
    Senator McCain. Ambassador Dobbins?
    Ambassador Dobbins. I agree with that.
    Senator McCain. Dr. Strmecki?
    Dr. Strmecki. I agree as well.
    Senator McCain. Are we in danger in our exhaustion and 
frustration and weariness of developing a counterterrorism 
strategy in Afghanistan, as opposed to a counterinsurgency 
strategy, General?
    General Barno. I've always viewed the counterterrorism 
component, which I should shorthand as calling strike 
operations, as a subset of a broader counterinsurgency 
strategy.
    Senator McCain. They alone didn't work in Iraq.
    General Barno. No, they can't work by themselves. It's 
simply a way of buying time. In some ways, as I watched while I 
was out there, some of those strikes obviously counter our 
strategic objectives. They may be tactical successes by killing 
the individuals we're looking for, but when they kill civilians 
the strategic impact is----
    Senator McCain. It alienates both Afghan and Pakistani 
populations?
    General Barno. I think clearly in Afghanistan we have 
options to operate with our ground forces in ways that we don't 
across the border. So our choices are much more limited inside 
of Pakistan, which requires us to work closely with the 
Pakistanis. In Afghanistan we have a series of different things 
we can do than simply conduct strikes from the air, which we're 
doing some of there as well.
    Ambassador Dobbins. I generally agree. I've stressed that 
the objective, our objective there, has to be not defeating the 
Taliban or even killing terrorists; it's reducing the number of 
civilian casualties. If we do that we're winning, and if we're 
winning then many things will become possible that are not 
possible when you're losing, which is what we're doing at the 
moment.
    Dr. Strmecki. I'm very concerned in terms of what we see in 
Special Operations Forces raids and air strikes that are not 
linked to a population security campaign. I think they are 
alienating----
    Senator McCain. That partially can be addressed by 
integration of command.
    Dr. Strmecki. That's right, that's right. But on the Afghan 
side they're seeing civilian casualties from these things, but 
no returns in terms of increasing security. So I think that is 
why you're seeing trends in the Afghan population that they're 
losing confidence in us to be able to deliver the result of 
security.
    Senator McCain. General, I assume you agree that in 2003 
and 2005 we were going in the right direction, since you were 
there.
    General Barno. That's a loaded question, I think, Senator.
    Senator McCain. Without personalizing it, what happened? 
What caused what was really a promising situation to 
deteriorate to a now almost universal opinion that we are not 
winning, therefore we are losing?
    General Barno. One of the things we've done in Afghanistan, 
and it still is in play today, is a continuous rotation of 
people. Ambassador Khalilzad and I got there within a few weeks 
of each other in the fall of 2003 and because of basically our 
personnel system we rotated out within a few weeks of each 
other 19 months later. Since 2001 in Afghanistan we've had six 
different U.S. military commanders, seven different NATO ISAF 
commanders, six different chiefs of our embassy, and four 
different U.N. senior representatives, all in the space of less 
than 8\1/2\ years.
    That's probably not a recipe for sustaining a good program 
and I think that was a big contributor.
    Ambassador Dobbins. I think that what Ambassador Khalilzad 
and General Barno did was abandon the counterterrorism 
strategy, move to a more sophisticated counterinsurgency model, 
began to provide more resources, both military and civilian. 
However, that was not enough to turn around the situation. The 
situation continued to deteriorate through that period. So they 
were doing the right things, but they were doing it with 
inadequate resources.
    Dr. Strmecki. I'd differ a little bit about the end of the 
period. If you look at late 2004, early 2005, the security 
incidents in Afghanistan were almost negligible. The most 
important thing that I believe happened is that there was an 
escalation by the enemy starting in mid, late 2005, and then 
dramatically so in early 2006.
    I think that the response was no counter-escalation. We 
essentially went along the glide path that we'd been on, rather 
than understanding that the enemy has voted and now we have to 
respond with a counter-escalation.
    At the same time, there was a drift in President Karzai's 
leadership. The Afghan people had great hope after his election 
in October 2004 and they were expecting that they'd see a kind 
of a housecleaning of bad governance. But instead there was 
drift and maybe marginal improvements here, marginal 
improvements there, but not the transformation they were 
expecting.
    Senator McCain. Certainly an increase in corruption.
    Dr. Strmecki. That's right. They were calculating: We'll 
run risks for our government, but only if there's a return, 
that we see improvement. Gradually, in parts of the country 
that had poor governance you see people becoming indifferent as 
between the enemy and the government.
    Senator McCain. Should the Karzai Government talk to the 
Taliban? General?
    General Barno. The Karzai Government, even during my time 
there, was always in low-level dialogue with various Taliban 
leaders. The advantage that the government and the coalition 
had then was that we were winning, we were perceived as 
winning, and there didn't appear to be any future in being in 
the Taliban. We have the reverse situation today, which makes 
it, I think, much more difficult, much more problematic to even 
enter into any talks.
    They think they're winning, the enemy, and therefore they 
have no incentives to have any discussions at all.
    Ambassador Dobbins. The Karzai Government is talking to the 
Taliban in negotiations that are talks that are being sponsored 
by Saudi Arabia. Karzai's brother, among others, is 
participating in these talks.
    It's not clear how serious these are on either side. I 
think it's quite possible that Karzai thinks it's simply good 
presidential politics to show that he's willing to negotiate, 
that he's a man of peace, and that it's the other side that's 
unwilling to make concessions. At some point this might become 
productive.
    Senator McCain. Dictated by the realities on the 
battlefield?
    Ambassador Dobbins. Partially, and as you had in Anbar 
Province, at some point it's not impossible that the Taliban 
will decide that they no longer want to ally themselves with al 
Qaeda, that they're prepared to cut those ties. Some have said 
that they're ready now. I've heard people who are much more 
expert than I am say that the Taliban are willing to offer that 
deal.
    I think that would have to be tested. But if the point 
comes where the Taliban is actually willing to do what the 
insurgents in Anbar Province were willing to do, which is turn 
against the Arab extremists in their society, then I think you 
would need to reevaluate the utility of those talks.
    Dr. Strmecki. The Karzai Government since 2004 has had a 
program and it's called Peace Through Strength, that allows 
Taliban commanders and fighters to come in out of the cold, and 
a good number of middle- and low-level commanders and fighters 
have done so.
    I think of the nature of the enemy as a hard core in terms 
of the two shuras, the Peshawar Shura and the Quetta Shura, and 
then soft layers surrounding them, which might be disaffected 
communities that have seen bad governance or a minority tribe 
in an area that makes a tactical alliance with the Taliban or 
people who are terrorists for a day because of a desire for 
economic compensation. If you do COIN right, counterinsurgency 
campaign right, you will see the soft layers fall away, until a 
point that you're just up against the hard core, and that's the 
point where you'll see whether the hard core is going to 
fragment and some part of them will be willing to come in out 
of the cold.
    Senator McCain. I thank the witnesses.
    Senator Udall.
    Senator Udall. Thank you, Senator McCain.
    Let me also add my voice to those here today in the 
committee who appreciate the good work you've all done. The 
documents you've produced are worthy of further digestion. I 
look forward to reading them in great detail.
    I followed Senator McCain's line of questioning and your 
answers with great interest when it comes to the Taliban and do 
they have political aims, how do you negotiate with them, how 
do you peel away the various factions. It's certainly worth 
additional effort and attention.
    General Barno, If I might, I'd like to turn to the question 
that you did discuss in your remarks. It's this question of 
caveats and working in the NATO structure. I heard quite a 
great deal about it a year ago when I was in Afghanistan. I 
wonder if you might comment on ideas you would have to work 
effectively within that structure. The panel has talked a great 
deal, as did the chairman and the ranking member, about this is 
a test for NATO, this may have historical ramifications if, in 
fact, NATO is successful; on the other hand, if we fall short 
then what does that say about NATO's future?
    General Barno. Thank you, Senator. I think caveats remain a 
problem in Afghanistan and will remain a problem as long as 
NATO is in Afghanistan. The likelihood of nations dropping 
their caveats in Afghanistan, regardless of how much pressure, 
how much persuasion the United States does with them, I think 
is next to zero. I don't think they will grow necessarily, but 
I also am keenly aware from my visit out there to the south--
and I visited the Brits, the Canadians, as well as American 
forces, the Dutch commander at RC-South--it's very clear that 
the caveats are linked to the political support at home for 
these nations, and the political support at home is not moving 
in a more robust direction. It's definitely fraying at the 
edges, and in many of the countries, particularly those in the 
northern part of Afghanistan--the Germans, the Italians, the 
Spanish--the political will at home in my estimation was only 
for a peacekeeping operation in the first place. So the idea 
that somehow those nations would remove their caveats, come to 
the south, and take up weapons and a counterinsurgency fight, I 
think, is highly unlikely.
    So to what the chairman noted this morning, I think our 
line of approach with NATO realistically is going to take us 
down the road to ask them what we think they can and will 
provide. That's driven as much by political support as it's 
driven by military capability.
    Senator Udall. So in effect you're talking about, as we 
often do, three centers of gravity, the Afghan people being the 
primary center of gravity, the various military leadership 
representatives in the country, the sense the military has that 
the fight is worthwhile, and then the people of those various 
countries and they're an additional center of gravity, and our 
diplomacy and our outreach from the administration could play 
an important role in at least stiffening that support in places 
like Germany and the Netherlands and the U.K. Is that what I 
hear you saying?
    General Barno. I think that's a fair assessment. I was at 
the Munich security conference here about 3 weeks ago and it 
was very clear, listening to the various nations talk about 
Afghanistan--and most of the participants were in the political 
elements of the nations' legislatures and what-not--that they 
are absolutely on a daily basis having to convince their 
populations that this mission is still worthwhile. They need 
our support and our clear reasoning behind that to help them 
with that, with that argument.
    That said, though, I'm hopeful, but I'm not optimistic, 
that we're going to see any substantial change in the support 
levels from those countries. I am a bit concerned about those 
that are in the south because they've been taking the brunt of 
the casualties of all the countries save the United States here 
over the last 3 years. There's not a lot of relief in sight for 
them right now.
    Senator Udall. Thank you, General.
    Dr. Strmecki, you talk in your analysis about an area I 
think it is very important to further understand, and that's 
the Pakistani Government and the Pakistani people's motivation 
and approach to the conflict in Afghanistan. I want to first 
just commend you for the five insights you've provided us, and 
I wonder if you would talk a little bit more in depth about 
working with the Pakistani Government. Sometimes in this region 
of the world what's up is actually down, what seems logical and 
rational to us is exactly the opposite impression that people 
in that part of the world have.
    But would you talk a bit more about some creative and 
insightful ways we could work with the Pakistani Government to 
have success in Afghanistan as well as the FATA and the border 
regions?
    Dr. Strmecki. The key is to look at their motivations 
behind their conduct if one is assuming they're not doing 
everything that they can. Afghanistan historically has been an 
area where regional powers have contested for influence. When 
Afghanistan has been neutral among the governments around it 
and able to defend itself, then there's been relative stability 
in the region. But in the last 20 years when that broke down, 
you had a series of proxy civil wars, where you had a client 
inside Afghanistan supported by a regional power on the 
outside. When one was in, the others mobilized a client against 
it, and so forth.
    The Bonn process brought that to a stop for a time. But 
what you've seen is Pakistan essentially defecting from the 
Bonn process and allowing its territory to be used as a 
sanctuary for the kind of forces that are attacking the Afghan 
Government and our forces. If you ask why they're doing that, 
I'd offer five potential reasons.
    The first is that Pakistan, rightly or wrongly, fears that 
rivals, particularly India, are gaining influence in 
Afghanistan. So when you talk with Pakistani officials, they 
talk about Karzai's links to India, they talk about Northern 
Alliance officials who have been their opponents when they were 
supporting the Taliban. They will talk about Indian activities 
in the east, out of consulates and out of road-building 
companies. So there is either a paranoia or a belief that 
they're seeing something and they're reacting.
    The second belief is that they don't believe that NATO and 
the United States have the staying power and therefore it is in 
their interest to be ready for the proxy competition that would 
follow.
    A third reason----
    Senator Udall. Dr. Strmecki, if I could interrupt you, and 
I apologize. I understand my time has expired. I did want to 
thank again the panel for your great insights and important 
insights, and I'll yield back the time I don't have remaining 
to the chairman. Thank you again.
    Chairman Levin. Thank you, Senator Udall. Like all the 
other questions which we might have to interrupt for various 
purposes, it would be good if you could complete your answer 
for the record. I know Senator Udall also would appreciate 
that.
    We will make that answer of yours, the complete answer, in 
the record at the time that you were making the answer, so 
we'll have it in the right place. Thank you.
    [The information referred to follows:]

    A third reason is the fear that a successful Afghanistan will exert 
a dangerous political appeal to ethnic Pushtuns who live in Pakistan--a 
revival of the Pushtunistan Issue that troubled Afghanistan-Pakistan 
relations in the 1950s, 1960s, and 1970s.
    A fourth reason is the strategic aspiration of many in Pakistan to 
project Pakistani influence into Central Asia.
    A fifth reason is that instability in the region leads the United 
States to remain engaged with Pakistan--and to provide Pakistan with 
military and economic benefits.
    The key is whether we can use creative diplomacy to deal with these 
potential motivations. This would entail allaying concerns about Indian 
influence, convincing Pakistani leaders of the firmness of our 
commitment to success, mediating differences between Afghanistan and 
Pakistan, helping build economic connections across Afghanistan that 
connect Pakistan to Central Asia, and developing a vision and program 
for a future U.S.-Pakistani relationship based on positive goals, not 
just security threats.

    Chairman Levin. Senator Ben Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    Each of you has suggested that there are conditions, there 
are points that we ought to insist on in terms of our 
capabilities, and to determine whether or not there's the 
support that we need both internally and externally to continue 
the challenge in Afghanistan.
    When we were faced in Iraq with the questions about how are 
we doing in Iraq, there were people looking at the same set of 
facts, one group saying we're winning, another group saying 
we're losing. It seemed to me and I pushed for benchmarks as a 
way of getting some metric to measure progress, to move away 
from talking about whether we're winning or losing, to look 
more toward whether we're making progress in certain areas.
    Do you think it would be appropriate for us to codify, 
without law, strategy with conditions or benchmarks and then at 
various points along the way measure how we are doing in 
achieving those benchmarks, how the Afghan Government is 
achieving the benchmarks, so that the American people can look 
at the mosaic and begin to understand what the picture is, 
because I think for most folks today, including those of us in 
Congress, it's a muddle. We know we're not doing very well. 
It's going sideways, it's not achieving the objectives that we 
had hoped to achieve. But I don't think people know what the 
objectives are ultimately, other than to beat the Taliban.
    So I guess each of you I would ask that question: Do you 
think that we can or that we should and can we establish 
benchmarks, conditions, or something where we can measure 
progress? Let's start with you, General.
    General Barno. I think there's some merit in that, Senator. 
I think it proved to be fairly useful in Iraq, as you noted, 
much to everyone's surprise. In fact the benchmarks, I think, 
if I remember correctly, all but one are now----
    Senator Ben Nelson. We were opposed when we tried to come 
up with the idea as it wouldn't work. But I think it did work.
    General Barno. I think, and that alone gives it some merit 
for consideration in Afghanistan. But lack of information about 
a lot of the overall effort in Afghanistan is rather striking 
in comparison to Iraq. Tony Cordesman at the Center for 
Strategic and International Studies has noted how little 
information statistically is available in any dimension of 
this. So there may be some utility in that idea. I don't think 
that's a bad thought.
    Senator Ben Nelson. Ambassador Dobbins?
    Ambassador Dobbins. I'm a little skeptical. I have to say 
that I tended to regard our effort to benchmark the Iraqis back 
in 2007 more as an effort to transfer responsibility for 
failure from us to them. Now, they did finally meet the 
benchmarks, but they met the benchmarks only after we 
established security conditions which allowed them to move from 
a survival mode to a more normal political wheeling and dealing 
mode.
    Senator Ben Nelson. I think we would hope that that would 
be the case here as well, where our security and their security 
works to help them from the top down and the bottom up to 
match, so that they will be secure and they will think the 
future is brighter for them.
    Ambassador Dobbins. I'm not completely hostile to the idea, 
but I do think that the key benchmark is the one I've 
suggested, which is how many Afghans are getting killed. If the 
number's going up, you're losing. If the number's going down, 
you're winning. It's as simple as that.
    For the first 3 years in Iraq, our military refused to 
count civilian casualties. They were under orders not to count 
civilian casualties. Whenever they were asked how many 
civilians were getting killed, they said they didn't know and 
they were telling the truth because they weren't counting them.
    When General Petraeus came back and testified to Congress, 
his only criteria for success that he presented was that less 
Iraqis were getting killed this year than last year, and he was 
right. That was the right metric. So I think it's fine to keep 
track of what they're doing in other sectors as a way of 
benchmarking our own progress, but that's the metric that I 
would put front and center.
    Senator Ben Nelson. Dr. Strmecki.
    Dr. Strmecki. I think a set of benchmarks would be very 
productive as long as they are benchmarks about partnership 
with the Afghan Government. I think that's where you're coming 
from. A properly structured counterinsurgency campaign would 
give forth very obvious benchmarks: ambient security in 
district after district after district. The information for 
that exists because there are sufficient forces to know what 
the situation is province by province, district by district.
    There can be an assessment of the quality of the local 
governance. When you go to PRTs, they know whether this 
district administrator is good, this one's bad. The U.N. knows 
that. There's a lot of ways we could pool information and then 
constructively say, here, this province is the one we have to 
work on because the governance is lacking. Then also some basic 
measures of economic activity could be undertaken.
    One of the great things about the Bonn process is that it 
had milestones, constitutions, loya jirgas, and so forth, and 
it was an organizing principle and kind of a forced march for 
Afghan, U.N., the U.S. efforts. So I think that properly 
designed benchmarks can create common and shared expectations 
for a productive partnership with the Afghans.
    Senator Ben Nelson. Thank you.
    I'll yield back my time. Thank you, gentlemen.
    Chairman Levin. Senator Bayh.
    Senator Bayh. Thank you, Mr. Chairman.
    Gentlemen, thank you for your time today. It's a very 
important hearing and you've been very enlightening in your 
comments.
    I'd like to start with a couple of comments based upon some 
of the things you've said. Mr. Barno, I think you indicated 
that the Taliban largely come and go unimpeded by the Pakistani 
border police. This is an amazing state of affairs. Based upon 
published reports, when some U.S. forces strayed across the 
line in pursuit of militants they were fired on by the 
Pakistani authorities. So we have a situation where our allies 
are not impeding our adversaries, but firing on us. How can 
this be?
    Second, we pay them billions of dollars every year in a 
variety of forms of assistance and as best I can tell we get in 
return, once again according to published reports, the ability 
to perhaps launch a few Predator strikes in the tribal areas 
and to have supplies go through their territory to help with 
the situation in Afghanistan, a conflict which through their 
behavior they help to perpetuate. That seems to be a relatively 
low return on our investment and it's a problematic 
relationship. I think we need to have a very hard-headed 
reassessment of our relationship with Pakistan. It's a complex 
one, I understand, but one we need to focus on. So that's just 
some frustration I feel, given their behavior that has been 
less than helpful in some pretty important respects.
    Now my questions. Dr. Strmecki, to you first. I think 
you've put your finger right on it with regard to Pakistan. 
Until their government--and I'll just append that by saying the 
military and their intelligence services--make a strategic 
decision that a more robust effort to combat militancy and the 
insurgency based in their territories is in their interest, in 
their strategic interest, it's unlikely to get much better. 
They'll do some things on the margins to placate us, but they 
won't really do all that they can do or as effectively as they 
should do until they change their calculus about that effort 
being in their regard. I think that's primarily their standing 
with the Pakistani people.
    What can we do to convince them that it's in their 
strategic interest to do that?
    Dr. Strmecki. I think there are some things that they fear 
and some things that they could benefit from. I've talked about 
their fear of regional rivals getting a foothold in Afghanistan 
and that could be dealt with by what Ambassador Dobbins spoke 
about in terms of----
    Senator Bayh. You mean the Indians?
    Dr. Strmecki. That's right.
    Some red lines that are monitored, and that there's a forum 
in which to discuss and clarify whether bad behavior is taking 
place by any party.
    But one should also be looking to find win-win kinds of 
situations. The Pakistanis would like to project influence, 
economic and political, into Central Asia. We could help 
jointly plan and finance the infrastructure to create the 
roads, rails, telecommunications, other kinds of infrastructure 
that connect Central Asia to Pakistan and world ports through 
Afghanistan, to privilege that route.
    Senator Bayh. So we help allay their fears vis-a-vis 
encirclement by India and help foster or abide their ambitions 
in Central Asia?
    Dr. Strmecki. That's right, in the sense of giving a 
peaceful way to achieve them.
    Senator Bayh. That, in your view, would be enough? Part of 
their fear of India doesn't seem to be--there's a long history 
there, but it tends to be somewhat irrational from time to 
time.
    Dr. Strmecki. It will be a mediation and it won't be one 
moment in time when they'll flip. You'll have to work through 
the problems, look at every issue that they raise, and they 
have a laundry list, and either allay them by proving that 
they're not true or, if there are issues, then work it back 
with the Afghan side.
    Senator Bayh. It's worth a shot. It may take some time, as 
you say, but better than the current state of affairs. Thank 
you.
    General, a couple questions for you. The time line once 
again you laid out for the transition phase, was that 2015 to 
2025 or 2020 to 2025?
    General Barno. The time line would have started for 
transition in my phase here from 2015 to 2025. Some of that 
actually begins----
    Senator Bayh. Transitioning over, starting in 6 years, 
going possibly as long as 16 years.
    General Barno. That would be for primarily the south. In 
the north the transition could start next year.
    Senator Bayh. This is a long time, 6 to 16 years. A lot of 
blood and treasure. We have other national security challenges. 
Is there anything we can do to expedite that process? The key 
is upgrading the capabilities of the Afghanis to control their 
own territory. We consistently overestimated our ability to do 
that in Iraq. What can we do to expedite that process 
realistically in Afghanistan?
    General Barno. I spent a half day with our embedded 
training teams that work with the Afghan army in Kandahar and I 
have since met with their commander, who is back in the States, 
and they all tell me that they can accelerate--in their view, 
that the ANA could be built up much more rapidly, but the long 
pole in the tent, the thing that will prevent that from 
happening, is not enough Afghan troops, it's lack of equipment 
to give these troops machine guns, vehicles, various radio 
systems--the basics that ultimately will come from the United 
States in most cases. That's preventing them in their view from 
being able to grow the force at the rate they think that the 
Afghans are capable of growing it.
    Senator Bayh. So that's the major stumbling block, a lack 
of----
    General Barno. In the view of the people out there on the 
ground. It's a problem with them today even with their current 
forces.
    Senator Bayh. We certainly ought to be able to provide that 
in something less than 6 to 16 years.
    General Barno. We should, but our system in that arena is 
still very much of a constipated peacetime system. It was a 
problem when I was in Afghanistan in 2003 to 2005 and it's not 
a problem that's gotten any better since then, candidly.
    Senator Bayh. Mr. Chairman, that is certainly something we 
ought to be in a position to expedite. If that truly is holding 
up the transition phase, which ultimately is the answer to 
this--well, we need to do better than that.
    My final question, I think, General--Ambassador, I hope you 
won't feel neglected--has to do with you once again. Or, 
Ambassador, feel free to jump in if you would like. The 
Pakistanis seem to have a different view of these published 
reports about the Predator strikes. They seem to think that 
it's having the effect of destabilizing the rest of Pakistan. 
Published reports indicate that our intelligence people feel 
that it's having a very salutary effect in terms of keeping al 
Qaeda destabilized, on the run, removing key operatives, et 
cetera, et cetera.
    How do we reconcile those two different opinions of these 
published reports about those kinds of activities?
    General Barno. It's a difficult question, especially in an 
open forum. I've been to Pakistan about two dozen times and I 
see Pakistanis every week here in Washington typically. Their 
overriding concern that I think animates all of their 
decisionmaking is two: fear of India, as Marin noted; and fear 
of the day the United States leaves. They're expecting that to 
occur, and that creates a calculus inside their government that 
takes them in places we don't want them to go.
    With regard to these strikes, I think they are having an 
effect on the enemy and I think they are the only serious 
pressure that the enemy is worried about every single day in 
that part of the world. So I think that that is the reason why 
the United States, to include the new administration, has 
continued our approach over there in this regard, as best we 
can tell from reading the newspaper.
    The Pakistanis have a different view in the sense that some 
of that has to be driven by their internal politics of how they 
react to this inside their own country, how that plays in their 
own press. I think we have to take that into account.
    Senator Bayh. My time has expired. But it gets back to my 
initial question to the doctor, which is how do we convince 
them that it's in their strategic interests to step up and do a 
better job of dealing with this. That won't be easy and it 
involves dealing with the India issue, but it's something we 
have to get on with here if it's going to be good for Pakistan, 
Afghanistan, India, and the entire region, and ultimately 
obviously for us.
    Thank you, chairman.
    Chairman Levin. Thank you, Senator Bayh.
    In terms of the long pole in the tent issue being radios 
and trucks, this is something we have not heard before. We've 
been told consistently it's lack of trainers; plenty of 
recruits to speed up the size of the army. In any event, what 
we will do, Senator Bayh, is we will ask General Petraeus if 
that is, in fact, the long pole. That is something we can 
correct, should be able to correct, very, very quickly.
    As my staff pointed out, that would be good news if that's 
the long pole in the tent. But thank you for that testimony. We 
will take up that line of inquiry.
    I owe not only Senator Sessions an apology because he 
should have been next, but will make up for that. If another 
Republican comes before you, Senator Hagan, we're going to have 
to go twice to my left.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman, and thank you 
for a very good panel and the leadership you provide to this 
committee.
    I want to share the concerns I think expressed by Senator 
Bayh. With regard to Pakistan, perhaps I'm in error, but I've 
been somewhat more understanding of their difficulties than 
some have been who've been quick to criticize them. Is it not 
true--maybe, Ambassador, I'll ask you briefly--that a lot of 
these areas, tribal areas, have never been controlled by the 
central government? Some of them contain terrorist type violent 
people who, if energized, could indeed threaten the stability 
of the Pakistan Government if they undertake an aggressive 
action. Can we be somewhat understanding of their reluctance to 
undertake some of these activities that we'd like them to 
undertake?
    Ambassador Dobbins. The Federally Administered Tribal Areas 
are a historic artifact of the British Empire. They have never 
been governed. They, in fact, formally don't come under 
Pakistani law. They come under tribal regulations that were 
imposed by the British and remain in effect today. They're not, 
for instance, allowed to participate fully in the Pakistani 
elections or democratic process. In general, these border areas 
are the worst served in Pakistan. They not only have the worst 
security, they have the worst schools, the worst electricity, 
the worst roads, the worst clinics.
    A counterinsurgency or nation-building effort, whatever you 
want to call it, in these regions will consist not just of 
projecting security into those regions, but projecting all 
those other services into them. Pakistan isn't going to take 
money from the Punjab and put it into those regions after 100 
years of neglect. So it's going to take a fairly substantial 
international effort to empower the Pakistanis and encourage 
them to begin to integrate those areas in their national 
society, and that's not going to be easy.
    Now, I do think that Senator Lugar, Senator Biden, and now 
Senator Kerry and Senator Lugar have introduced an approach to 
assistance to Pakistan that's designed to incentivize them and 
provide them long-term resources for that kind of effort, and I 
think that's probably the right way to go.
    Senator Sessions. Seeking areas of mutual interest, as 
Senator Bayh said, seems to me to be the way we need to work 
it. But it's difficult to ask a sovereign nation to do 
something in our interest if they don't think it's in their 
interest. It's just a difficult situation.
    I also am concerned, General Barno, when we're talking 
about 2025. This is a major decision for Congress. I'm sure 
that most of us have known we're coming to a point where we're 
going to have to make such a decision as this, but I want to be 
convinced. I'm prepared to be supportive of this effort, but 
I'm uneasy about it. I'm uneasy about sending another 17,000 
troops there. The Ambassador says that's going to be more. Will 
it be 100,000 18 months from now committed in Afghanistan?
    I just see Ralph Peters--I didn't agree with everything in 
his article, but he leads off 2 days ago in USA Today: 
``Instead of concentrating on the critical mission of keeping 
Islamist terrorists on the defensive, we've mired ourselves by 
attempting to modernize a society that doesn't want to be and 
cannot be transformed.'' I won't say it cannot be transformed, 
but it's not easy to transform this society. We know that.
    We know that Kabul has never controlled in any really 
effective way the entire area of Afghanistan. So let's just 
talk about some of these things.
    Ambassador, you mentioned that there was some potential in 
some areas, you thought, to accommodate with the Taliban. I'll 
ask all of you. Dr. Strmecki, you said it would be a mistake to 
revise downward our goals. But in this hearing a few weeks ago 
when Secretary Gates was here, I asked him. He was emphatic: 
Our first goal is to protect the United States from further 
attacks, to not allow a base to be set up there. It was pretty 
clear to me that he's asking some tough questions about how 
many more goals can we have for this country.
    So I guess I would like to ask--General Barno, it seems to 
me--Senator Levin and I were in Iraq before the surge and I 
guess twice. A lot of progress got made quickly in Iraq in Al 
Anbar before the surge really took place, as a result of 
working with local people disconnected to Baghdad. So are we as 
a matter of policy in Afghanistan so committed to a central 
government ideal that we're not prepared to work with regional 
and city and community militias or people who could maintain 
order in that area, but not be under the direct control of the 
central government? Could that help us reduce our military 
commitment?
    There was a lot to that, wasn't it.
    General Barno. Let me first qualify my remarks a bit on 
these dates and these times. The transition phase actually is 
going to begin in the north and the west of the country, the 
transition to Afghan full control, next year in 2010. In the 
northern half of the country, there's many areas where we could 
be moving in that direction today. So this is not something 
that's way over the horizon here.
    I think in the southern half of the country this year is 
going to be a whole year and next year is going to be a regain-
the-initiative year. Then by 2011, 2012 timeframe you're going 
to have areas there where you can start this transition. So 
we're not--even though I have a 2025 marker way out there, 
there's a lot of this that's going to happen in the next 3 to 5 
years.
    We actually clearly have to turn the direction in the 
southern half of the country in the next 2 to 3 years. So I 
think most of what I'm talking about is going to occur, 
Senator, inside of a 5-year timeframe. Then there's a 
continuous handoff of capabilities to the Afghans. So it 
shouldn't be viewed that we have large chunks of time and we 
don't have any transition until 2015.
    Senator Sessions. Talking about our goals, is it to have 
every one of these areas under the direct control of Kabul and 
we expect them all to salute and send taxes and send 
representatives up there like we do?
    General Barno. They have a decentralized system and they've 
had that for generations. What we have today is both local 
control, we have provincial councils, we have representatives 
from the province and districts back in the parliament in 
Kabul, and we have a relationship between the center and the 
states that's still fairly decentralized.
    Now, American units work out there at the local level every 
day, but they work with officials that have----
    Senator Sessions. Let me just interrupt you. You know what 
happened in al Anbar. You're not ignorant about that. We worked 
with local people. We funded the local people. They ran al 
Qaeda out. We funded them and I guess Baghdad didn't know 
anything about it. Some of them weren't happy. But it worked.
    That's what turned it around, was it not?
    General Barno. That was the start of some major turn-around 
in Iraq, I think there's no question.
    Senator Sessions. Yes, it was.
    Ambassador, would you share this idea of whether we ratchet 
what our goals should be? Don't we need to be real clear about 
what our goals should be?
    Ambassador Dobbins. I tend to think we should focus less on 
end states and focus more on direction and pace. We're still in 
Kosovo today. You probably haven't had a hearing on that for 7 
years, because the numbers, our numbers, are going down, the 
place is peaceful, it's off the front pages, things are getting 
better. They may not be getting better as quickly as we like, 
but they're getting better.
    We stayed 10 years in Bosnia. After the first 2 or 3 years, 
numbers came down quickly; people were satisfied.
    If we can turn the situation around in Afghanistan as we 
did in Iraq, then how quickly we get out, how long our 
commitment is for, is going to become much less pressing.
    I think you're right and everybody's right to note that you 
have to be modest about what kind of societal changes you can 
facilitate in Afghanistan. I think you're also right that we 
need a bottom-up strategy to complement the top-down strategy. 
They're not necessarily in conflict, but you need to be doing 
both simultaneously, as we've done in Iraq and as I think we're 
going to try to start doing in Afghanistan.
    Senator Sessions. Doctor, just a brief comment?
    Dr. Strmecki. I think there are some promising ways to work 
at the local level, and even the Afghan Government is seeking 
to do that. There's a new program, the Afghan Public Protection 
Force, that's seeking to recruit people from the village to 
protect the village. So I think that is a positive thing.
    But there's no reason it can't be linked with the 
government, which has the support of the people overall. They 
want it to perform better, but they want this government to 
succeed. So I'd just hit that one point, and I'd say if you 
want to prevent a safe haven for terrorists in the long term so 
that we don't have to be there, we have to have some kind of 
Afghan state that helps police that.
    Chairman Levin. Thank you, Senator Sessions.
    Senator Hagan.
    Senator Hagan. Thank you, Mr. Chairman, and thank all the 
witnesses here for your excellent testimony.
    In Afghanistan, I think most of us know that it's probably 
the largest world producer of opium. I know that the drug trade 
I would think is being used to fund the Taliban and al Qaeda. I 
was wondering if you believe that you can stabilize Afghanistan 
without bringing this production of opium under control, and 
what can we do to address that issue? If all of you could speak 
on that. General, you want to go first?
    General Barno. I was down in Helmand Province during my 
visit here in January, clearly the centerpiece of narcotics 
production in Afghanistan. But on a positive side of the 
ledger, the number of provinces in Afghanistan and districts 
that are producing poppy has gone down dramatically. It's more 
found today in the unsecure areas of the country, where the 
Taliban have a strong presence, no doubt related to some of the 
funding advantage the Taliban get from that.
    I was heartened to see that there is a plan to begin doing 
quite a bit more on counternarcotics in southern Afghanistan 
starting this year. The military has some additional 
authorities and has some additional directions working against 
counternarcotics traffickers and those that are connected to 
terrorism and the insurgency that they had not had in the past. 
So it'll be very interesting to watch how that authority gets 
used this year, but I think that's important.
    The Afghan Government's made some fairly good progress 
locally on counternarcotics and it's been done by good 
leadership by governors out there. Particularly Nangarhar 
Province comes to mind, where they had a huge poppy problem 
just a few years ago and last year was declared generally 
poppy-free. So there are some good things going on out there, 
but it's going to take a connection of good leadership by the 
Afghan Government at the province level and I think a much 
stronger system of attack, not on the farmers, but on the 
traffickers and the producers who benefit from the crop.
    Ambassador Dobbins. There's clearly a connection between 
narcotics production and security or insecurity, but it seems 
dominantly to be one in which insecurity creates a framework 
for poppy production, rather than the reverse. As General Barno 
has indicated, in those provinces where security is reasonably 
established, poppy production has largely ceased, and it is now 
focused on the areas that are contested.
    So if you look at the components of a counternarcotics 
strategy, I think there is a general view among experts that 
eradication of crops has very limited utility and some 
counterproductive aspects; aerial eradication probably 
shouldn't be tried; that interdiction should be strengthened, 
interdiction of drug traffickers, and particularly of the 
heroin trade. The actual poppies is a bulk product, but as it's 
refined down and then shipped out that's the point at which 
interrupting the stream will hurt the traffickers, but not the 
farmers. Finally, the ultimate key is alternate development, 
that is giving them actually alternative sources of livelihood 
that reasonably compete with what they can make in poppy 
trafficking.
    Dr. Strmecki. I agree with both of those comments and I 
just add one last point, that in a properly designed 
counterinsurgency plan, where you're securing district after 
district in these contested areas where there's a lot of opium 
production, that's when the ``build'' part of clear, hold, and 
build needs to include a major agricultural component: bringing 
in the inputs, agricultural credit, a little technical 
assistance, and helping product get to market.
    Thank you.
    Senator Hagan. Obviously, I think if you can give the 
farmers something else to grow and actually bring in a little 
bit of money it would help them in the short term and long 
term.
    I had one other question dealing with Pakistan and that is, 
we have talked some about the U.S. aid to Pakistan and I was 
just wondering your comments on whether that should be larger, 
smaller, more weighted towards economic and social development, 
and just what your thoughts are on that issue? Dr. Strmecki, 
you want to start this time?
    Dr. Strmecki. I think that if Pakistan moved into a fully 
cooperative posture vis a vis Afghanistan, we should be 
prepared to put on the table Egypt-level assistance over the 
long term to build Pakistan's educational infrastructure, its 
economy, and to prove that the United States has an interest in 
Pakistan, not because it's going to help us on the war on 
terror, but for Pakistan's own sake. But I think it's important 
that that come only after Pakistan has become fully cooperative 
in our relationship.
    Ambassador Dobbins. I would favor conditioning the military 
assistance and assistance we give that's used to support the 
military to ensure that it's used for the purposes that we 
intend. I do think that we probably should be providing a good 
deal of assistance in the nonmilitary areas, in education and 
in other areas, including in trying to provide better 
government services, better public services to the populations 
along the border regions.
    I don't know that I would necessarily condition that 
assistance on the performance of the Afghan army.
    Senator Hagan. Pakistan.
    General Barno. I do think that sustained robust assistance 
for Pakistan's going to be very important for us to help 
maintain stability in that country, and I think part of looking 
at the internal stability is ensuring the population has an 
advancing economic capacity and an advancing political 
representation in the state to do the internal things that we 
do in many other countries. I think a very limited amount of 
our aid has gone in that direction in the past. There are some 
proposals out there clearly to increase that dramatically. I 
think that would be very helpful in the environment that 
Pakistan finds itself in today.
    Senator Hagan. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Hagan.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    I thank you, gentlemen, for your testimony, but also I've 
benefited from your thoughtful advice over many years 
individually and collectively, and thank you for that very, 
very much.
    A lot has been said today about unity of command and I want 
to just drill down if I could. We have currently in 
Afghanistan, RC-East is an American operation, 101st. RC-South 
is a Dutch operation at the moment. I've heard, in fact I think 
in our discussions, General Barno, an alternate approach might 
be to bring in another division headquarters, American division 
headquarters, and essentially have a unity of command across 
the Pakistan border, with an American division headquarters, 
multinational units, but at the division level.
    Another aspect of this is that our division headquarters 
are much more robust in terms of the staff, in terms of access 
to intelligence assets, access to civil-military relations. I 
think that's the case. If not, please correct me.
    But can you comment upon that, changes that we might make 
on the ground to enhance unity of command and coherence of our 
strategy?
    General Barno. We talked a bit on this before, as you 
noted, Senator. The American division headquarters is a very, 
very capable organization and the 101st Airborne in Bagram----
    Senator Reed. Soon to be replaced by the 82nd.
    General Barno.--soon to be replaced by the mighty 82nd 
Airborne, that's right. Thank you very much, absolutely. I have 
served in that division before, as have you.
    The divisional level in the United States brings a 
tremendous wealth of capabilities. American units at the 
brigade level, but beneath the division, are used to plugging 
into those capabilities. So that's a very important 
contribution we have going in the east for us, really a very, 
very robustly resourced effort.
    In the South, I spent a good bit of time with the RC-South 
headquarters. Unlike our American division headquarters, 
there's only three people in RC-South that I could find that 
were there for 1-year tours. The remaining--and that was the 
three most senior people, the two-star commander and his two 
one-star deputies. Virtually the entire remaining staff are 
there for 3-month tours, 4-month tours, or 6-month tours.
    They're an ad hoc organization that wasn't built on a 
headquarters corps. So their abilities to work together and to 
have all the capabilities an American division brings into the 
fight are simply absent, through no fault of their own. That's 
just the way that they were organized and the way that they're 
manned by these various countries.
    So I think there'd be a lot of strength in having a full-
time, at least 1-year duration divisional headquarters in 
southern Afghanistan. An American headquarters would bring a 
tremendous wealth of capabilities. It would also bring the 
long-term manning and the ability to command a much larger 
number of American units that are going to be in the south from 
this point forward.
    We've also talked a bit about whether there might be a need 
to have an interim headquarters in between the four-star 
headquarters in Kabul that oversees the entire country of 
Afghanistan and this more robust fight in the southern part of 
the country in Afghanistan. Today the ISAF headquarters does 
everything from political-military activities all the way down 
to tactics. For any organization, that's extraordinarily 
difficult, to span that breadth of responsibility.
    So I think that there's some benefit in thinking about this 
idea of whether there shouldn't be something like what we have 
in Iraq, where we've had a four-star headquarters that did the 
political-military and strategy, but we had a very important 
three-star headquarters, the Multi-National Corps-Iraq, that 
did all the tactical fighting and the integration of that whole 
counterinsurgency. That was a very important part I think of 
our success in Iraq.
    Senator Reed. Thank you.
    Ambassador Dobbins, I want you to respond to this issue, 
but in your comments you also talk about at the higher NATO 
level, a reorganization, moving their headquarters in Virginia 
down to Tampa. I have a sense too, frankly, in our travels 
there that NATO is sincerely committed to the operations, but 
their organizational structure there--the deputy is in Mons and 
it's remote control more than direct control.
    But please go ahead, Mr. Ambassador.
    Ambassador Dobbins. I think that's right. Our command in 
Afghanistan is divided below General McKiernan and above 
General McKiernan. General Barno has focused on the below 
General McKiernan types of changes, and ideally combining OEF 
and ISAF would be a step in the right direction. My proposal 
has been combining the structures above General McKiernan, 
which I think is independently desirable, whatever you do at 
the lower.
    We may not get a lot more troops out of the Europeans, but 
I think if we could set up a command structure that was 
optimized for conducting this where that itself would be a 
signal that they're taking it seriously.
    Senator Reed. Dr. Strmecki, your comments?
    Dr. Strmecki. I agree with General Barno's prescription. 
I'd just add that it would create a natural point of 
collaboration of the three-star headquarters with our embassy 
to be able to integrate civilian effects into the military 
plan. But I also think it's important to move toward a full 
integration of the Afghan side in strategy, operational 
planning, and execution. They are already the largest force, 
the ANA, in the theater, and if we pursue the right policies 
they will become the dominant force. So having them integrated 
into the planning is important.
    Senator Reed. Thank you very much. My time has expired.
    Chairman Levin. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    One of the reasons that we are seeing some success in Iraq 
is not just the addition of more troops, but rather a change in 
strategy that accompanied the addition of more troops. In that 
regard, I have a lot of concern about sending more troops to 
Afghanistan prior to the administration completing its review 
of what the strategy should be.
    Ambassador, I'd like to start with you, to ask you to 
comment on whether there is a risk of putting 17,000 additional 
troops into Afghanistan before the new administration has 
decided what changes in strategy should accompany that 
insertion of additional troops?
    Ambassador Dobbins. Senator, it would obviously be 
desirable to do the two simultaneously and I'm sure the 
administration would have preferred to, but felt that the 
situation was too urgent. I'd say first of all that the Bush 
administration in its latter years was already altering the 
strategy in Afghanistan toward the model that had been 
established in Iraq, although they hadn't completely embraced 
it. So some of the changes toward a counterinsurgency strategy 
as opposed to a counterterrorism strategy were already put in 
place.
    But to execute that kind of strategy, to execute the kind 
of strategy we did execute in Iraq, you do need more troops. 
You're going to need the troops to execute a strategy that is 
centered around protecting the population, and therefore I 
think sending the troops makes sense.
    So I agree in principle that you're right that it would be 
desirable to do both at the same time. My sense is that the 
administration will probably complete its review on Afghanistan 
and announce the results before most of those troops get there.
    Senator Collins. General Barno?
    General Barno. I would generally agree with the 
Ambassador's comments. Being out there and seeing what the 
demands were on the current level of troops in the south and 
knowing this election is coming up here in August, there is--I 
think a very practical decision was made, which is we know we 
have to get more troops in to help set conditions for a 
successful election; we'll begin that flow and we'll begin 
putting the logistics and the other requirements in place to 
ensure that they're capable of being bedded down where we need 
to put them--in a very austere area, by the way--without having 
the complete strategy approach finished.
    I think it was just a very practical call to make, and 
knowing that the strategy is in its final stages right now and 
seeing where that would probably lead them. But I think the 
election was one of the key drivers on that, a date that's 
fixed, that's not going to go away, that we're going to need 
those troops for.
    Senator Collins. Dr. Strmecki?
    Dr. Strmecki. I would agree with the thrust of your 
comments, that if you send forces without the right strategy 
you're certainly not going to get the optimal result, and you 
may not get--you can even have a counterproductive effect if 
they were put into play in service of a poor strategy.
    I think that a decision to flow the forces had to be made 
now in order to have them available at the time that the 
strategic review would be done. But I think that puts Congress 
and others in a place to really push for the right strategy, 
because the combination of the two can turn the situation 
around.
    Senator Collins. My related concern is that we're putting 
an American face on the effort. It is evident that, despite the 
heroic efforts of Secretary Gates, that most of the NATO 
nations are still very reluctant to step up the number of 
troops that they are sending to Afghanistan. We don't see 
something equivalent to the Anbar Awakening occurring in 
Afghanistan.
    General, is there a danger that this is too much of an 
American operation rather than an Afghan-NATO operation, and 
thus will be more resisted by the Afghan people?
    General Barno. I have the opposite experience. My 
experience with the Afghans during my time there and in my many 
dealings with them since is that they have great confidence in 
American military forces. If they have a choice, they want 
Americans in their districts and their provinces working with 
them out there, because in part the amount of resources that 
the United States brings and in part because of the 
relationships that we've built there.
    I think the reality is as we look at the very demanding 
requirements ahead of us, that the United States is going to 
have to take a bigger role, that the United States is going to 
have to take a stronger leadership position, and that much more 
of what we do there to help fuse this very disparate effort 
that we have been able to put together over the last several 
years is going to have to be fused by American leadership.
    So I think that that's a positive, and I think the Afghan 
people will have a lot of positive reaction to that. I used to 
describe it that when we began this NATO transition that brand 
NATO didn't have any recognition in Afghanistan, brand USA had 
a lot of recognition. Now, that's less true today, but it's 
still I think fairly true.
    Senator Collins. But this is a country with such a history 
of resistance to outside powers. It just seems to me that it's 
imperative that we build up the Afghan army as quickly as 
possible so that the Afghans are taking a lead.
    Ambassador Dobbins?
    Ambassador Dobbins. I quite agree. We need to put not so 
much a NATO face on this as an Afghan face. The Bush 
administration decided last year to double the size of the 
Afghan army, but it's still probably an inadequate number and 
it probably will have to be increased further. The Afghans will 
never be able to afford to pay for that army, and therefore 
implicit in the decision to further increase its size is a 
long-term commitment to support a military structure at that 
level as long as necessary. But I think that's probably a far 
better alternative than envisaging a longer-term American 
military presence.
    Senator Collins. Dr. Strmecki?
    Dr. Strmecki. In my experience the Afghans still want a 
robust American presence. The greater fear is that they're 
going to be abandoned and that the regional powers will again 
return to fight a sort of proxy war in their country. They have 
a very positive feeling toward us for the support we delivered 
to help them fight the Soviets in the 1980s. But you're right 
in the sense that we have to think of the forces we're sending 
as a bridging force until we can ramp up the Afghan forces.
    The first call on new forces in my view should be in the 
mentoring, embedded trainer role, so that we can get that 
Afghan force building its size and capability as fast as 
possible.
    Senator Collins. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Collins.
    We have word that, Ambassador Dobbins, you might have to 
leave at 11:30 a.m. If that is the case, we understand it. But 
we would like to have a second round for those of us that are 
here, for those of you who can stay.
    I want to get back to the size of the Afghan army. It's now 
at apparently about 65,000. The goal is to now double that by 
2011. It originally had been 2013 and I talked to some of the 
Afghans yesterday and some of those who are advising us on the 
size of the army who are U.S. people, that it has to be much 
larger than 130,000, which is the new goal, perhaps, as I think 
the Afghan Defense Minister Wardak suggested, maybe 250,000.
    Dr. Strmecki, you mentioned 250,000. Without getting into 
the question of how much larger, I think all three of you would 
want to see that expedited, would want to see a much larger, 
better equipped Afghan army, and we're going to try to check 
the long poles and see what they are. Again, my understanding 
has been that it's lack of trainers, a significant lack of 
trainers, as a matter of fact a shortfall I believe of 4,000 
minimum, according to General McKiernan's estimate at least 
4,000 trainers short.
    The cost of the army increase is relatively small. If you 
assume $2,000 a year, which is more than the average pay of a 
soldier, an Afghan soldier, if you added 100,000 additional 
above the 130,000 which is our new goal, in terms of pay you're 
talking less than $200 million. Now, that doesn't get to 
equipment, but compared to the other costs it's still fairly 
relatively minimal.
    One of you used a figure that it was at certain times more 
expensive to have an American soldier there than an Afghan 
soldier. One of you used that this morning. Was it you, Dr. 
Strmecki?
    Dr. Strmecki. 50 to 100 times.
    Chairman Levin. 50 to 100 times. So the cost should clearly 
not be the long pole in the tent. Whether it's equipment or 
whether or not it's trainers or something else, it should not 
be cost, given how much we're spending to have American troops 
in Afghanistan. Would you all agree with that, that cost should 
not be a long pole in that tent? Very briefly, would you just 
agree with that?
    General Barno. Absolutely.
    Chairman Levin. Mr. Ambassador?
    Ambassador Dobbins. Yes, but I do think that to the extent 
we can succeed in turning some of the populations in the 
contested regions and bringing them over to our side and 
empowering them to provide local security, we may actually 
limit the burden that we'll be putting on national forces. So 
the total numbers may not be just the numbers for the permanent 
full-time army, but rather the security forces, which might be 
complemented by these other elements.
    Chairman Levin. Dr. Strmecki?
    Dr. Strmecki. I would agree that cost shouldn't be the 
factor.
    Chairman Levin. All right. Now, getting to your point, 
Ambassador Dobbins--I think others have made it as well--
there's a new initiative that's been begun called the Afghan 
Public Protection Program. It works through community councils, 
which select local members of the Afghan Public Protection 
Force who will serve neighborhood watch-like functions in their 
home communities, and essentially be paying local folks to 
maintain security in their communities, which is along the Sons 
of Iraq model.
    Is that model that I've just described the right model, to 
try to get people paid locally to provide their own protection, 
to bypass the central government and the army? If so, what's 
the reaction of the Afghan National Government to the Afghan 
Public Protection Program? Is that a joint program? Is it our 
program? Is it an Afghan program? What is it?
    Dr. Strmecki?
    Dr. Strmecki. It's a program that is run by the Ministry of 
Interior, so it is one that the national government is fully 
vested in. There's a pilot program that's taking place in 
Wardak Province, six districts relatively near Kabul. I think 
it's a good model, because when you look at what we did in 
Iraq, where we operated separate from the Iraqi Government--and 
that was necessary at that time--then came the question of how 
do you integrate this back and how do you vet the people who 
had been in many cases in the enemy camp to join the forces of 
the Iraqi Government?
    Here the vetting takes place through the local community. 
So it's people that they trust that will have the arms put in 
their hands to defend their communities. So I think you've 
leapfrogged the kind of problem that the Sons of Iraq might 
have at the integration stage.
    Chairman Levin. Ambassador?
    Ambassador Dobbins. I think that I wouldn't see this so 
much as bypassing the army and the central government. I think 
there has to be relationships established that make everybody 
comfortable with this. For instance, these local forces are 
going to be quickly overrun unless they can be rapidly 
reinforced by either American, NATO, or ideally Afghan regular 
army units.
    We've been using the Afghan police as a counterinsurgency 
force and they're not suited for that and they're getting 
killed in large numbers, and we need to move to a better model.
    This will create some suspicion on the part, for instance, 
of the northern populations, the Tajiks and the Uzbeks and 
others. They'll see this as essentially a program for arming 
Pashtuns. So that particular dynamic--just like the Shia were 
suspicious about our arming the Sunnis--is going to have to be 
managed.
    Chairman Levin. Even when it's local people?
    Ambassador Dobbins. Well, they're local Pashtuns.
    Chairman Levin. They're suspicious of local Pashtuns in 
Pashtun areas?
    Ambassador Dobbins. Yes, not to the same degree as the 
Sunni and Shia are, but yes. So that aspect of it will have to 
be managed as well.
    But I think it's a step in the right direction. The 
economics of it are pretty clear. If you put 50,000 American 
troops in, you get 10,000 boots-on-the-ground and the rest are 
staff and support. If you recruited 50,000 local Afghans in 
these regions, your net is not just 50,000; it's 100,000 
because you've taken 50,000 Taliban recruits and essentially 
recruited them into your own force. So the economics of it are 
very attractive.
    Chairman Levin. General?
    General Barno. I think it has some merit. It's good to see 
as an experimental program, a pilot, and see what successes 
come from it. But I think there's a risk and there's concern 
out there that it doesn't become a rearming of warlord militias 
in its next incarnation. So I think we have to be very careful 
on how to transition into something beyond this.
    The other thing I think we have to be cautious about is 
that we don't inadvertently take resources away from the police 
training program to do this program. I suspect we're going to 
be doing both as complements to each other, but if there's a 
finite set of resources I think we ought to be careful we don't 
undercut the other important programs we have going.
    Chairman Levin. I'm going to come back to that police 
training program on my next round.
    Senator Hagan.
    Senator Hagan. Thanks, Mr. Chairman. I'll be brief because 
I have to preside in a little while.
    But I do have a question on the upcoming elections. From 
what I understand, President Karzai's term ends May 21 and the 
constitution calls for an election 30 to 60 days before May 21. 
But evidently the country's upland areas will be snowbound for 
several months, which somebody said that maybe when the 
constitution was drafted that wasn't taken into consideration 
in 2003.
    The election commission has recently ruled that, due to the 
logistical and security problems, they've postponed that until 
August 20; and that something I was reading today said that 
Karzai might hold a snap election on April 21.
    My question is what are your thoughts about the upcoming 
election and specifically what that would mean to our troops, 
and the security reasons?
    Ambassador Dobbins. I do think that this will be a pivotal 
event. If it goes well, I think it could be seen as the 
beginning of a turn-around. If it goes badly, particularly if 
an election is essentially indecisive, in which the results are 
hotly contested, then it could be a serious setback.
    Dr. Strmecki. I think the Afghans and the international 
community are going to be able to work through the question of 
timing. In other big events, the loya jirgas and so forth, 
there was a little give and take in terms of scheduling as was 
required by political circumstances or other things. I don't 
think a snap election is in the cards because the logistics are 
so challenging. General Barno is the expert on that in that he 
ran the security and other aspects of the 2004 election in 
concert with the U.N. and others. So I don't think there is 
such a thing as a snap election in Afghanistan.
    General Barno. I would agree with that, but I do think that 
there is potential for some degree of internal crisis in 
Afghanistan over this particular event. There is great debate 
inside the country right now on who is going to be the 
president of Afghanistan after 21 May, because by the 
constitution it can't be President Karzai. Who inherits that, 
what does that mean, what is the impatience for the upcoming 
election in August?
    So this is a very contentious and potentially explosive 
issue that the international community has--I've gone to a 
couple conferences on the election in the last 6 months and 
there's been a feeling that this is the Afghans' election, the 
international community doesn't have a central role, as it did 
in the 2004 and the 2005 election, I think that has taken us 
into some potentially dangerous territory here.
    So I think we're going to have to be very alert to the 
potential for some internal strife if some of these issues that 
Dr. Strmecki pointed out don't get resolved.
    Senator Hagan. Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Hagan.
    Just a few more questions. You talked about, General, the 
importance of not weakening the effort to strengthen the 
national police with the program called Public Protection 
Program. I want to get to the police question. Just how 
realistic are the prospects for developing a noncorrupt, 
competent police force in Afghanistan?
    General Barno. There's a very good program under way now 
called the Focused District Development Program, that takes 
local police out, substitutes them with national police for a 
period of time while the local police are taken away to be 
trained to a higher standard, and then the local police are 
brought back, they're given mentors and the national police are 
sent on to other locations.
    That was launched I think about 18 months ago and it's had 
a lot of success as it marches around the country. The key to 
the sustained success of the program appears to be keeping 
those mentors with those retrained police for a prolonged 
period of time. There's some question whether the actual system 
will support that or not. In the places where that has not 
happened, the police have gone right back to their old ways. So 
I think that program is showing a lot of prospects for success 
and needs to be reinforced as perhaps a nationwide model. It 
may be under way, but I know that it's being implemented in 
slightly different ways in different parts of the country.
    So I think there's high prospects, but we have to get the 
police fixed in Afghanistan. There's not going to be an ANA 
soldier on every corner in Afghanistan, but there should be an 
Afghan policeman on every corner in Afghanistan, and that needs 
to be a trained individual that can do both rule of law, but 
also be able to react if he has Taliban come into his area. The 
Afghan police have not been brought up to that standard yet.
    Chairman Levin. Ambassador, how confident are you we can 
reform the police in Afghanistan? How important is it?
    Ambassador Dobbins. I think within limits we've been 
successful in police training programs in a number of places. 
But you have to have reasonable expectations and it's a 
resource and time-intensive process.
    I do think that the police in Afghanistan have to some 
degree been misused. We need to focus the police on law and 
order type activities and look to other institutions and other 
solutions for counterinsurgency roles in isolated roles, 
situations in which the police will be too rapidly overcome if 
they're left out there on their own.
    Chairman Levin. Dr. Strmecki, do you have any thoughts 
about the police? Can we reform them?
    Dr. Strmecki. The police program has been a challenge from 
day one in Afghanistan. Certainly the stories of the corruption 
and abuses in police forces are largely true. Also we should 
recognize that there are good elements in the police and that 
the police have suffered probably the highest casualty rates in 
engagements with the insurgents.
    I am hopeful, because we're having a bringing together of 
two factors, good leadership in the Ministry of Interior and a 
robust program to support police, development of the police. 
Earlier we had a good minister in 2003 and 2004, but our 
program was underdeveloped. Then in 2005 until 2008 we had a 
poor minister, but a stronger program. Recently President 
Karzai has appointed a very good new Minister of Interior.
    They control the police, and coupled with the robust 
program, now I think the combination of the two gives us some 
prospects for optimism, provided that we can do the kind of 
partnering and mentoring that my colleagues have talked about.
    Again, that brings us back to the question of what's the 
first call on additional forces that we send to Afghanistan, 
and I think the first call on those should be in the mentoring 
and partnering role, not just with the ANA, but also with the 
police.
    Chairman Levin. My final question relates to the Afghan 
NSP. Are you familiar with this community-based development 
approach? As I indicated in my opening remarks, I'm personally 
familiar with at least one example of it, which seemed to be a 
very great success. We heard good things about it from other 
folks in Afghanistan. Are you all familiar with it? If so, 
would you tell us what your assessment is of it?
    There's a new program that attempts to create links between 
the local and the national levels in this area which is called 
the Afghanistan Social Outreach Program. If you're familiar 
with that program, do you believe that it's intended to be a 
substitute for the Afghan NSP?
    So what do you know about NSP? Is it a good program? Is it 
working? Should it be expanded, continued? Is that other new 
program, Afghanistan Social Outreach Program, something which 
works along with it or is it threat to it, assuming that NSP is 
a good program?
    Anyone of you, are you familiar with it? Dr. Strmecki?
    Dr. Strmecki. Afghan NSP I think is one of the great 
successes in Afghanistan. It's an Afghan-led program out of the 
Ministry of Rural Reconstruction and Development, that created 
23,000 community development councils. So these are small 
councils in villages that determine what reconstruction 
priorities they have or development priorities they have.
    Those are then channeled up to the ministry and then a 
grant is made to enable the local community to carry it out. So 
it really shows that an Afghan institution can deliver results 
for the people.
    Chairman Levin. Again, let me interrupt. These are small 
grants.
    Dr. Strmecki. That's right.
    Chairman Levin. $16,000 or something like that.
    Dr. Strmecki. Exactly. They've carried out more than 35,000 
projects across the country. So it's a tremendous success, 
given the environment, given the underdeveloped nature of the 
Afghan state. It really shows if you take that model, that 
national program model, you could apply it in other areas.
    Now, the Afghan Social Outreach Program I have to confess I 
haven't heard of it. So I will have to take that and discover 
its nature and get back to you.
    [The information referred to follows:]

    The Afghan Social Outreach Program is an Afghan-led program to 
mobilize local communities and connect them to their government. The 
problem that the program seeks to solve is that, at the district level, 
the Afghan Government does not have a political body to engage and to 
cooperate with at the local level. The program involves the 
organization of broadly representative community councils at the 
district level, which will be phased out and replaced by elected 
district councils in 2010. The stated goal for these councils is to 
foster community solidarity to prevent infiltration by anti-government 
elements, to provide a mechanism for conflict resolution, and to 
provide an organized channel for local communities to communicate and 
engage with the Afghan Government, particularly its police and security 
services. The councils will not implement or manage funds for 
development projects--a task that will remain with the development 
councils created under the National Solidarity Program (NSP). To 
directly answer your question, the Afghan Social Outreach Program 
should not be viewed as a threat to the NSP.

    Chairman Levin. Thank you.
    Ambassador Dobbins?
    Ambassador Dobbins. The NSP certainly gets good marks from 
everybody I've talked to. I do think that we talked about 
creating local, village-based defense forces controlled by 
local village councils. I think the important thing is to link 
these different programs and to ensure that you're not only 
empowering the local representatives in the security area, but 
also to be providing resources through these other programs, so 
that they're not only taking responsibility for their own 
security, but for deciding what development programs are to be 
instituted and then actually delivering the resources for those 
deployment programs.
    I think our PRTs and our military can play a strong role in 
ensuring that the efforts to provide those kinds of resources 
are adequately secured, so they actually show up and are used.
    Chairman Levin. General?
    General Barno. I would agree with Dr. Strmecki on the 
overall benefit of the program. The Social Outreach Program, 
I'm not sure if that's synonymous with what's called the 
Independent Directorate of Local Governance (IDLG), which I 
have heard is a competitor at times with the Afghan NSP. The 
IDLG is a program that President Karzai has set up to really 
connect him more directly to the local governance and work at 
the local area, in effect somewhat independently of some of the 
structures of government, that's had some success, but I don't 
have a great knowledge of how the details of that are being 
implemented.
    Chairman Levin. I promised that would be the last question, 
but there is one that I overlooked. Predator strikes--we've 
talked about these--in Pakistan. There are plusses--they hit 
some of their targets--it misses targets, hits innocents at 
times. They're going to continue, apparently. So there's up 
sides and down sides to those strikes.
    The Government of Pakistan attacks them and that creates a 
very negative public perception of us, and by some accounts it 
becomes a recruiting tool for future terrorists and people who 
violently attack us.
    Are they worth it overall, General, in Pakistan?
    General Barno. My sense is they are having a major impact 
on the enemy. In open session I think that's as far as I would 
go with that.
    Chairman Levin. That's fine.
    Ambassador Dobbins?
    Ambassador Dobbins. I think it's a difficult balance 
between the political impacts they have on Pakistan and the 
specific tactical victories. I don't have a basis to challenge 
either this or the last administration's judgment that on 
balance it's something that we should be doing. But clearly 
it's something that we should be continually reevaluating.
    Chairman Levin. Dr. Strmecki?
    Dr. Strmecki. I work primarily from open sources in 
following Afghanistan, so I can't adequately judge the return 
in terms of degrading the enemy. I've spoken to Afghans, senior 
Afghan officials, who believe that it is degrading.
    Chairman Levin. You're talking about Pakistan?
    Dr. Strmecki. But I've spoken to Afghan senior officials 
who said those attacks are degrading some elements of the 
cross-border capability. But that's not direct evidence that I 
have.
    Chairman Levin. Shouldn't we at least expect that Pakistan 
not vehemently attack something that we're doing, that they've 
been informed about, according to Secretary Gates? Shouldn't we 
at a minimum expect the Pakistan Government--we understand the 
politics of it, that they want to disassociate themselves from 
the innocents who are killed. But shouldn't we expect that they 
can disassociate themselves without the vehement attacks on 
them, publicly calling for them to end, which they have? At the 
same time there's some suspicion that they may not want them to 
end, that they at a minimum acquiesce in them, know about them?
    So that's my question. If they politically need to 
disassociate themselves, even criticize the loss of innocent 
lives, isn't the vehemence of their criticism beyond what we 
should expect the Pakistan Government to be doing? Anyone want 
to comment on that?
    General Barno. The only comment I think I'd make, Mr. 
Chairman, is that this is still a very new government and they 
are still finding their footing. The nation hasn't been 
governed by a civil leadership in many, many, many years, and 
this government is still trying to discover how it connects to 
its population, what its role is, how it should look at these 
issues.
    I think that over time as they grow in maturity that this 
outward manifestation of how they feel about this may change a 
bit.
    Chairman Levin. Anyone else want to comment on that?
    Ambassador Dobbins. I tend to think that rhetorical 
protestations are probably the least we can expect. The 
Pakistanis could be taking steps to make it more difficult for 
us, which they're not. They could be inhibiting our transit 
rights, overflight rights. They're not. So as a practical 
matter they are acquiescing in this behavior.
    They are paying some political price domestically for 
acquiescing in it. If they were actually to stop their 
rhetorical protests, they would be paying an even higher 
domestic price. I don't know whether it's in our interest to 
have them do that.
    Chairman Levin. I'm talking about the extreme nature of it, 
the vehemence of the protest, not just the fact of it. Maybe 
I'm being too fine-tuned in my thought.
    Dr. Strmecki?
    Dr. Strmecki. I think I share your dissatisfaction with 
their posture, and I'd suggest that an engagement with them 
over time that goes to what General Barno said earlier, about 
what is the positive vision that our relationship will have for 
Pakistan's sake over the long term, is critical, so that then 
this aspect of the relationship can be put into a wider 
context, and together the Pakistani Government and us can 
engage the public to say, we're here for the long haul for 
Pakistan's sake, these are the things that we're doing to 
improve the Pakistan economy, the educational system, 
universities and so forth, but we together have to deal with 
this dangerous extremist threat, that's a threat to both 
Pakistan and to the United States.
    So getting the relationship to that footing, I think, is 
the solution to this unsatisfactory current situation.
    Chairman Levin. I promised that that was the last question. 
Senator Reed came just in time.
    Senator Reed. Mr. Chairman, I would never undercut your 
commitment.
    Chairman Levin. No, no.
    Senator Reed. No, these gentlemen have been very generous 
with their time, and I just again want to thank them.
    Chairman Levin. Senator Webb has asked that a U.S. News 
article by Andrew Basovich called ``Afghanistan Surge Is Not 
Worth The Cost in Blood and Treasure'' be inserted in the 
record. It will be at this point.
    [The information referred to follows:]
     Afghanistan Surge is Not Worth the cost in Blood and Treasure

           by Andrew Bacevich, USNews.com, February 23, 2009

    More than 7 years after September 11, the global war on terrorism--
in Pentagon parlance, the Long War--is entering a new phase. Attention 
is now shifting back to Afghanistan, with President Obama seemingly 
intent on redeeming an ill-advised campaign pledge to increase the U.S. 
troop commitment to that theater of operations. Yet as the conflict 
continues, the correlation between American actions and America's 
interests is becoming increasingly difficult to discern. The 
fundamental incoherence of U.S. strategy becomes ever more apparent. 
Worst of all, there is no end in sight.
    Almost forgotten now, the theme of the Long War's first phase was 
shock and awe. Starting with its invasion of Afghanistan in October 
2001, the Bush administration set out to demonstrate America's military 
supremacy. With a series of crushing defeats of its enemies, the United 
States would eliminate conditions that fostered and sustained jihadist 
activity, thereby ``draining the swamp.'' From military victories would 
come political reformation.
    U.S. successes in overthrowing the Taliban and then toppling Saddam 
Hussein lent to these expectations a superficial plausibility. No 
sooner had President Bush declared ``Mission Accomplished'' in Iraq, 
however, than things began to unravel. Military campaigns expected to 
be brief and economical became protracted and costly.
    As hopes of transforming the greater Middle East dimmed, the war on 
terrorism entered its second phase. On July 1, 2003, Bush himself 
expressed its central theme: ``Bring 'em on.'' In a conflict commonly 
described as global, Iraq and Afghanistan now absorbed the lion's share 
of attention. In Iraq, the Bush administration remained intent on 
achieving decisive victory. By winning there, the entire project of 
transformation might still be salvaged.
    Yet efforts to achieve a military solution yielded not decision but 
escalating levels of violence. Confident chatter of ending tyranny and 
liberalizing the Islamic world ceased. The strategic focus narrowed 
further: In common parlance, ``the war'' no longer meant the larger 
struggle against terrorism; it meant Iraq. There, U.S. commanders had 
willy-nilly adopted a strategy of attrition, which produced frustration 
on the battlefield and backlash on the home front. When the November 
2006 elections installed a Democratic majority in both Houses of 
Congress, Bush pulled the plug on Phase 2, sacking his Defense 
Secretary and announcing plans to change course.
    Phase 3 of the Long War commenced when Bush appointed Robert Gates 
as Defense Secretary and General David Petraeus as his fourth commander 
in Baghdad. On one key point, Gates and Petraeus concurred: Iraq was 
unwinnable in strictly military terms. Events had shredded any 
expectations of the United States coercing Muslims into embracing 
liberal values. From the Green Zone, Petraeus launched what was in 
effect a salvage operation. The emphasis shifted from chasing 
insurgents to protecting the Iraqi people. Under what was styled as the 
Sunni Awakening, the United States offered money and arms to militants 
who promised to cease attacking coalition forces. Thanks to this 
``surge,'' the level of violence in Iraq diminished appreciably. 
Although Petraeus by no means solved the Iraqi conundrum, he pulled 
that country back from the precipice of disintegration.
    This limited success did not suffice to redeem the presidential 
hopes of Senator John McCain, who made his support for the surge the 
centerpiece of his campaign. Barack Obama, a consistent critic of the 
war, beat McCain handily. Yet if Obama's supporters read his win as a 
repudiation of Bush's Iraq policies, the election's outcome had a 
second effect, paradoxically serving to ensure the Long War's 
continuation. Even as Petraeus was tamping down the level of carnage in 
Iraq, conditions in perennially neglected Afghanistan had eroded. In 
2008, the Taliban returned to the offensive. Allied casualties 
increased. Fighting spilled across the border into Pakistan, which 
became the Long War's de facto third front. Obama, the candidate who 
vowed to get out of Iraq but needed to protect himself from the charge 
of being weak on national security, promised if elected to up the ante 
in Afghanistan.
    So Obama's inauguration finds the Long War in transition to a new 
fourth phase. In Iraq, the surge has reached its ambiguous conclusion: 
Petraeus has moved on, leaving to his successor the problem of 
extricating the 140,000 U.S. troops still there without destabilizing 
the country. More important, Afghanistan, now coupled with Pakistan, 
has returned to the front burner. In effect, the Long War that began in 
Central Asia in 2001 and then shifted to the Persian Gulf in 2003 is 
now seesawing back to Central Asia.
    What has been lost along the way, in addition to over 4,000 U.S. 
troops and enormous sums of money, is any clear sense of purpose. No 
serious person believes any longer that the United States possesses the 
capacity to transform the Islamic world. Our efforts to drain the swamp 
have succeeded mostly in exacerbating the anti-Americanism on which the 
jihadists feed. Testifying before a Senate committee recently, Gates 
mocked the idea of converting Afghanistan into ``some sort of a Central 
Asian Valhalla.'' Using a now familiar Pentagon mantra, he declared, 
``There is no purely military solution in Afghanistan.''
    At a time of trillion-dollar deficits and grave economic crisis at 
home, the questions must be asked: What will the Long War accomplish? 
How long will it last? What will it cost? Who will pay? The time to 
address these questions is now. Obama's freedom of action will never be 
greater than it is today. Should he dodge these issues and plunge more 
deeply into Afghanistan, the Long War will very soon become Obama's 
war. He will richly deserve the obloquy to be heaped on his head as a 
consequence.

    Chairman Levin. You have been terrific witnesses. It's been 
a very valuable hearing and we're grateful for your attendance. 
We will stand adjourned.
    [Questions for the record with answers supplied follow:]
             Questions Submitted by Senator Daniel K. Akaka
                             exit strategy
    1. Senator Akaka. General Barno, one of the issues I had in the 
beginning of the Iraq war was the lack of a definitive exit strategy. 
Secretary Gates recently stated, ``the goals we did have for 
Afghanistan are too broad and too far into the future.'' He went on to 
say, ``we need more concrete goals that can be achieved realistically 
within 3 to 5 years.'' To what extent do you believe that the 
Department of Defense has developed a clear, definitive exit strategy 
in Afghanistan?
    General Barno. Senator, I do not have specific information on the 
degree to which the Defense Department has developed a clear and 
definitive exit strategy for Afghanistan. That said, I also believe 
that any public strategy which identifies ``exit'' as an objective in 
effect imbeds within such strategy the seeds of its own destruction. In 
the case of Afghanistan, a primary theme of the Taliban has been: ``The 
Americans have all the wristwatches but we, the Taliban, have all the 
time.'' The Taliban strategy is simply to run out the clock and 
convince the population and their fighters that the United States has 
no resolve for winning this fight; history tends to support their case. 
Our exit strategy must be predicated on ``success''--creating a nation 
and region stabilized in the political, economic, and security realms 
to the extent that U.S. forces are no longer needed.

                              troop levels
    2. Senator Akaka. General Barno, President Obama recently committed 
an additional 17,000 military troops to Afghanistan in an effort to 
stabilize what has become a deteriorating situation. However, it is my 
firm belief that there is no pure military solution to the challenges 
we face in Afghanistan. What immediate steps do you think we should 
take from a political and economic standpoint as part of a more 
comprehensive effort to stabilize the current situation in Afghanistan?
    General Barno. Additional military forces are necessary, but as you 
point out, not in and of themselves sufficient to assure the outcome. 
On the political front, our most important objective this year--and one 
in which the military must play an enabling role--is to set conditions 
for a free, fair, and secure Afghan presidential election in August. 
This event will become the ``strategic report card'' on the entire 
international enterprise. On the economic front, I believe that a 
wholesale major effort must be taken to reform and reinvigorate the 
Afghan agricultural sector. Nearly 80 percent of the Afghan economy is 
connected to agriculture, yet to date the international community has 
done little to even return Afghanistan to the functioning agricultural 
state that it was in the 1960s and 1970s. This is a crucial component 
in any economic development program, and one which lacks coherence 
today.

    3. Senator Akaka. Ambassador Dobbins, the people of Afghanistan 
must be able to secure its borders and deny cross-border mobility to 
insurgents and drug traffickers. Pakistan made a truce with Taliban 
forces that many feel creates a safe haven for terrorists. In your 2007 
testimony to the Senate Foreign Relations Committee, you stated ``U.S. 
and NATO troops will be required indefinitely as long as the Taliban 
and the other insurgents groups are able to recruit, train, raise 
funds, and organize their operations in Pakistan.'' This recent truce 
further complicates this situation. Do you still feel that this is an 
accurate assessment of future troop requirements in the region?
    Ambassador Dobbins. Afghanistan cannot be fully stabilized until 
the threat from insurgent groups operating out of Pakistan is brought 
under control, and that task will have to be performed principally by 
the Pakistani Government. Until that occurs, Afghan forces alone are 
unlikely to be sufficient to secure Afghan territory and population. 
Reliance upon American and NATO troops can be reduced, however, as 
Afghan national and local forces become more proficient, and the Afghan 
administration becomes more effective in providing public services to 
the populations in the contested regions.
    As I said in my February 26 testimony, we should worry less about 
end states, and more about the direction and pace of change, 
particularly as regards public security. If we can reverse, over the 
next year or 2, the current negative trends in public security, the 
need for a large scale presence of foreign forces can be reduced, if 
not eliminated altogether.

    [Whereupon, at 12:00 p.m., the committee adjourned.]

                                 <all>

</pre></body></html>
